<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
   COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2012 

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 JOHN ABNEY CULBERSON, Texas               CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama               ADAM B. SCHIFF, California
 JO BONNER, Alabama                        MICHAEL M. HONDA, California
 STEVE AUSTRIA, Ohio                       JOSE E. SERRANO, New York
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas   

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Mike Ringler, Stephanie Myers, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________
                                 PART 9

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                                   S

                                ________
         Printed for the use of the Committee on Appropriations












PART 9--COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS 
                                FOR 2012

















  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________






















    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 JOHN ABNEY CULBERSON, Texas               CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama               ADAM B. SCHIFF, California
 JO BONNER, Alabama                        MICHAEL M. HONDA, California
 STEVE AUSTRIA, Ohio                       JOSE E. SERRANO, New York
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas                

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Mike Ringler, Stephanie Myers, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________
                                 PART 9

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 65-563                     WASHINGTON : 2011























                             COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\        NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\          MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia              PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia               NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey  JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                     ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama          JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri             JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                   ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho            DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana               SAM FARR, California
 JOHN R. CARTER, Texas                JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana          CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California              STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                   SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio           BARBARA LEE, California
 TOM COLE, Oklahoma                   ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                  MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida           BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania
 STEVE AUSTRIA, Ohio
 CYNTHIA M. LUMMIS, Wyoming
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas
 ALAN NUNNELEE, Mississippi
   
 ----------

 <SUP>1}}</SUP>Chairman Emeritus   

               William B. Inglee, Clerk and Staff Director

                                  (ii)


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2012

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              


                                          Friday, March 11, 2011.  

              REGIONAL INFORMATION SHARING SYSTEMS (RISS)

                                WITNESS

GERALD P. LYNCH, CHIEF EXECUTIVE OFFICER, REGIONAL INFORMATION SHARING 
    SYSTEMS (RISS)
    Mr. Wolf. So many people from around the country and people 
have plans. And so if you really can, when the light comes on, 
please, please, you know, if you can.
    All the statements will appear in the record and all the 
statements will be read, so I would just say that.
    With regard to that, let me just say the first witness, 
Regional Information Sharing Systems, chief executive officer, 
Gerald Lynch.
    Mr. Lynch, or, Mr. Fattah, do you have any comments?
    Mr. Fattah. I yield my time to help us move through the 
witness list.
    Mr. Wolf. Okay. Thank you.
    Go ahead, sir.
    Mr. Lynch. Chairman Wolf, Ranking Member Fattah, Members of 
the subcommittee, I appreciate the opportunity to appear before 
you to discuss the Regional Information Sharing System or the 
RISS Program.
    RISS is a nationwide program consisting of six regional 
centers that provide services to local, state, federal, and 
tribal law enforcement agencies and criminal justice agencies 
in all 50 states, the District of Columbia, Australia, Canada, 
England, U.S. Territories, and New Zealand.
    More than 8,700 agencies and hundreds of thousands of 
offices utilize the RISS resources and services. RISS enhances 
the ability of criminal justice agencies to identify a target 
and remove criminal conspiracies and activities while promoting 
officer safety.
    RISS offers access to a multiple intelligence database, 
connects disparate systems, and provides essential 
investigative services including analytical, investigative 
research equipment, training, field support, and technical 
assistance.
    There are more than 600 resources available via the RISS 
secure intranet known as RISSNET. The owners of these resources 
rely on RISSNET for its proven and secure infrastructure. RISS 
enhances officer safety through its RISS Safe Program and 
offers extensive gang resources. In many cases, these are 
services that agencies would not otherwise receive.
    Utilizing RISSNET's existing infrastructure as a connection 
backbone eliminates develop costs for new systems. Almost 100 
systems are connected or pending connection to RISSNET 
including 31 HIDTAS, 38 state agencies, and 22 federal and 
other systems.
    The Interagency Policy Committee which was formed within 
the jurisdiction of the executive office of the President 
identified RISSNET as one of the four SBU/CUI networks 
necessary to be involved in the SBU Interoperability 
Initiative.
    RISS represents the voice of local and state law 
enforcement in this initiative which will enable a simplified 
sign-on capability. RISS also supports the National Nationwide 
StAR Initiative, the National Virtual Pointer System, the 
National White Collar Crime Center, and the National Gang 
Intelligence Center.
    The 2012 President's budget addresses the need to support 
state, local, and law enforcement efforts and national 
security, yet the budget includes RISS, a central component to 
support these initiatives at $17 and a half million, a 
reduction of $27 and a half million from 2010.
    If a reduction of this magnitude occurs, it will have 
profound effects on our criminal justice community and will 
cripple RISS' ability to provide its vital services. A 
reduction would result in the inability to maintain RISSNET and 
its applications such as RISSIntel and RISSafe, RISSGang, RISS 
ATIX.
    It would revert back to the pre-9/11 days. Cases that would 
have been resolved effectively and efficiently using RISS 
services may not be solved timely if at all. It is imperative 
that RISS' funding for 2012 be restored to its 2010 level of 
$45 million.
    RISS is an outstanding investment in our Nation's security. 
Since 2000, Congress has invested $353 million in RISS. In 
return, RISS gave back $857 million in narcotics, currency, and 
property seized. This is a 142 percent increase on the return 
on the investment.
    Over the last ten years, RISS trained more than 600,000 
officers and produced more than 250,000 analytical products 
which are essential in identifying and prosecuting offenders. 
Since 2000, there were 42,000 individuals arrested using RISS 
services. RISS also has 300,000 operations entered into the 
Officers Safety Event Deconfliction System resulting in 100 
conflicts.
    So we are just asking the committee if they would just fund 
us at the $45 million level.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Well, thank you for your testimony.
    I have visited the RISS center up in Bucks County a while 
back. Thank you.
    Mr. Fattah. It is a great program and I intend to work with 
the chairman in trying to be responsive to your request.
    Mr. Lynch. That would be greatly appreciated and we do 
appreciate all this committee has done in the past.
    Mr. Wolf. Thank you.
    The next witness is SEARCH, Kelly Harbitter.
    And let me thank you, too, for keeping to the time. I 
appreciate that too.
    Mr. Fattah. That bodes well for your request too.
    Ms. Harbitter. I am going to talk fast.
    Mr. Wolf. Go ahead.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                                 SEARCH


                                WITNESS

KELLY J. HARBITTER, PROGRAM AND POLICY ADVISOR, SEARCH
    Ms. Harbitter. Good morning. I am Kelly Harbitter, programs 
and policy advisor for SEARCH.
    Thank you, Chairman Wolf and Members of the subcommittee, 
for the opportunity to appear before you today.
    SEARCH is a state justice support organization comprised of 
one gubernatorial appointee from each of the 50 states and 
territories. Its mission is to promote the effective use of 
information and identification technology by justice agencies 
nationwide.
    The organization has a long-standing partnership, over 40 
years, with the Department of Justice to promote information 
sharing while protecting the privacy of the individuals that 
are subject to such information sharing.
    On behalf of SEARCH, I am here to support some of the 
important DoJ programs that facilitate nationwide justice 
information sharing efforts.
    As Attorney General Eric Holder testified before this 
subcommittee just last week, DoJ recognizes its responsibility 
to offer financial assistance to its state and local partners 
to enhance the Nation's criminal justice capabilities. One such 
critical program is the National Criminal History Improvement 
Program, the NCHIP Program, administered by BJS at Department 
of Justice.
    Criminal History records provide key information to 
federal, state, and local decision-makers regarding law 
enforcement investigations, sentencing, reentry, homeland 
security, and anti-terrorism, non-criminal justice purposes 
such as security clearances and employment suitability and many 
others.
    NCHIP funds state governments to improve the accuracy, 
completeness, and timeliness of criminal history records. These 
state records provide key information to the federal record 
systems including the FBI criminal history files. Without 
adequate funding to improve the state records, the quality and 
quantity of records submitted to the FBI will be compromised.
    Aging infrastructure must be updated and new technologies 
that improve information sharing must be implemented. Basically 
without funding, the information sharing roads are not 
maintained and we're not leveraging the latest and greatest 
technology to help us do our jobs better.
    In recent years, NCHIP has been significantly under-funded. 
Some states no longer receive any allocation from the NCHIP 
grants.
    The President's budget provides $12 million for NCHIP. 
While this is one of the few increases in the budget over 
fiscal year 2010, when this amount is divided among the 50 
states, it is not enough.
    Second, I would like to talk about the National Instant 
Criminal Background Check System or NICBCS. The system allows 
retailers to determine whether a prospective buyer is eligible 
to buy firearms or explosives. Again, the states supply the 
records to be searched during the NICBCS criminal background 
check.
    NICBCS funding has enhanced the ability of states to 
contribute these records, but there is still much more work to 
be done. States see the clear value of improving their records 
and are willing to do so. That is why funding is so important 
to the end game. Without a comprehensive, complete, and 
accurate background check, dangerous individuals could be 
allowed to purchase firearms and put the public at risk.
    In light of recent and high-profile tragedies at Virginia 
Tech and Arizona, NCHIP and NICBCS help keep weapons out of the 
hands of people who should not have them.
    The proposed budget funds NICBCS at $12 million, a 
reduction from fiscal year 2010 and far below the authorized 
appropriations level of $200 million. States need at least $200 
million annually to effectively participate in NICBCS.
    I would also quickly like to share SEARCH's support for the 
Byrne Discretionary and the Competitive Grant programs. Both of 
these programs have helped state and local justice agencies 
implement mission critical information sharing systems over the 
years.
    The Byrne Discretionary Program is not funded in the 
current budget. We urge Congress to restore the program. The 
Competitive Program has been reduced to $25 million. We believe 
$65 million is an appropriate amount to allow for these 
programs that help leverage federal funding to the states and 
locals by funding programs to prevent crime, improve the 
administration of justice, and assist victims of crime.
    So in closing, congressional support for the state criminal 
history repositories and justice information sharing is vital. 
By strengthening a state criminal history record, we improve 
critical decisions such as those about handgun purchases across 
the country.
    And on behalf of SEARCH, I would like to thank you for the 
opportunity to testify here today.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you.
    And it might be helpful if you could have the 50 governors 
send the chairman a letter asking that we, even though there is 
an increase, that we still need to do more because a lot of 
these governors out there are telling the public that the 
Federal Government needs to be cutting spending.
    Ms. Harbitter. Uh-huh.
    Mr. Fattah. So it is somewhat inconsistent.
    Ms. Harbitter. Yes.
    Mr. Fattah. And so if we could hear from the appointees----
    Ms. Harbitter. Right.
    Mr. Fattah [continuing]. In these 50 states that this is a 
program that they find to be vitally important and that would 
be helpful. Thank you.
    Ms. Harbitter. Yes, sir. That is an excellent point and 
actually one that we want to put together some metrics to share 
with you all as well. So I will take that back for us to do.
    Mr. Wolf. Thank you.
    Next witness, Independent Review Team, Elbridge Coochise, 
the chief justice retired.
                              ----------                              

                                          Friday, March 11, 2011.  

                        FUNDING OF TRIBAL COURTS


                                WITNESS

ELBRIDGE COOCHISE, CHIEF JUSTICE RETIRED, INDEPENDENT REVIEW TEAM
    Mr. Coochise. Thank you, Chairman.
    Good morning, Chairman Wolf, and thanks for the opportunity 
to come before this subcommittee regarding funding of Tribal 
Courts.
    First of all, we do want to thank you very much for the $10 
million additional funding in fiscal year 2010 that went out 
for Tribal Courts. It was very welcome news for the court 
systems.
    As I mentioned before, there are about 300 Tribal Court 
systems including CFR courts run by the BIA in the Lower 48 and 
then in Alaska about another 45 that are developing.
    And our request is an additional $10 million. One of the 
main reasons is the New Law and Order Act that was passed by 
Congress. If the tribes are going to do the extended sentencing 
beyond the one year and $5,000, it requires attorneys who are 
barred both as judges, prosecutors, and public defenders. And 
there is no money with the Tribal Law and Order Act as of 
today.
    So our team has been reviewing a number of courts, and I 
gave a report last year, so you can have it. On the last two 
pages, there is a list of 79 courts that we have reviewed thus 
far and also the breakdown of what courts we reviewed last year 
in 2010.
    And OMB's specification to look at speedy trial issues are 
all in there and the statutes and whether there is violations 
or not.
    So with the courts, also are funding, there are currently 
184 that get federal funding out of the 300. And the federal 
funding amounts to about 26 percent of the total court budgets 
in Indian Country. So our request is again to appropriate 
dollars on the Indian Tribal Justice Act Congress passed a 
number of years ago that has not been funded yet with the 
additional things as listed in the first pages, the salaries 
and trying to get technology in the court systems.
    We were in Oklahoma last week and found out that one tribe 
got $6,500 out of that $10 million, so now they can get a 
recording system instead of using those cassette recorders that 
they have been using in court.
    And so our courts need assistance in Indian Country and we 
appreciate what you can do to add more money into the budget 
for the court systems.
    And the reports in front of you have the listing and the 
charts and the coloring that we couldn't put in the testimony.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you, sir. Chief Justice, thank you for your 
testimony. We appreciate it very much.
    Mr. Fattah.
    Mr. Fattah. Thank you.
    And we want to work and see how we can be even more helpful 
than we have been to date.
    Thank you.
    Mr. Coochise. Well, thank you very much for this 
opportunity.
    Mr. Wolf. Thank you.
    Next witness will be National Crime Prevention Council, Ann 
Harkins.
                              ----------                              

                                          Friday, March 11, 2011.  

                   NATIONAL CRIME PREVENTION COUNCIL


                                WITNESS

ANN M. HARKINS, CHIEF EXECUTIVE OFFICER, NATIONAL CRIME PREVENTION 
    COUNCIL
    Ms. Harkins. Thank you, Chairman Wolf, Ranking Member 
Fattah, and Members of the subcommittee, for the opportunity to 
testify this morning and for holding these public hearings.
    I am Ann Harkins, President of the National Crime 
Prevention Council, home of McGruff the Crime Dog.
    For more than 28 years NCPC has provided practical 
research-based information on proven and cost-effective crime 
prevention practices to citizens, law enforcement, and 
community leaders across the country.
    NCPC strongly supports the Byrne Competitive Grant Program 
and encourages the subcommittee to appropriate $40 million for 
it in fiscal year 2012, the same as fiscal year 2010, although 
we would be delighted to support our colleagues from SEARCH in 
their request for an increase to $65 million.
    We respectfully urge you to sustain funding for the 
successful program even in tough economic times because it is a 
solid investment in the safety of all Americans.
    Importantly, the Byrne Competitive Program supports Byrne 
JAG and state and local law enforcement. They provide training 
and evidence-based practices to the field, thus enhancing and 
leveraging grant funding.
    The National Crime Prevention Council respectfully requests 
that the subcommittee also fund two essential crime prevention 
functions in fiscal year 2012. The first is an independent 
nongovernmental national repository and clearinghouse on best 
practices. Local law enforcement deserves the best materials on 
effective crime prevention practices to get the best possible 
outcomes from your substantial investments in Byrne JAG and 
other local and state assistance programs.
    The second essential function is a strong national 
advertising campaign to reach citizens with evidence-based 
crime prevention messages. It has tremendous impact in changing 
individual and collective behavior to prevent crime which is 
the most cost-effective way to address criminal justice issues.
    In the early 1980s, the Department of Justice and others 
formed the National Crime Prevention Council, a public/private 
partnership to establish a crime prevention public education 
campaign. The most visible portion of the campaign features 
McGruff and his signature message that inspires all Americans 
to take a bite out of crime.
    Prior to that campaign, Americans thought that crime 
prevention was the sole responsibility of law enforcement. Then 
we focused on encouraging people to utilize lights, locks, and 
alarms to help keep themselves safe.
    Over 30 years, the campaign generated $1.5 billion in 
donated media at extremely low cost. I am proud to report that 
today citizens and community groups realize that crime 
prevention is everyone's business and we at the National Crime 
Prevention Council are addressing problems from cyber bullying 
to intellectual property theft while still encouraging people 
to keep themselves safe at home and in their communities.
    NCPC is proud of the work we did with you, Mr. Chairman, to 
address anti-gang issues and prevention and also the Safer 
Cities Project which we worked on in Philadelphia.
    Let me share two quick ideas. The crime prevention 
techniques of watching out and helping out, keeping alert and 
becoming engaged in your community work equally well for 
homeland security and we hope that the subcommittee will 
support us in our effort to use those techniques that are 
proven to help us protect the Nation as well.
    We also have a new program for 18 to 24-year-olds, the 
largest cohort of victims of crime. We call it First Timers. 
The first time you rent an apartment, the first time you buy a 
car, the first time you perhaps go to a party on your own, we 
want to help these young people make that first time not the 
first time they become a victim of crime.
    In closing, an ongoing crime prevention campaign is 
essential to maintaining years of progress and commitment from 
this subcommittee and the Congress. We hope you will work with 
us to continue that effort.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Great. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. No, thank you.
    Mr. Wolf. Okay. Next witness will be Fight Crime: Invest in 
Kids, Gabriel A. Morgan.
    Welcome.
                              ----------                              

                                          Friday, March 11, 2011.  

                      FIGHT CRIME: INVEST IN KIDS


                                WITNESS

GABRIEL A. MORGAN, SR., SHERIFF, NEWPORT NEWS CITY SHERIFF'S OFFICE, 
    FIGHT CRIME: INVEST IN KIDS
    Mr. Morgan. Good morning, Mr. Chairman, Members of the 
committee. Thank you for the opportunity to testify before you 
today.
    I have more than 35 years in law enforcement at the 
federal, state, and local level. I currently serve on the board 
of directors of a number of professional organizations 
including Alternatives, Girls, Inc., Boys and Girls Club, Big 
Brothers, Big Sisters. And I do not just talk about youth 
development. I live it.
    I speak before you today as a member of Fight Crime: Invest 
in Kids, a national organization of more than 5,000 law 
enforcement leaders who have come together to take a hard-nosed 
look at research about what really works to keep kids from 
becoming criminals including interventions on how to get them 
back on the right track.
    It is interesting to note that Fight Crime: Invest in Kids 
takes no federal, state, or local money and does not run any of 
the programs we advocate for.
    Tough law enforcement will always be necessary to keep the 
streets safe. However, the numbers tell us that punishment 
alone is not always enough. Take, for example, that among 
second-time offenders age 14 or younger, a shocking 77 percent 
will come back for a third court appearance.
    I know from my experience and from the research that 
targeted investment can help reduce recidivism, increase public 
safety, and save valuable taxpayers' dollars.
    I am not talking about feel-good social programs or hug a 
thug. I am talking about scientifically tested approaches that 
help keep kids away from crime and reduce recidivism and which 
makes fiscal sense in these difficult times.
    The Federal Government is an instrumental player in 
advancing a proactive crime reduction approach through 
evidence-based approaches. Title 2 and 5 of the Juvenile 
Justice Delinquency Prevention Act and the Juvenile 
Accountability Block Grant, juvenile mentoring programs, and 
funding on the Second Chance Act all provide needed support for 
evidence-based prevention and intervention strategy.
    How do we keep kids away from crime? The Title 5 Local 
Delinquency Prevention Grants are the only federally-funded 
source dedicated solely to the prevention of youth crime and 
violence.
    Fourteen million children lack proper adult supervision 
between the hours of three and six p.m., commonly referred to 
as prime time for juvenile crime. Research shows that these are 
the hours children are most likely to become a victim of crime, 
smoke tobacco, drink alcohol, or use drugs. Programs such as 
the Boys and Girls clubs connect children to caring adults and 
constructive activities during these hours.
    I say this not as a member of the board of directors but as 
a law enforcement professional who has seen the research. We 
know that these programs work. One study found housing projects 
without Boys and Girls Club had 50 percent more vandalism and 
scored 27 percent worse on drug activities than those served by 
this program.
    A number of funding streams can help reduce crime, 
therapeutic intervention for kids who have already gotten into 
trouble. One such intervention is multi-systemic therapy. I 
will not go deeply into that because that is in the packet. 
Just this program alone, multi-systemic therapy, saved the 
public an average of $17,000 for every juvenile treated.
    The new proposed Byrne Criminal----
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Well, thank you. These are all important issues 
and they all will be read. And I appreciate it very much, but 
thank you, Sheriff, for taking the time and coming here.
    Mr. Morgan. Thank you.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. The chairman and I will read the full statement 
and our staff will read it. And we appreciate the fact that 
these are not programs that you operate through your program 
but for which you are advocating.
    Thank you.
    Mr. Morgan. Absolutely. Thank you.
    Mr. Wolf. Thank you very much.
    Next will be The Safer Foundation, Diane Williams.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                          THE SAFER FOUNDATION


                                WITNESS

B. DIANE WILLIAMS, CHIEF EXECUTIVE OFFICER, THE SAFER FOUNDATION
    Ms. Williams. Good morning, Chairman Wolf, Mr. Fattah, Mr. 
Austria. Thank you for this opportunity for The Safer 
Foundation to present fiscal year 2012 public witness 
testimony.
    Safer Foundation is a not-for-profit organization 
headquartered in Chicago, Illinois, but operating through the 
State of Illinois and parts of Iowa.
    Our work focuses on reducing the number of crime victims 
and improving public and community safety. We do this by 
supporting the efforts of people with criminal records to 
become productive, law-abiding members of their communities. We 
provide a full spectrum of services including education, 
employment, and retention-focused case management.
    My written testimony offers information on the achievements 
of Safer Foundation and the Illinois Department of Corrections. 
In my oral remarks, I want to speak to the importance of your 
funding the Second Chance Act and initiatives like the Council 
of State Government's National Reentry Resource Center where I 
serve as the chairman of the Education and Employment 
Committee, as well as the justice reinvestment process.
    In supporting crime reduction strategies through the Second 
Chance Act, you are reducing both the short and long-term costs 
to the American people of incarceration while also reducing the 
number of citizens who become victims. For that, we thank you.
    The data-driven approach taken by CSG's justice 
reinvestment efforts to serve as a strong blueprint for 
policymakers tasked with determining how to spend limited funds 
on strategies and interventions that work, we can reduce 
recidivism and corrections spending without compromising public 
safety by reinvesting in high-risk communities and supporting 
community-based organizations that implement holistic 
strategies and best practices.
    I think it is also important to note when we talk about 
justice reinvestment, though, that as those dollars are shifted 
to the community to ensure that people who are sent home, in 
fact, have an opportunity for success, that we make those 
dollars stay in the community.
    A big fear does exist today that we will start that way but 
not end that way. And so to send people home in a justice 
reinvestment model without the resources in the community to 
support their efforts simply means that we will repeat what we 
have already experienced. We do not want to see that happen.
    As chair of the National Institute of Corrections Advisory 
Board, I would be remiss if I did not also make note of NIC's 
work to build the capacity of state correctional systems. In 
these tough economic times, NIC provides the training and 
technical assistance necessary to ensure that federal, state, 
and local corrections agencies are using evidence-based 
practices that are sure to have an impact.
    Working with Safer's career services personnel, 2,700 
clients were able to find unsubsidized employment and stay out 
of prison last year. This success demonstrates the strong link 
between employment and recidivism reduction and I urge the 
subcommittee to encourage collaboration between the Departments 
of Justice and Labor.
    Efforts like the Cabinet-level Reentry Council convened by 
the attorney general focused on identifying and advancing 
effective public safety and prisoner reentry strategies are 
right on target. Reentry impacts not only those being released 
from prison but also their families and communities. This is 
especially troubling given that these communities are 
disproportionately home to low-income minority families, high 
rates of crime, and have few of the needed social services and 
support.
    Communities, particularly families, need the tools and 
resources that help their loved ones succeed. Though the 
decisions that lead to success or failure fall most heavily on 
the returning individual, these individuals must be empowered 
to make the right decisions through clear pathways to success.
    The critical funding authorized by the Second Chance Act 
and appropriated by this subcommittee provides assistance to 
states, local governments, and community-based organizations 
concerned with prisoner reentry.
    On behalf of our clients, Safer Foundation sincerely thanks 
the subcommittee for its past leadership, strongly supports the 
President's request for $100 million in fiscal year 2012, and 
hopes that Congress will provide the most robust funding level 
possible for fiscal year 2012.
    In closing, I would like to take a moment to share a 
message we received from one of our employers. This actually 
came from the general manager of the south Chicago Dodge, Jeep, 
Chrysler Company last Friday.
    He wrote us to thank us for offering high-caliber employees 
such as Lyndon Weir, and that is a quote. Lyndon has 
consistently been the best of the best in sales and recently 
when the dealership hired another employee through our program, 
that is the Safer Program, Lyndon took it upon himself to train 
him and to assist him in his professional development.
    This employer like many of those that we work with is very 
pleased with the people that we give him to meet his labor 
needs.
    Again, I want to thank and commend you, Chairman Wolf and 
Ranking Member Fattah, for your efforts to address the needs of 
the Lyndons of the world as they return to our communities and 
become nothing short of outstanding.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Well, I know they are very important programs and 
the committee has been doing a lot in that area. We thank you 
for your testimony.
    Mr. Fattah.
    Ms. Williams. Thank you.
    Mr. Fattah. You should know that the chairman and I both 
worked with Danny Davis on getting the Second Chance Act, and 
the committee over the last couple of years has ramped up 
considerably our support for it. And we appreciate the work 
that you are doing.
    Ms. Williams. Thank you.
    Mr. Wolf. Thank you.
    Our next witness will be Big Brothers and Big Sisters, and 
I think Mr. Fattah would like to introduce them.
    Mr. Fattah. I do. And I need to preface it with the fact 
that I have to run to the floor and speak for two minutes and I 
will be right back, Mr. Chairman.
    But I am just proud that Big Brothers, Big Sisters is 
headquartered, unlike all of these other great organizations, 
this one is actually headquartered in my district and they do 
great work.
    And I wanted to just introduce Paul Bliss, who heads the 
National Capitol Area affiliate. And I am going to let him 
testify. I need to run to the floor and speak and I will be 
rejoining you.
    Thank you.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

       BIG BROTHERS BIG SISTERS OF AMERICA, NATIONAL CAPITOL AREA


                                WITNESS

PAUL BLISS, EXECUTIVE DIRECTOR, BIG BROTHERS BIG SISTERS OF AMERICA, 
    NATIONAL CAPITOL AREA
    Mr. Bliss. Thank you, Congressman.
    And a very special thanks to Chairman Wolf. It is great to 
see you once again.
    As you know, my name is Paul Bliss, President and CEO of 
Big Brothers and Big Sisters, and I have worked in Washington, 
D.C. in the juvenile and adult correctional system for over 20 
years prior to leading Big Brothers and Big Sisters.
    Big Brothers Big Sisters is the most effective strategy to 
combat juvenile delinquency in the Nation. Thanks to an army of 
volunteer mentors, we are also the most cost effective.
    Big Brothers Big Sisters is the Nation's only evidence-
based mentoring program. Our mission is to help children 
achieve their full potential. Nearly 400 local agencies serve 
at-risk children in over 5,000 communities nationwide.
    Founded over a century ago, our mission is to help change 
the odds for American youth one child at a time. In the past 
year, our national network has united over 240,000 high-risk 
youngsters in one-to-one mentoring relationships. Our Nation's 
youth face greater obstacles today than ever before. However, 
we have strong evidence that our program works.
    With the support of Congress and the Department of Justice, 
we have achieved tremendous growth while maintaining our high 
standards of quality service. We are data driven. Independent 
research shows that we achieve positive and measurable results.
    Federal funds appropriated or granted to Big Brothers and 
Big Sisters are used to: one, support the development of our 
service delivery model; two, evaluate our service delivery 
model with cutting-edge technology to measure youth impact; 
three, develop, train, and retain quality staff, but most 
importantly to reach hundreds of thousands of children in our 
Nation.
    Big Brothers Big Sisters must express our concern with the 
President's proposed fiscal year 2012 budget. We know all too 
well the pressures our Nation is facing, but across-the-board 
reductions in juvenile justice funding will only produce short-
term savings. We cannot afford the devastating impact such cuts 
will have on our country's at-risk youth.
    We ask this subcommittee and your colleagues in Congress to 
prioritize investments in juvenile justice programs, in 
particular federal youth mentoring grants. Your investment will 
help divert at-risk children away from the criminal justice 
system. It may take $80,000 a year to incarcerate a juvenile 
offender, but Big Brothers Big Sisters needs only $1,200 to 
mentor a child in need.
    We are leveraging hundreds of millions of dollars of public 
and private foundation investments multiplying your public 
investment. The private sector, nonprofit, and nonpartisan 
organization estimated that the hourly rate for a volunteer 
mentor's time is $20.80. With over 240,000 mentors volunteering 
roughly four hours per week for 50 weeks, their estimated in-
kind contribution to youth is well over $700 million per year.
    We urge the subcommittee to review mentoring as a cost-
saving measure for investing in our Nation's economic social 
future. Big Brothers' brand of volunteer mentoring is cost 
effective and proven to break the cycle of crime and 
incarceration.
    Thank you, Chairman.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much. Thank you. I appreciate it.
    Let me just comment. One, and I think this applies to all 
the testimony, one, I learned to swim in a Big Brothers 
swimming pool in inner city Philadelphia. And so I know it is a 
great program.
    I think all of you ought to hear this other thing though. 
This Administration has failed to address the fundamental issue 
of entitlements and all the concerns. And I support literally 
every one of your programs, but they are going to be under 
great pressure until this Administration comes forward and 
works with the Congress in a bipartisan way, putting everything 
on the table, Medicare, Medicaid, and Social Security.
    Willy Sutton, the bank robber who was in prison, I think in 
Philadelphia, said he robbed banks because that is where the 
money is. The money is in the entitlements. Until you deal with 
this issue, all these good programs are all going to be 
squeezed and squeezed and squeezed and squeezed.
    Unfortunately, if the President does not come forward by 
the end of this year, it will not be done next year and we will 
kick this can down the road until 2013 and all of your programs 
are going to be squeezed.
    It is a great program. All these programs are. But until 
the Administration deals with the entitlement issue--the 
President appointed the Erskine Bowles-Simpson Commission and 
then literally walked away from it.
    So with regard to that, I thank you for your testimony and 
we will go to----
    Mr. Austria. Mr. Chairman, can I just say I agree with you 
just really briefly, but I also want to thank you for the work 
you are doing in Ohio. I have seen it firsthand. Our office is 
part of that mentoring program. And I thank you for being here 
and testifying, but I also agree with what you are saying.
    Mr. Bliss. Terrific. And, Congressman Wolf, I am glad to 
see that you are a world-class swimmer today.
    Mr. Wolf. Well, I am sure that pool is closed.
    And the next testimony will be Joseph Summerill, National 
Sheriffs' Association.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

              HOUSING OF FEDERAL PRISONERS IN LOCAL JAILS


                                WITNESS

JOSEPH SUMMERILL, PRO-BONO COUNSEL, NATIONAL SHERIFFS' ASSOCIATION
    Mr. Summerill. Good morning, Chairman Wolf and Members of 
the subcommittee. I appreciate the opportunity to speak and 
appear before you today to discuss the housing of federal 
prisoners in local jails.
    My name is Joseph Summerill and I have represented sheriffs 
who contract with the U.S. Marshals Service for housing federal 
prisoners in local jails. And I am also pro-bono counsel for 
the National Sheriff Association and a former commercial law 
attorney for the Federal Bureau of Prisons.
    During fiscal year 2010, the U.S. Marshals Service housed 
federal prisoners in more than a thousand different facilities 
located throughout the United States. More than half of these 
U.S. Marshal prisoners were housed in a local jail operated by 
a local sheriff.
    Historically sheriffs were reimbursed by the U.S. Marshals 
Service for the actual cost of housing a federal prisoner in a 
local jail under an intergovernmental agreement between the 
sheriff and the United States Government.
    Each intergovernmental agreement listed a per diem rate 
which reimbursed the sheriff for the cost of housing one 
federal prisoner per day. These per diem rates could only 
include actual and allowable jail operating costs from the 
previous fiscal year. The process of calculating a per diem 
rate under this old system was complicated and sheriffs were 
susceptible to audits in which the Federal Government could 
retroactively demand reimbursement of monies already paid to 
the sheriff.
    As a result, sheriffs erred on the side of under-counting 
and in turn resulted in inaccurately low per diem rates for 
housing federal prisoners.
    In 2006, the Department of Justice Office of the Federal 
Detention Trustee revised the process by which U.S. Marshals 
contract with local sheriffs. OFDT created the Detention 
Services Network.
    By November 2007, U.S. Marshals retired all the old system 
of negotiating IGAs and requested that sheriffs replace their 
old IGAs with electronic intergovernmental agreements or EIGAs.
    Under this new system, U.S. Marshals can now enter into a 
firm fixed-price contract with the local government where the 
federal prisoner is being housed in their jail.
    However, prior to the negotiations, sheriffs are required 
to submit jail operating expense information which includes 
information regarding the personnel, salaries and benefits, 
costs associated with feeding federal prisoners and medical 
expenses, facility expenses and the utilities and insurance and 
vehicle expenses such as maintenance and insurance.
    The new Detention Network Services Program has improved the 
complexity and cumbersome process by which sheriffs were 
compensated for housing federal prisoners. However, the new 
process is not without obstacles.
    As background, when United States Marshals negotiates with 
a local sheriff for a new per diem rate, the Federal Government 
now considers four factors: comparison of the proposed rate 
offered by the sheriff with a core rate established by the 
United States Marshals Service; comparison of the proposed rate 
with other state and local facilities; and a comparison of the 
proposed per diem rate with commercial contracts.
    Unfortunately, each of these factors has problems. For 
example, the core rate used by the U.S. Marshals is never 
adequately defined for the sheriffs. Therefore, the local 
sheriffs are required to provide cost data to the United States 
Marshals and a proposed per diem rate for housing prisoners, 
but the U.S. Marshals is never required to reveal what the 
government believes is a fair and reasonable price for housing 
prisoners.
    This represents an unprecedented inequality in the 
negotiation of intergovernmental agreement between two 
governmental bodies.
    However, the largest problem or the most disturbing 
problem, I mean, is the length in which it takes to negotiate 
an EIGA. U.S. Marshal grants officers purport to negotiate 
these in 90 days. However, it is my experience that it takes 12 
to 14 months from the time that the sheriff collects his data 
to the time that the EIGA is executed.
    This subcommittee should encourage the OFDT and U.S. 
Marshals to reexamine how the Federal Government contracts with 
local sheriffs. A shorter application process, less cumbersome 
means of submitting data, and a more fair methodology for 
negotiating the IGAs would greatly improve how the local 
sheriffs are paid by the Federal Government.
    Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Well, thank you for your testimony.
    Are you here in town?
    Mr. Summerill. I am.
    Mr. Wolf. Maybe what you can do is get in touch with the 
staff and we will try to get you with the Marshals Service. I 
mean, 12 and 14 months is ridiculous.
    Mr. Summerill. It is and it is not retroactive, so the 
longer----
    Mr. Wolf. Why don't you call the staff and we will get the 
Marshals Service up here and get you guys together.
    Mr. Summerill. Great. Thank you very much.
    Mr. Wolf. Thank you very much.
    Our next witness is the Animal Welfare Institute, Nancy 
Blaney.
                              ----------                              

                                          Friday, March 11, 2011.  

                        ANIMAL WELFARE INSTITUTE


                                WITNESS

NANCY BLANEY, SENIOR FEDERAL POLICY ADVISOR, ANIMAL WELFARE INSTITUTE
    Ms. Blaney. Thank you, Chairman.
    Mr. Chairman and Mr. Austria, thank you for allowing me to 
testify today on behalf of the Animal Welfare Institute with 
regard to fiscal year 2012 funding for the Justice Department.
    Specifically I will be addressing activities under the 
Office of Justice programs of DoJ. And I want to clarify that 
we do not receive funding under this program in DoJ under the 
Bureau of Justice Assistance, but we are supportive of a grant 
recipient, the Association of Prosecuting Attorneys, who has 
instituted a training program or a program of training, 
technical assistance, and other assistance for prosecutors, law 
enforcement, mental health professionals, and others who are 
involved in prosecuting animal crimes and prosecuting animal 
crimes also as a preventive measure for other crimes.
    So we wish to commend the Office of Justice Programs for 
awarding through BJA with a grant to the Association of 
Prosecuting Attorneys for this program. This is a very exciting 
development and we are proud to have been a participant in the 
training programs that APA has offered so far.
    And we respectfully urge the subcommittee to continue 
funding the National Animal Cruelty and Fighting Initiative 
under BJA and to encourage the department's ongoing interest in 
addressing animal-related crimes both because they are crimes 
in and of themselves, but they also offer an additional and 
creative tool for addressing other forms of violence against 
humans.
    It will come as no surprise to anybody in this room that 
people who abuse animals will abuse people. And people who are 
violent towards others, particularly spouses and children who 
engage in spouse abuse and child abuse, will use pet abuse as a 
means of controlling and manipulating their victims.
    Up to 71 percent of the victims who go to domestic violence 
shelters report that their abusers have abused the companion 
animals in their homes. Batterers will use threats of pet abuse 
against children whom they are abusing in order to silence 
them. Batterers who also abuse animals are far more likely than 
batterers who do not to use more violence against their 
domestic violence victims.
    I want to go off script a little bit to introduce you to 
the poster child for why animal abuse needs to be taken more 
seriously. This was a case in Kentucky, a gentleman named 
Russell Swigart who was up for parole. He had killed two cats 
owned by a former colleague and partner of his, a dating 
partner, and had e-mailed her tormenting her as he was killing 
the cats.
    She was out of town. He went there presumably to kill her. 
And when she was not there, he killed her two cats. He had 
previously killed cats of previous partners and had also broken 
into someone's home using a duplicate key to abuse their 
animals as well.
    The prosecuting attorney in that case said it is pretty 
well known that people who commit violence against animals end 
up committing violence against people. And I think it is very 
possible that Russell Swigart could be a serial killer.
    The other connection that will not come as any surprise is 
the connection between animal fighting and gangs and all that 
goes along with gangs and drugs and illegal arms and gambling. 
Dog fighting and cock fighting are very big problems in the 
country.
    In fact, in Virginia, Mr. Chairman, because Virginia has 
recently upgraded its penalties for cock fighting, the 
assistant, one of the assistant attorneys general has reported 
that she is seeing more cases and more requests from 
prosecutors for assistance.
    So as we pursue more cases against dog fighters, cock 
fighters, and animal abusers in general, prosecutors are in 
need of more training for handling these cases.
    And I thank you for your time.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Great. Well, thank you very much. I appreciate 
your testimony. I think you make a very powerful point and I do 
appreciate it.
    Ms. Blaney. Thank you, Mr. Chairman.
    Mr. Fattah. I concur with the chairman. Thank you.
    Ms. Blaney. Thank you.
    Mr. Wolf. The next witness is National Council of EEOC 
Locals, Gabrielle Martin.
                              ----------                              

                                          Friday, March 11, 2011.  

             EQUAL EMPLOYMENT OPPORTUNITY COMMISSION BUDGET


                                WITNESS

GABRIELLE MARTIN, PRESIDENT, NATIONAL COUNCIL OF EEOC LOCALS NO. 215
    Ms. Martin. Good morning. I would like to thank the chair 
and the committee for allowing us this opportunity once again 
to testify before you regarding the budget of the EEOC.
    As everyone knows, the EEOC investigates employment 
discrimination cases. That means pretty much EEOC will testify 
for every family at some point in their life.
    EEOC has chronically been underfunded, but that trend was 
recently reversed when in 2009 at the behest of former 
President Bush the agency finally received an increase in 
funding and was able to hire some additional staff.
    I provided you with a chart on page five of the testimony 
which demonstrates the trend of what happens when we are 
underfunded.
    In fiscal year 2010, we ended the year with almost 87,000 
cases. We took in almost 100,000 cases. People waited more than 
ten months to hear from the EEOC about a resolution to their 
claims.
    So clearly additional funding is necessary. The President 
has requested $385 million and we are asking the committee to 
support that.
    We think that the agency, however, needs to look at what it 
does with its funding. We are appreciative of all the funding 
this committee has recommended and has come out of 
appropriations, but I think one parallel needs to be looked at.
    The agency tends to ask for an increase in the number of 
investigators. And while over the past three years we have that 
responsibility for three additional laws, we have seen a 17 
percent increase in our disability claims as a result.
    Last year, in part due to the economy, in part due to the 
wait time, we had more than 33 percent of our total charge base 
was retaliation charges, meaning while all people were waiting, 
a number of them were subjected to additional or they claim 
they were subjected to additional instances of discrimination. 
That is not helpful to the claimants. That is not helpful to 
the employers who have this problem sort of percolating in 
their workplace and which they are trying to address.
    So over a year ago, the union said to the agency we are 
willing to help fight get additional funding, but we have to 
use it wisely. And we think instead of just adding additional 
investigators, we need to look at a plan where we have a right 
sized group of staff typically at lower levels to do the entry 
level work.
    And what I would like to say is think about this committee. 
If all of the Members of this committee were responsible for 
fending the calls about when this hearing will take place, 
writing all the letters about this is the process, this is what 
you need to do, if you were responsible for greeting us at the 
door, I think, although you have planned today and you have 
given us a short time frame, this hearing would take probably 
weeks. But that is the way EEOC has traditionally managed its 
work.
    Our plea is to support the funding request at $385 million 
and to do a lot of oversight and ask the commission why they 
refuse to change processes and use that money more cost 
effectively and more cost efficiently.
    We free up the investigators who are now spending upwards 
sometimes of 50 percent of their time on administrative and 
clerical tasks. We think the public, the employers, everyone 
would get a better job because the investigators could 
investigate cases and work on reducing the backlog.
    It does not make a lot of sense to just say we are going to 
keep hiring the chiefs and nobody is really getting the work 
done and no one is served.
    I would like to thank you again for the time for listening 
to us, for your past support, and, again, our number one ask is 
that the money be there because this Administration has said 
jobs are critical for this Nation.
    Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you.
    Maybe what we will do is have the staff talk to the EEOC. 
Maybe we should ask that the National Academy of Public 
Administration do an in-depth analysis. We have used NAPA for 
reforming the FBI, for reforming a number of agencies. They are 
nonpartisan, nonpolitical, you know, they are not involved in 
politics, but can come in with fresh eyes on the target, if you 
will. So maybe we will ask them to take a look at it and meet 
with EEOC and NAPA to see if that may be appropriate.
    Mr. Fattah.
    Mr. Fattah. I want to thank you.
    I know that you testified before and you made this point. 
And I think that it is incumbent upon us to try to follow-up. 
And I agree with the chairman that we may want to have a review 
done so that to the degree the dollars are being added pursuant 
to the President's request that it does cover support staff and 
not just investigators.
    Thank you very much.
    Ms. Martin. Okay.
    Mr. Wolf. Thank you.
    The next witness will be Trimble Navigation Limited. We are 
going to ask Mr. Austria to introduce them.
    Mr. Austria. Thank you, Mr. Chairman.
    I would like to introduce Mr. Kirkland from Trimble. And I 
think they do good work and they have a very good case they are 
going to make today as far as the navigation GPS systems.
    So with that, I would like to introduce----
                              ----------                              

                                          Friday, March 11, 2011.  

                       GLOBAL POSITIONING SYSTEM


                                WITNESS

JIM KIRKLAND, VICE PRESIDENT AND GENERAL COUNCIL, TRIMBLE NAVIGATION 
    LIMITED
    Mr. Kirkland. Thank you, Congressman Austria.
    Mr. Chairman, Ranking Member Fattah, Congressman Austria, I 
am before the committee to discuss an issue of importance not 
from a funding standpoint but one which potentially may have 
major budgetary implications due to the Federal Government's 
multibillion dollar investment in GPS over the last 30 years.
    GPS, I think, is very similar to the internet and that a 
relatively modest investment by government was ultimately made 
available to the commercial sector and that investment now has 
produced economic benefits and jobs many, many times over the 
Federal Government investment. And I think GPS is one of the 
great technology success stories in this country.
    Mr. Fattah. I know it has helped my golf game.
    Mr. Kirkland. It has probably helped your golf game and 
saved you from getting lost many times among other things.
    So the issue comes up because of a decision by the Federal 
Communications Commission a month ago to grant a waiver to a 
company called LightSquared to invest in broadband wireless 
facilities that operate at extremely high power in the spectrum 
band that is immediately adjacent to the GPS band. And they did 
this by granting a waiver of their normal rules.
    Now, I think this was in pursuit of laudable goals. The FCC 
has a long-standing priority to create new broadband 
competition to drive down prices and also to free up more 
spectrum for wireless data uses for things like iPads. And that 
is a very good thing to do, but it needs to be done as part of 
a rational long-term spectrum planning process. And by long 
term, I do not mean delay. I mean judicious and doing your 
homework.
    So the FCC's action has caused serious concern within the 
GPS industry. Initial technical analyses show that these very 
high-powered wireless database stations will cause significant 
interference to GPS receivers within a significant radius of 
the base station. And the consequences of this disruption, you 
know, are potentially far reaching.
    If you think of their proposal to build 40,000 base 
stations throughout metro areas in the United States, think of 
40,000 GPS dead spots miles in diameter where your GPS receiver 
loses its fix. And I think just from normal consumer uses, you 
can see the implications.
    The reason I am here is that the National 
Telecommunications Information Administration is under the 
jurisdiction of this committee and they play a major role. They 
represent the interests of federal spectrum users and they 
filed a letter with the FCC while it was considering this 
waiver on an extremely fast track on behalf of DoD, NASA, DoT, 
Department of Interior, FAA, the manager of the National 
Communications System raising concerns with the LightSquared 
proposal.
    So LightSquared's proposal to build 40,000 terrestrial base 
stations in this band represents a tectonic change in the use 
of the spectrum band. This band was reserved for satellite 
uses. I would suggest spectrum. Spectrum is an important public 
asset and cannot be handed over at the behest of a private 
party.
    I would also suggest that the FCC cannot waive the laws of 
physics that make this extremely problematic to have such high-
powered uses sitting next to receivers that are trying to 
listen to satellite signals in the sky.
    So what we are asking this committee from an oversight 
standpoint and appropriations standpoint is to ensure that the 
FCC fully considers these issues, that the FCC make clear to 
LightSquared that it should not be investing in facilities 
until the interference issues are resolved.
    The FCC has created an interference study process and the 
GPS industry is committed to full participation in this 
process. And once that process is complete, we expect that the 
FCC will do a full inquiry and a full public comment period on 
this application.
    Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you for your testimony.
    We do not have jurisdiction over the FCC. We do over the 
NTIA.
    Are they in your district, this group?
    Mr. Austria. No.
    Mr. Wolf. Because I was going to make a suggestion that, 
maybe you could take the lead here working with the staff. We 
can bring NTIA in with the FCC, we used to the fund the FCC out 
of this committee, and see if there is something that can be 
worked out.
    Are you in Ohio?
    Mr. Kirkland. We have facilities in Ohio. We have them 
throughout the country including Chantilly, Virginia.
    Mr. Wolf. Where are you located?
    Mr. Kirkland. We are based in Sunnyvale. I am in the 
Sunnyvale headquarters.
    Mr. Wolf. In California?
    Mr. Kirkland. California.
    Mr. Wolf. Okay.
    Mr. Austria. Mr. Chairman, I will be glad to work----
    Mr. Wolf. Yeah, why don't you do that and we will get the 
staff to work with you and bring NTIA up here. We do not want 
to hurt Mr. Fattah's golf game.
    Mr. Kirkland. Or his iPad.
    Mr. Austria. One other thing I wanted to do is, some of the 
references you made, I have got two letters here from the 
secretary of Defense and also the secretary of Commerce that I 
would like to submit for the record that show that they have 
concerns about this as well----
    Mr. Wolf. Sure.
    Mr. Austria [continuing]. And interfering with the GPS. You 
know, we all use, I mean, whether it be iPad, the iPhone, or 
the Smartphone or in my car when I am navigating or just the 
hand-held GPSs, I mean, it impacts all of us. And I think it is 
important.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. No. I agree with you. And we will try to do 
something and see if we can get working with Mr. Fattah and get 
everybody together.
    Mr. Fattah. Let me assure the chairman that I would love to 
work with my colleague on this matter because GPS is critically 
important.
    And, you know, this gets to your earlier point at a 
different hearing. We have various agencies with satellites and 
operations and part of that is the GPS. And then you come down 
to the spectrum distribution issues that affect law enforcement 
and on a variety of points under our bill in the Commerce 
Department. And so I think that even though we do not have 
direct jurisdiction over the FCC, I think that it is 
appropriate for us to intervene----
    Mr. Wolf. Yes.
    Mr. Fattah [continuing]. And to try to be helpful.
    Mr. Kirkland. Mr. Chairman, if I could comment, you know, 
the obvious uses of GPS by consumers, that is what everyone 
knows, but this is deeply embedded in Department of Defense 
systems, in first responder systems, in all elements of law 
enforcement as I am sure you can imagine. So----
    Mr. Wolf. Well, Steve, if you can do that and we will see 
what we can do. You should be in touch with Mr. Austria. Do you 
have somebody here in town so you do not have to fly back and 
forth from Sunnyvale?
    Mr. Kirkland. Yes, we do. We have been here for a couple 
days and we----
    Mr. Wolf. Why don't you have somebody contact Steve's 
office.
    Mr. Kirkland. Definitely. We have been in touch.
    Mr. Wolf. Great.
    Mr. Fattah. And I love the point that you made about the 
fact that with a small government investment, the private 
sector has taken something and made a lot of it because it is 
an important point to make that we do need to invest in new 
technology and innovation, which is a point we have been making 
throughout these hearings.
    Thank you.
    Mr. Wolf. Well, it came up yesterday at the National 
Science Foundation hearing.
    Thank you very much.
    Mr. Kirkland. Thank you.
    Mr. Wolf. Sea Grant College Association, Dr. Jonathan 
Pennock.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                   NATIONAL SEA GRANT COLLEGE PROGRAM


                                WITNESS

JONATHAN PENNOCK, PRESIDENT, SEA GRANT COLLEGE ASSOCIATION
    Mr. Pennock. Good morning, Chairman Wolf, Ranking Member 
Fattah, and Representative Austria. Thank you for the 
opportunity to testify on behalf of the National Oceanographic 
and Atmospheric Administration and particularly the National 
Sea Grant College Program.
    My name is Jonathan Pennock. I am director of the New 
Hampshire Sea Grant Program and also president of the Sea Grant 
Association.
    On behalf of my own institution and the 31 other 
institutions that make up the National Sea Grant College 
Program, I want to express our appreciation to the subcommittee 
for its long-standing support of Sea Grant.
    Going forward, to be fully responsive to the increasing 
challenges faced by our coastal communities, the Sea Grant 
Association is recommending a funding level for Sea Grant of 
$70 million in fiscal year 2012.
    We certainly recognize the extreme economic challenges that 
the country faces and the difficult decisions that this 
committee faces at this time, but we note that this request is 
nearly $14 million below the authorized level for fiscal year 
2012 and it is consistent with previous views expressed by this 
subcommittee about adequate funding for the program.
    During the past year, the subcommittee's support of Sea 
Grant has been validated through numerous examples of the value 
of Sea Grant's place-based partnership between federal, state, 
and university communities.
    For example, this past Wednesday, agency leaders who led 
the Nation's response to the Deepwater Horizon disaster 
espoused both the value of Sea Grant itself in connecting Gulf 
Coast stakeholders to the federal response to the disaster and 
the importance of existing in-place federal university 
partnerships such as Sea Grant to successful responses such as 
the Deepwater Horizon.
    During the year, other Sea Grant led research and extension 
efforts developed new and efficient technologies for the 
fishing industry, contributed sound science to the restoration 
of the degraded coastal ecosystems, stimulated private sector 
jobs in aqua culture and marine-based industries, and 
facilitated the adoption of hazard resilient policy and 
investment by private community and state entities.
    By continuing a significant national demographic shift that 
started in the 1970s, America's coastal population continues to 
grow and with it nurture much of the Nation's economic growth.
    Today a wide range of opportunities exist along our coasts 
including those in Ohio and the Great Lakes for fuller economic 
development of the Nation's energy resources, seafood-based 
businesses, marine biotechnology enterprises, maritime 
commerce, and coastal tourism.
    At the same time, human degradation of these environments, 
impacts that truly challenge the long-term sustainability and 
value of these systems must be addressed. Sea Grant is one of 
the entities that really remains uniquely positioned to address 
these issues.
    The particular example, the response activities in the Gulf 
once again showcases a Sea Grant model that is adaptive and 
nimble by design. Although working as a programmatic entity of 
NOAA, Sea Grant has a number of unique advantages over many 
federal programs with regard to how quickly and how well it can 
respond to pressing coastal resource and community needs at 
regional, state, and local scales.
    Sea Grant employs a research-based and non-advocacy 
approach that is neither confined to one scientific discipline 
nor charged with specific regulatory or resource management 
responsibilities. Thus, Sea Grant is seen as a valued and 
neutral partner by community and private sector leaders. It is 
also notable that the federal appropriation for Sea Grant is 
leveraged significantly by additional non-federal resources 
from state university and private partners.
    All of these key organizational mission attributes provide 
Sea Grant with significant national program flexibility and 
thus great responsiveness to existing and emerging coastal 
issues wherever they might occur.
    Thank you for your consideration of this request and again 
for your past support of the Sea Grant Program.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. I want to thank you for your work and even 
though we are not going to spend a lot of time on it today, I 
want to find ways that we can even enhance what you are doing.
    Thank you very much.
    Mr. Pennock. Thank you very much.
    Mr. Wolf. Thank you.
    The next witness, National Marine Sanctuary Foundation, 
Jason Patlis.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                  NATIONAL MARINE SANCTUARY FOUNDATION


                                WITNESS

JASON PATLIS, PRESIDENT AND CEO, NATIONAL MARINE SANCTUARY FOUNDATION
    Mr. Patlis. Good morning, Mr. Chairman, Mr. Ranking Member, 
Mr. Austria.
    Thank you for the opportunity to testify before you today 
in support of a robust and capable National Oceanic and 
Atmospheric Administration and National Marine Sanctuary System 
both so that they could serve the American people and continue 
contributing to the recovery of the American economy.
    My name is Jason Patlis. I am here today as the president 
and CEO for the National Marine Sanctuary Foundation. I am also 
speaking on behalf of the national network of community level 
organizations across the country that support the sanctuary 
system. They run across from the pacific northwest to New 
England, the Great Lakes, Florida, and the West Coast.
    Together our eight organizations are dedicated to advancing 
national marine sanctuaries as critical tools for a healthy 
ocean and for restoring and revitalizing coastal communities 
and economies across the Nation.
    In addition, I am appearing as a member of the Friends of 
NOAA Coalition. The Friends of NOAA are supporters, 
stakeholders, and partners of NOAA that educate and inform 
interested audiences about the full range of NOAA activities 
including those that contribute to the economic growth and job 
creation in this country so that NOAA can carry out its 
responsibilities relating to our oceans and coasts, fisheries 
research, and weather and climate including satellites.
    The National Marine Sanctuary Foundation strongly supports 
the Administration's request for NOAA and the Sanctuary Program 
in fiscal year 2012, although we believe they fall far short of 
what is required.
    The Sanctuary Program needs to be funded at the fiscal year 
2010 enacted level of $62 million in order to fulfill its 
responsibilities to the American people.
    Recognizing the difficulties of the current budget climate, 
this Administration has consistently failed to follow Congress' 
lead and provide sufficient funding for the Sanctuary Program. 
Time and again, Congress has recognized the value of this 
program and provided increases over the Administration's 
request and we are asking to do so again this year 
notwithstanding the budget climate.
    NOAA is one of the premier science agencies of the Federal 
Government and provides decision-makers with critically 
important data, products, services that promote and enhance the 
Nation's economy, security, environment, and quality of life.
    Just this morning with the tsunami sweeping across the 
Pacific, NOAA's mission and services were on full display in 
terms of saving America's lives and property and providing 
services for citizens across the world.
    Many of NOAA's activities come together in its system of 14 
national marine sanctuary sites where researchers collect 
important data, educators work to advance ocean literacy, law 
enforcement officers ensure sustainability of public access and 
recreational opportunities, and even archeologists seek to 
preserve America's rich history at sea.
    Further, national marine sanctuaries play a crucial role as 
the public face of an agency that few Americans know about 
despite the fact that we depend on their data and services 
every day.
    My written testimony includes many examples of the benefits 
of the sanctuary system.
    In southern Florida, marine tourism and recreation in two 
counties adjacent to the Florida Keys National Marine Sanctuary 
employ more than 70,000 people and contribute $4.5 billion per 
year to the State GDP.
    On the shores of Lake Heron, visitors in three counties 
adjacent to Thunder Bay National Marine Sanctuary spend $110 
million per year on recreational activities.
    And in California, in the Monterey Bay National Marine 
Sanctuary, education and science facilities spend over $200 
million per year and employ roughly 1,800 people.
    On the flip side, failure to provide sufficient funding 
will result in significant impacts in all of the sanctuaries 
across the country. My testimony offers examples of the impacts 
of those cuts that will only diminish the economic activity and 
job creation that is beginning to revitalize our coastal 
communities.
    Mr. Chairman, I would like to thank you for the opportunity 
to testify before you today on behalf of the foundation and the 
Friends of NOAA Coalition and the partners of the Sanctuary 
Program across the country.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much.
    Mr. Fattah.
    Mr. Fattah. I thank the witness.
    Mr. Wolf. The next witness, Lummi Indian Nation, Merle 
Jefferson.
    There are going to be votes, too, we understand now maybe 
about 11:30. So I do not know how long you are going to go, but 
go ahead, sir.
                              ----------                              

                                          Friday, March 11, 2011.  

                          LUMMI INDIAN NATION


                                WITNESS

MERLE JEFFERSON, MEMBER, LUMMI INDIAN BUSINESS COUNCIL, LUMMI INDIAN 
    NATION
    Mr. Jefferson. I thank the committee today for hearing 
Lummi Nation here, Mr. Chairman.
    My name is Merle Jefferson. I am the natural resource 
director for Lummi Nation and I am also elected councilman for 
the nation in the northwest and Washington State.
    And I want to summarize our testimony for today. First of 
all, Lummi Nation's total request is for $11,650,000 to be used 
as in the following, $750,000 for ESA monitoring and 
assessments; $6.7 million for salmon hatchery improvements to 
comply with ESA and to help rebuild threatened stocks; $4.2 
million for shellfish hatchery improvements to increase 
production to support displaced fishers.
    The Lummi Nation is the third largest tribe and the biggest 
fishing tribe in Washington State. Today our treaty rights are 
at risk and we need help.
    The Lummi Nation currently operates two salmon hatcheries 
and one shellfish hatchery that support tribal and non-tribal 
fisheries.
    The Federal Indian Species Act of 1973 mandates 
contribution and recovery of stocks. The Indian Species Act is 
also a double-edge sword whereas it should help rebuild 
threatened stocks, but at the same time, it impacts and reduces 
our treaty rights.
    The hatcheries were originally intended to restore the 
habitat, but the reality is we need to restore and protect the 
habitat to get the most out of our hatcheries.
    The salmon hatchery production has been reduced over 70 
percent in our watersheds due to ESA and state budget cuts.
    We also cannot harvest wild stocks because they are 
protected. The reduction in hatchery fish and no harvest of 
wild stock present another due impact to our treaty fishers.
    Hatchery improvements could triple the current value to 
tribal and non-tribal fisheries from about two million to about 
six million per year to the fishers.
    Another example is the killer whale which are endangered 
and protected. Killer whales feed on chinook salmon that are 
also protected. Scientists want tribal fishers to limit the 
chinook harvest to protect the killer whales, yet this is 
another impact on treaty fishing rights.
    The Lummi Nation is actively involved in recovery plans in 
the Nooksack Basin that includes management, monitoring, 
frequent policy level meetings. The ESA activities have more 
than tripled our responsibilities and the costs are beyond our 
control.
    The Lummi Nation needs help in the following to maintain 
our livelihood as fishermen: To improve the conditions of the 
hatcheries; continue policy discussions and partnership with 
all parties in the development of recovery plans and protecting 
our treaty rights.
    The Lummi Nation is requesting federal assistance from the 
Department of Commerce for fiscal year 2012. The Lummi Nation 
also supports the request for a Northwest Fish Commission.
    Finally, the Lummi Nation also supports fiscal year request 
for a National Congress of American Indians.
    And I want to thank you for hearing us today. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. I know you traveled a long way and I heard your 
request and the fact that you need help. And I want to offer 
you whatever help that we can provide in relationship to your 
request and we will work with the chairman to do all that can 
be done.
    Thank you.
    Mr. Jefferson. Thank you.
    Mr. Wolf. Next, Board on Oceans, Atmosphere, and Climate, 
Association of Public and Land-Grant College, Dr. Tony 
Busalacchi.
                              ----------                              

                                          Friday, March 11, 2011.  

 NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, NATIONAL AERONAUTIC 
   AND SPACE ADMINISTRATION, NATIONAL SCIENCE FOUNDATION 2012 BUDGETS


                                WITNESS

TONY BUSALACCHI, PROFESSOR, UNIVERSITY OF MARYLAND--COLLEGE PARK, BOARD 
    ON OCEANS, ATMOSPHERE, AND CLIMATE, ASSOCIATION OF PUBLIC AND LAND-
    GRANT UNIVERSITIES
    Mr. Busalacchi. Good morning, Chairman Wolf, Ranking Member 
Fattah.
    On behalf of the Association of Public and Land-Grant 
Universities, Board on Oceans, Atmosphere, and Climate and its 
218 institutions of higher learning, I thank you for the 
opportunity to provide support of the proposed fiscal year 2012 
budgets for NOAA, NASA, and NSF.
    These three agencies support research at our member 
institutions that provides critical information to decision-
makers and communities across the country. That is why we 
strongly support the Administration's request of $5.5 billion 
for NOAA, $7.8 billion for the NSF, and $5 billion for NASA 
science account.
    While recognizing that difficult budget decisions must be 
made for the Nation's fiscal health, the President's proposed 
budget for these three agencies advances the country's 
scientific knowledge agenda and will subsequently undergird the 
economy, secure the well-being of the Nation.
    The natural and earth system sciences and technology 
programs, NOAA, NSF, and NASA, make the Nation's surface, air, 
and marine transportation safer and more efficient, advance 
energy technology, provide the science support to the defense 
industry, and create the knowledge based upon which society can 
make wise environmental management decisions.
    Environmental data collected and distributed by NASA, NSF, 
and NOAA represent a national resource and are used by 
universities for research, education, and outreach, and 
especially by private industry to produce products and 
services.
    Time and again, we have heard how research is the seed corn 
that drives innovation in this country. I am involved in the 
coordination of a number of international research initiatives 
and I must tell you in no uncertain terms that our 
competitiveness in the international arena is in serious 
jeopardy.
    Ensuring homeland security, maintaining global 
communications, and informing the public of atmospheric and 
marine ecological health threats depend upon reliable science.
    For example, NOAA provides important services to all 
Americans such as already mentioned tsunami warnings that are 
vital to our economy, national security, transportation, and 
human safety.
    Extreme weather events like tornadoes, hurricanes, 
oppressive heat and drought or heavy precipitation demonstrate 
both the immediate and sustained impacts that weather and 
seasonal climate can have on the region.
    About $3 trillion or one-third of the U.S. economy is 
highly weather and seasonally climate sensitive. We support the 
establishment of the NOAA Climate Service as an economic 
imperative as private enterprise, public agencies, decision-
makers, and society require seasonal and annual climate 
outlooks based on solid science.
    To draw a parallel to the provision of weather services, 
with the advent of numerical weather prediction post-World War 
II, the private sector weather enterprise has grown to a $2 
billion annual industry.
    With respect to NASA in 2007, the National Academies Earth 
Science Decadel Survey found that between 2000 and 2009, 
funding for earth sciences at NASA had fallen substantially. 
Earth science research is absolutely critical to understanding 
how the earth operates as a coupled system.
    We are encouraged by the Administration's request to 
restore some of NASA's science mission funding. Past 
investments in NASA science mission have funded university 
research that has led to new instruments and views of our 
planet, valuable advances in weather and climate forecasting, 
and better understanding of earth's ecosystems as depicted in 
that gloss behind you.
    Lastly but very importantly, we support funding of the NSF 
which is critical to U.S. basic research. NSF supplies almost 
two-thirds of all federal funding for university-based 
fundamental research in the geosciences. NSF GEO-supported 
research increases our ability to understand, forecast, and 
respond to environmental events and changes. Through facilities 
such as the National Center for Atmospheric Research and its 
Wyoming super computer, NSF provides the academic community 
with advanced capabilities that it would not be able to afford 
if conducted through individual institutions.
    In closing, NOAA, NASA, and the NSF provide critical earth 
observations and research funding to scientists, engineers, and 
mathematicians working to increase understanding of natural 
phenomena of economic and human significance.
    The Association of Public and Land-Grant Universities 
thanks you for continued support of these critical agencies. I 
am more than happy to answer any questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. I have no questions. But I want to say for the 
record and for the universities to hear I support everything 
you said, everything. I go farther than you. You do not go far 
enough. You do not do enough.
    Mr. Busalacchi. What can we do?
    Mr. Wolf. Simon and Garfunkel in the song The Boxer sung in 
Central Park, said ``man hears what he wants to hear and 
disregards the rest.'' We are fundamentally disregarding.
    Last month, the shortest month in the year, we had the 
biggest deficit we have ever had, $228 billion. Forty cents of 
every dollar we spend is a debt. UVA put out a thing 
criticizing some of the budget cuts. Tell the President of UVA 
and all your presidents to call the President of the United 
States, the President of the United States that says come to 
the table with a speaker and deal with this issue of deficits.
    If we do not deal with the entitlements, Medicare, 
Medicaid, and Social Security, all these programs will be cut. 
They are good programs. They are programs that we desperately 
need. I do not want to see China become the number one country. 
I want to see America continue. The 21st century should be the 
American century. But until we deal with the entitlement issue, 
these programs will be cut no matter if it is a republican 
Congress or a democratic Congress.
    There was a report put out yesterday by a group called 
PIMCO that is saying that they are willing to buy the Spanish 
bonds more than they are the American bonds because Spain has 
now put together a program to deal with the deficit.
    So I agree with you. I want to plus up. When I was chairman 
of this subcommittee before, we reversed the spending. But in 
order to plus up so we can have a renaissance in math and 
science and physics and chemistry and biology, we have got to 
deal with these entitlements.
    So I agree with you. The Washington Post did an editorial 
by Ruth Marcus and she said we are waiting for Waldo. We are 
waiting for the President of the United States and this 
Administration to come up here and we have got to do it in a 
bipartisan way.
    If they do, we can have a renaissance and fund not only 
this program but the previous programs that we were talking 
about.
    Mr. Fattah.
    And thank you for your testimony.
    Mr. Fattah. Let me thank you for your testimony. You are 
one of the most distinguished academic and intellectual minds 
in the country on these subjects and appreciate you taking the 
time to come.
    I wish it were so simple as if we had a different President 
somehow we would not be in this circumstance. Our decline as a 
Nation in these issues, in our lack of investment in technology 
and science could not possibly be the responsibility of one 
party or one President. And we are going to have to rise above 
our partisan inclinations to focus on these issues.
    I agree with the chairman that we need to deal with the 
funding. I am going to be offering a bill next week to deal 
with the debt and the deficit. But I think that on the 
substance of this, I agree with you and the chairman said he 
agrees with you. And, in fact, we should be doing more as a 
country.
    And, in fact, over the last two years, there has been a 
much more significant investment in these issues of technology 
and science and innovation than at any time of the country's 
history. I think the President would like to do more. However, 
we do have fiscal concerns that cannot be addressed unless we 
deal with the question of entitlements, unless we deal with the 
question of whether or not we want to be a leading country in 
this world, which will require us to pay for it in some form or 
fashion.
    Thank you.
    Mr. Wolf. Let me just chime in with Mr. Fattah. And we will 
put in the record here I sent numerous letters to the Bush 
administration, to Paulson. At a hearing before the 
Appropriations Committee, I told Secretary Paulson years from 
now when he is sitting in his rocking chair, he will feel like 
a failure for having not addressed this issue.
    So my end is not against any particular issue. The previous 
Administration ignored the issue too. But I think we have got 
to provide the leadership to come together and, again, come 
together in a bipartisan way. If we do not do it--and he 
happens to be the President of the United States at this time. 
I did not vote for him.
    But let me say for the record I will so submit if we can 
get from my office all of the letters to follow this little 
colloquy here, all of the letters, each and every letter that I 
sent to Secretary Paulson with the P.S.s that I put on there. 
They failed. They failed to provide the leadership.
    Now it is an opportunity for this Administration and this 
President to provide it. And if he does provide it by the end 
of the year, we can reverse all this and I think have a 
renaissance for all of us and for my children and my 
grandchildren.
    But I appreciate your testimony.
    Mr. Busalacchi. Thank you, Mr. Chairman and Mr. Fattah.
    Mr. Wolf. Thank you very much.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf [continuing]. The next witness will be Pacific 
Salmon Commission, Dr. Jeffrey Koenings, Commissioner for 
Washington and Oregon.
    And next we will have a Member of Congress, David Cicilline 
from the great State of Rhode Island.
    Yes, sir.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                       PACIFIC SALMON COMMISSION


                                WITNESS

JEFFREY KOENINGS, COMMISSIONER FOR WASHINGTON AND OREGON, PACIFIC 
    SALMON COMMISSION
    Mr. Koenings. Thank you, Mr. Chairman, Members of the 
committee.
    I want to thank you for the opportunity to testify here 
today on behalf of the U.S. section of the Pacific Salmon 
Commission.
    You have my detailed written testimony in front of you and 
I would like to summarize several of the salient points made in 
that document.
    We are requesting your consideration of an increase in 
funding through NOAA Fisheries for implementation of the 
Federal U.S.-Canada Salmon Treaty for fisheries management 
activities by the member states from $5.6 million to $9.708 
million.
    In addition, we are recommending the funding of the Pacific 
Salmon Treaty, Chinook Salmon Agreement line item within, NOAA 
Fisheries' budget for fiscal year 2012 at $1.844 million which 
is current funding.
    The Pacific Salmon Commission is the implementation arm of 
the federal U.S.-Canada International Salmon Treaty ratified by 
the U.S. Senate in 1985. The U.S. section of the commission 
consists of the member states of Washington, Oregon, Alaska, 
Idaho, the Federal Treaty Tribes, and you will be hearing from 
some representatives of them later on, and the federal 
representatives.
    Upon ratification of the treaty in 1985, along with its 
fishery management arrangements, the states and tribes received 
federal funding support for their fishery management and 
administrative activities through the federal Departments of 
State, Commerce, and Interior.
    NOAA Fisheries provides funding for treaty implementation 
to the member states. That funding has remained constant since 
1985. That is, the dollar amount has remained at around $5.6 
million since 1985 or for more than 25 years. You can imagine 
the decreased buying power of counts and dollar amounts over 
that time period.
    Since 1985, many challenges have also surfaced for the 
management of sustainable salmon fisheries on both sides of the 
border, each of which has required improvements to the science 
underlying the tools for the conservation of each nation's fish 
stocks.
    At a meeting last week of commissioners representing 
international, regional fishery management organizations held 
in Silver Springs, Margaret Spring, NOAA chief of staff, 
emphasized NOAA's need for coordinated and cohesive management 
internationally as an opportunity to complement national 
fisheries management.
    The Pacific Salmon Commission fulfills that need in the 
northwest coast from Alaska through Canada, Washington State, 
to Oregon's coast.
    Since 1985, the growing complexity of conservation-based 
fishing regimes has required vastly more stock assessment, 
fishing compliance monitoring, and technical support activities 
across multiple stocks and fisheries spread across thousands of 
miles of coastline.
    In order to continue to implement the requirements of the 
Federal Pacific Salmon Treaty, the states over time have had to 
augment federal funding through the treaty with other federal 
and state support. Unfortunately, a lot of that support has now 
disappeared due to the initial actions of Congress eliminating 
federal programs like Anadromous Fish grants or by the fact 
that the states are simply broke.
    Consequently we are asking the Federal Government to 
increase our funding support to replace the states and other 
funding that we have had to backfill this federal treaty 
implementation and would like to have you increase the funding 
from again $5.6 million to $9.708 million to represent the 
fishery management activities of the member states of this 
commission.
    This concludes my statement on behalf of the U.S. section 
of the Pacific Salmon Commission and I would like to answer any 
questions if you have them.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you for your testimony.
    Mr. Fattah.
    Mr. Fattah. I assume that the increase would cover the 
states' portion, not Canada's portion?
    Mr. Koenings. It would cover the states' portions, 
absolutely.
    Mr. Fattah. Thank you very much.
    Mr. Wolf. Thank you very much.
    Mr. Koenings. Thank you.
    Mr. Wolf. Our next witness will be Congressman David 
Cicilline from Rhode Island.
    Welcome. Your full testimony will be in the record and if 
you could just give my best to Patrick Kennedy when you see 
him.
    Mr. Cicilline. I certainly will, Mr. Chairman.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                     DEPARTMENT OF COMMERCE BUDGET


                                WITNESS

HON. DAVID CICILLINE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    RHODE ISLAND
    Mr. Cicilline. Thank you, Mr. Chairman and Ranking Member 
Fattah and Members of the committee, for the opportunity to 
appear before this subcommittee to provide testimony today.
    While there are many vital programs that this committee has 
jurisdiction of that keep our communities safe and advance the 
growth of our economy, I am here today to speak on three 
programs that I think are particularly vital to creating jobs 
and growing the economy in my state and in our Nation.
    Within the Department of Commerce budget, the President's 
fiscal year 2012 budget proposes $143 million for the Hollings 
Manufacturing Extension Partnership, $526 million for the 
International Trade Administration, and $325 million for the 
Economic Development Administration, all to support programs 
authorized by the America COMPETES Reauthorization Act.
    These are critically important investments to sustain our 
economic recovery, particularly for the State of Rhode Island 
where our recovery remains very fragile.
    Today in Rhode Island, there are 40,400 individuals 
employed in the manufacturing industry. A decade earlier in 
2000, the ocean state's manufacturing employment level was 
about 71,000.
    Rhode Island was the first state in the northeast to enter 
the recession and over the course of this three-year downturn 
almost 12,000 manufacturing jobs were lost, the largest 
employment decline among all industries in our State.
    Despite these losses, manufacturing currently represents 
the third largest share of private employment in Rhode Island 
and the average wage for an individual employed in 
manufacturing is $47,000. Now, when one considers in addition 
to that the multiplier impact of manufacturing on Rhode Island, 
it becomes all the more evident how vital this industry is to 
our State.
    By some accounts, the manufacturing multiplier is 2.4 which 
means manufacturing in Rhode Island accounts for more than 33 
percent of employment and more than $6 billion in wages in 
Rhode Island.
    Industry outlooks through 2018 in the State of Rhode Island 
indicate that certain sectors of the manufacturing industry are 
projected to experience growth including manufacturing of 
computer and electronic products, food, chemicals, and 
transportation equipment.
    The Hollings Manufacturing Extension Partnership provides 
small and medium size manufacturing firms the tools and 
expertise they need to improve productivity and 
competitiveness.
    Since 1996, 750 manufacturers have worked along with some 
partners and experts at Rhode Island Manufacturing Extension 
Services. We call it RIMES. That is more than 40 percent of all 
the manufacturers in our State have benefitted from this 
program.
    Partnering with state economic development and workforce 
agencies as well as private sector entities, RIMES has produced 
incredible economic benefits for our state and for the 
manufacturing sector in general.
    And during a time when Congress is being asked to make some 
very tough decisions focused on lowering our deficit as the 
chairman just mentioned and cutting spending, I think it is 
important that we make the right decisions and at the same time 
sustain investments that help create jobs, innovate for the 
future, and ensure that we can remain competitive in the global 
marketplace. Hollings Manufacturing Extension has done that.
    In addition to that, there is a huge initiative by the 
President to increase our exports and it is particularly 
important that in that role, that we support the Export 
Assistance Center which has provided tremendous assistance as 
businesses, particularly manufacturers, try to increase their 
exports.
    For Rhode Island, they have had a direct impact and led to 
the creation of 5,400 additional jobs as a result of the 
services that they have provided.
    And, again, as we work to cut spending, I think we have to 
do it in a way that is smart and not at the expense of 
initiatives that create jobs, bolster our economy, and allow 
manufacturers and businesses to innovate and compete.
    The economic recovery of my district and of our state and 
certainly our Nation as a whole demands that we work 
collaboratively, that we focus our energy and resources on 
those initiatives that will help spur job growth now while 
providing our workers, our entrepreneurs, and our businesses, 
particularly small enterprises and manufacturers, with the 
tools they need to compete in the global economy.
    I respectfully urge this committee, this subcommittee to 
fully fund these critically important economic development 
initiatives and for the levels requested in the President's 
fiscal year 2012 budget.
    Thank you, Mr. Chairman.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. Let me thank you. I had a chance to meet you in 
your great area of Providence. I want to thank you for your 
testimony. There is no more important priority in this bill, 
and I say that notwithstanding everything else in this 
manufacturing initiative.
    I heard from similar programs in Michigan and I have met 
with the ones in Philadelphia who are doing great work with 
manufacturers. So it is my highest priority.
    Thank you very much for your testimony.
    Mr. Cicilline. Thank you very much.
    Mr. Wolf. Thank you very much for your testimony.
    We are expecting a vote momentarily. What we are going to 
try to do is just keep this, because of people having 
airplanes, keep this thing moving.
    So, Mr. Fattah, there might be a time that you will chair a 
minute and Mr. Culberson and we will just keep moving around.
    Marine Conservation Biology Institute, Bill Chandler, vice 
president, Government Affairs.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION CONSERVATION PROGRAMS' 
                                FUNDING


                                WITNESS

BILL CHANDLER, VICE PRESIDENT, GOVERNMENT AFFAIRS, MARINE CONSERVATION 
    BIOLOGY INSTITUTE
    Mr. Chandler. Good morning, Mr. Chairman, Mr. Fattah, and 
Members of the committee. Thank you for this opportunity to 
testify.
    Chairman Wolf, you and I have crossed paths in the past in 
my capacity as representative of the Nature Conservancy and the 
National Parks Conservation Association on a number of 
conservation issues. And I know of your interest in them.
    Today, however, I am representing Marine Conservation 
Biology Institute of Seattle Washington whose mission it is to 
protect our marine ecosystems.
    My testimony is going to focus on the need to sustain 
funding for the conservation oriented programs of NOAA. And my 
point is simple. Without a living ocean, we are not going to 
have healthy economies because a good deal of our large coastal 
economy depends on things that live in the ocean. Whether it is 
people going to beaches, fishermen, commercial, recreational, 
people want a living ocean.
    It may not matter to the maritime industry who can just ply 
a ship on any body of water, but living oceans are critically 
important to the American people.
    In my statement, I have outlined nine such programs within 
NOAA that we would like to call to your attention that focus on 
conserving and managing marine ecosystems and sea life.
    We understand the pressures that you are under and I 100 
percent agree with statements you made about getting control of 
the entitlement programs. As a citizen, I would vote for that 
and I support that. But in terms of these programs, we have 
recommendations, some of which would support the request as is 
for 2012, some of them we are requesting slightly more than is 
in the budget because we think they are very important. And I 
would like to focus on three of these programs.
    First of all, I think you may have heard that our oceans 
are becoming more acidic. This is a huge problem and may be a 
real sleeper in terms of its effect on America and America's 
economy as the oceans absorb more and more carbon dioxide and 
become more acidic. Marine resources are already being damaged.
    Let me give you one example. A private shellfish hatchery 
on the West Coast suffered a 75 percent reduction in its 
ability to put out larvae that would set and produce shellfish 
that could then be harvested. And this was all due to the 
acidity of the water killing the larvae. They finally figured 
that out and now they are trying to take some mitigation steps 
to correct that problem, but that is a real-world example about 
why ocean acidification needs to be studied, monitored, and we 
need to come up with mitigation measures.
    Congress did pass the Ocean Acidification Act a couple of 
years ago and they authorized $20 million for this activity 
today. The President has requested $11.6 million. We are 
comfortable with that recommendation in the budget as it 
stands.
    Secondly, the national ocean policy. The Administration has 
issued a new policy to significantly improve the way we manage 
our oceans. The problem in the past has been that we have too 
many agencies managing separate sectors without communicating 
with each other or effectively planning where these uses occur 
and how they affect the environment.
    The policy calls for regional planning bodies to be set up 
who will try to sort all of these uses and needs out within a 
region with stakeholder input. We think that is a vital program 
to change the failed way we have managed the oceans and we are 
recommending $10 million to NOAA for its share. That is 
slightly higher than what they are getting in the request.
    Finally, I want to thank the committee for its support in 
the past of the recovery of the Hawaiian monk seal. This is one 
of the most critically endangered marine mammals in the world 
and it is all ours. It does not live anywhere else except in 
American waters. The Seal Recovery Program has benefitted 
greatly from your plussing up that budget to a decent size in 
the last couple of years. We would just urge you to keep it 
steady as she goes. They are making tremendous progress with 
the money that they have gotten from this subcommittee in the 
past.
    That concludes my testimony, Mr. Chairman, and thank you so 
much again for having us in.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Great. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you very much for your work in this area.
    Mr. Chandler. Thank you.
    Mr. Wolf. Thank you.
    Our next witness, Gulf of Mexico Reef Fish Shareholders' 
Alliance, David Krebs.
    Mr. Krebs, welcome.
                              ----------                              

                                          Friday, March 11, 2011.  

         NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION BUDGET


                                WITNESS

DAVID KREBS, PRESIDENT, GULF OF MEXICO REEF FISH SHAREHOLDERS' ALLIANCE
    Mr. Krebs. Thank you. Good morning, Chairman Wolf and 
Ranking Member Fattah.
    My name is David Krebs and I am honored to be invited to 
testify today on NOAA's budget, specifically in support of the 
$54 million in funding for the National Catch Share Program in 
fiscal year 2012, and in opposition to any provisions that 
would prohibit funding for Catch Share programs in the U.S.
    Before the option of a catch share, the early strategy by 
the government was to issue permits, yet there was no 
restriction on how many permits were issued. In fact, it was 
several years before any permit moratorium started to go into 
place to try to govern a fleet that was not wearing out, a 
fleet that had been growing for nearly 15 years.
    To address the fact that there were too many vessels and 
too few fish, there were calls for government buyouts to reduce 
this oversized fleet, but then that did not happen and the 
fleet just kept growing.
    To explain the benefits of a catch share, let me tell you 
the story about gulf red snapper, a fishery that has 
historically been over-fished. The commercial management plan 
for red snapper in the Gulf of Mexico began in 1991. It started 
as a pure derby fishery with an overall catch limit and a 
season that opened and closed when that quota was met.
    Under this system, each individual fisherman would race to 
catch as many fish as possible during the season. This was 
similar to the old halibut and salmon derbies in the northwest 
and had about the same outcome, a season as short as 53 days, 
low prices, and a market void of domestic red snapper the 
remainder of the year.
    The next attempt was a 14-day mini season with a 2,000 
pound trip limit that began the beginning of each month. This 
method later changed to a 10-day mini season which included 
size limits. The boats would try to make a trip every day 
regardless of weather or price to get their share. The result 
was always the same, too much fish at the beginning of the 
month and none in the last two weeks. And we still only had 66 
to 95 red snapper fishing days per year.
    Fishermen were increasingly discarding small fish that did 
not meet the size limits. It was an unsafe, inefficient, and 
uneconomic way to manage the fishery and it did little to 
improve the conservation of the resource.
    As early as 2001, the increasing number of discarded fish 
associated with the size limits and closed seasons from both 
the recreational and commercial fleets began to take its toll 
on the fishery. Consumers could not depend on a stable supply 
of fresh gulf red snapper. We had to have a better system.
    The commercial stakeholders and the fishery at the council 
level began the process of developing a red snapper individual 
fishing quota or IFQ which is a form of catch share or limited 
access privilege program. The stakeholders voted on the program 
by referendum and it was implemented in January 2007. For the 
first time in 16 years, the consumer would have year-round 
access to fresh gulf red snapper.
    The red snapper IFQ and other catch share programs have 
proven to improve the management and conservation which was the 
intended result of such programs when Congress authorized them 
in 2007. Both the Bush administration and the Obama 
administration have recognized the value of catch share 
programs and increasingly provided funding to NOAA so that the 
stakeholders in the fishery can develop and implement such 
programs.
    In fiscal years 2011 and 2012, $54 million in funding has 
been requested for the National Catch Share Program. That 
funding is not only crucial to programs that are already on the 
water such as the red snapper IFQ but also to the development 
of new programs to further improve the management of our 
Nation's fisheries.
    Well-designed catch share programs feature improved 
monitoring systems and an improved collaborative science. Catch 
shares quickly outperform traditional approaches both 
scientifically and in terms of access to fish for fishermen.
    As discussed in the President's budget request, an 
investment in the National Catch Share Program represents an 
investment in improvements in fishery dependent data collection 
systems, fishery data management, social and economic data 
collection, or analysis and stock assessments. These help 
improve the scientific data necessary to analyze and better 
manager fisheries.
    I urge the committee to oppose provisions that would limit 
the ability of the regional fishery management councils to 
consider the use of catch share programs and to support funding 
for the National Catch Share Program.
    Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Fattah [presiding]. Thank you very much.
    I do not want anyone to think that this is an exercise in 
futility. It is important that we build a record for the 
actions that the committee is going to take. So even though we 
are running in and out and voting, what you are saying is 
important so that we can justify when we fund the things that 
you want us to fund that there is a congressional record to 
support this.
    So thank you for your testimony.
    And let us invite the next witness, Paul Lumley, 
representing the Columbia River Inter-Tribal Fish Commission.
    Welcome.
    Mr. Lumley. Thank you.
    Mr. Fattah. And your complete statement will be part of the 
record and you are invited to make whatever comments you would 
like to make between the green light and the red light.
    Thank you.
                              ----------                              

                                          Friday, March 11, 2011.  

              COLUMBIA RIVER INTER-TRIBAL FISH COMMISSION


                                WITNESS

PAUL LUMLEY, EXECUTIVE DIRECTOR, COLUMBIA RIVER INTER-TRIBAL FISH 
    COMMISSION
    Mr. Lumley. It is a great pleasure to be here. Thank you, 
Mr. Fattah. This is a very distinguished committee and it is a 
great honor to be here.
    I do represent the views and recommendations of the 
Columbia River Inter-Tribal Fish Commission. It is made up of 
four tribes. Yakama, Umatilla, Warms Springs, and Nez Perce are 
the tribes in the pacific northwest.
    Each of those four tribes have the same treaty rights 
language, that is to fish and hunt at all usual and accustomed 
fishing places. And that treaty rights language has been 
litigated in numerous courts and eventually to the United 
States Supreme Court where it has been accepted.
    I am here to talk about three important programs, the 
Columbia River Mitchell Act, the Pacific Coastal Salmon 
Recovery Fund, and the Pacific Salmon Treaty.
    Regarding the Mitchell Act, we support an increase to $26.6 
million with $6.7 million directed to the Tribes for Hatchery 
Reform Practices.
    I would like to take a moment to talk about those hatchery 
reform practices. The tribes have a philosophy on how 
hatcheries should be managed and that is to use natural fish in 
the hatchery and then out-plant the fish from the hatchery into 
the natural environment and to keep the fish biologically the 
same. In that way, we can increase naturally-spawning runs and 
mitigate for all the dams that were built along the Columbia 
River.
    We have shown that we have made some success. I am going to 
give you one example. In my testimony, there are other 
examples. But one in particular is the Snake River fall chinook 
which are listed under the Endangered Species Act.
    Fifteen years ago, the tribes were allowed to experiment 
with their program and we increased the naturally-spawning fish 
from just a few hundred fish near extinction to over 10,000 
last year and we are expecting double that next year.
    Last year's return alone was three times the ESA delisting 
level. So we have shown that this kind of a philosophy and the 
way these hatchery programs can be used works.
    Now, the Mitchell Act Program is largely not managed that 
way. It is managed for the benefit of non-Indian fisheries. 
They employ a practice of marking the salmon much like cattle 
and, therefore, they can keep the hatchery fish and when they 
catch the wild fish, they throw them back. But in the process 
of doing that, a lot of wild fish are killed. So this is not a 
wild stock recovery program.
    What we want to see are reforms to that program so that we 
can see delisting in our future. And we have seen that with 
great success with the Snake River Fall Chinook Program.
    I want to commend this committee for their conference 
report language that they entered into the record in 1991. In 
1991, the conference report language stated Mitchell Act 
hatcheries be operated in a manner so as to implement a program 
to release fish in the upper Columbia River basin, above 
Bonneville Dam to assist in rebuilding of naturally-spawning 
salmon runs.
    That language was very important to us. We have tried very 
hard to convince the state and federal agencies to use that 
language seriously to reform hatcheries. We have made some 
success, but the success has been very slow. And I request that 
you also repeat this language into the current conference 
report if possible. Your support for this kind of hatchery 
reform is extremely important to the tribes.
    In addition to our request for Mitchell Act, we request 
$110 million for the Pacific Salmon Recovery Program. This is a 
program that is vitally important to all the tribes along the 
West Coast including the states of Oregon, Washington, 
California, and Alaska.
    We need this program level to be increased because these 
are the funds that we use for increasing naturally-spawning 
fish that are not necessarily listed but are really important 
to exercising our treaty rights.
    I support the recommendations made earlier by Jeff Koenings 
on the Pacific Salmon Treaty. He recommended a total of $11.6 
million. We support that as well as the $9.8 million for the 
states that he recommended and the $1.9 million for necessary 
research and management activities.
    I thank you for the opportunity to testify.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Fattah. Well, I want to thank you and the tribes 
involved for the great work that you are doing. Thank you very 
much.
    Mr. Wolf [presiding]. Thank you very much for your 
testimony.
    Next witness will be Cowboy Charters, Michael Jennings.
                              ----------                              

                                          Friday, March 11, 2011.  

                      NATIONAL CATCH SHARE PROGRAM


                                WITNESS

MICHAEL W. JENNINGS, OWNER, COWBOY CHARTERS
    Mr. Jennings. Hello, Chairman Wolf. Good morning to the 
committee.
    My name is Michael Jennings. I am a charter boat owner and 
operator. I operate two federally permitted charter boats in 
the Gulf of Mexico.
    And I have been in the charter industry for a little over 
25 years and we provide a service in the Gulf to a little over 
a million anglers a year to provide access to the Gulf 
fisheries.
    As you may know, several of the species critical to the 
recreational fishery had become depleted over time and even 
today under the recovery of these species, we are still subject 
to increasingly restrictive management measures that have 
caused shorter and shorter bag limits, shorter seasons, and 
causing a lot of strain on our fisheries and our fishing 
communities.
    Fortunately there is a solution that can simultaneously 
provide increased access to the fishing resource while 
providing long-term conservation of those resources. That 
solution is catch shares. And I am in support of the $54 
million in the President's fiscal year 2012 budget for the 
National Catch Share Program.
    The catch shares are a bottoms-up management process. They 
meet the biological goals and the management goals set forth by 
the Magnuson-Stevens Act and they also meet the economic goals 
of our industry and the much needed monies that come in through 
direct recreational fisheries for our coastal communities.
    The one thing that I want to point out, I am going to make 
this short, I know you all have my full statement, is that all 
Catch Share programs have cost recovery measures. This is not a 
subsidy for an industry. This is an investment in an industry 
moving forward into the 21st century to use a management 
practice that fits the Magnuson-Stevens Act, not an antiquated 
practice that does not meet what Congress mandated that we do 
with these fisheries.
    Under the Magnuson-Stevens Act, the Recreational Fishery 
Management Councils now have the option to implement Catch 
Share programs where the stakeholders and the fisheries want a 
program. Where I am at, it requires a 50 percent referendum to 
implement any kind of a Catch Share Program. That is the 
bottoms-up management process that I am talking about.
    Unfortunately, a recent amendment passed by the House would 
strip the ability of the fishermen to implement any Catch Share 
Program even if the majority of the industry wanted this 
program.
    I just would like to urge the subcommittee to support the 
$54 million in the National Catch Share Program in fiscal year 
2012 and to oppose any provisions that would prevent the 
Regional Councils from implementing these new programs or going 
forth with the current programs and pilot programs that are 
currently in place.
    And I appreciate you all's time and the ability to speak in 
front of you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Sure. Thank you very much.
    Mr. Fattah.
    Mr. Fattah. I appreciate what you do.
    Did you say you had two boats and you did over a million--
--
    Mr. Jennings. No. Our industry does.
    Mr. Fattah. Oh, industry.
    Mr. Jennings. Right. Our industry. I apologize if I 
confused you.
    Mr. Fattah. I was thinking this was a biblical proportion. 
You know what I mean?
    Thank you very much.
    Mr. Jennings. Thank you.
    Mr. Wolf. Mr. Culberson, yes.
    Mr. Culberson. Very quickly, Mr. Jennings----
    Mr. Jennings. Yes, sir.
    Mr. Culberson [continuing]. I wanted to ask what, if any, 
has been the impact on the quality of the fish. Was there any 
damage to the fishing stocks as a result of the blowout?
    Mr. Jennings. Not really. Actually, where I am at, I am 
located 40 miles south of Galveston, Texas, so I was not 
directly impacted by the oil spill, but I am fairly, yes, sir, 
I am fairly active throughout the----
    Mr. Culberson. Oh, excuse me. So you are Galveston?
    Mr. Jennings. Yes, sir. I am south of Galveston, 40 miles 
south of Galveston. Where I am at, I am also pretty active with 
the councils and through the management processes, a couple of 
advisory panels for our Gulf Council. So I have been active in 
that. And, actually, the science so far and the sampling that 
has been taken has been very encouraging. Very little has been 
found within our fish and our fisheries.
    Mr. Culberson. Throughout the entire Gulf?
    Mr. Jennings. Throughout the entire Gulf, it has been 
excellent.
    Mr. Culberson. So it is fair to say there is virtually no 
impact on fishing stocks from the oil spill?
    Mr. Jennings. I think that----
    Mr. Fattah. But there was an impact on the industry.
    Mr. Jennings. There was a huge impact on the industry, 
yeah, yeah.
    Mr. Culberson. But the fish themselves----
    Mr. Jennings. I think it is too early to say if there is 
going to be any long-term impacts. We saw some cobia migration 
pattern changes due to the lack of fishing effort and the 
closures up north.
    Mr. Culberson. Right.
    Mr. Jennings. There was no one fishing for them, so we do 
not know if it hurt the fish or they just did not migrate that 
year.
    Mr. Culberson. For the record, there appears to be no 
impact on the fish----
    Mr. Jennings. Correct, yes.
    Mr. Culberson [continuing]. The ecosystem? Mother nature 
absorbed whatever oil there was rather rapidly and----
    Mr. Jennings. Yes, sir.
    Mr. Culberson [continuing]. They are thriving?
    Mr. Jennings. Very correct, yes, sir.
    Mr. Wolf. Thank you.
    Mr. Jennings. Thank you.
    Mr. Wolf. Next witness will be Vaisala, Incorporated, Scott 
Sternberg.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

      NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION 2012 BUDGET


                                WITNESS

SCOTT STERNBERG, PRESIDENT, VAISALA, INCORPORATED
    Mr. Sternberg. Mr. Chairman, Members of the subcommittee, 
thank you for the opportunity to testify today.
    My comments will focus primarily on a strong and vibrant 
National Oceanic and Atmospheric Administration budget for 
fiscal 2012.
    My name is Scott Sternberg and I am president of Vaisala, 
Incorporated. Vaisala is a global leader in environmental and 
industrial management systems specifically focused on weather 
and climate observation equipment.
    In 1998, the National Academy of Sciences provided a report 
entitled the Fair Weather Report which identified and brought 
to the attention of the general public the importance of a 
three-tiered weather enterprise system comprised of the public 
sector, the private sector, and academia.
    Vaisala strongly represents as does many other companies 
here in a $2 billion industry that third arm in the private 
sector.
    I am appearing today both as president of Vaisala, 
Incorporated as well as a member of the Friends of the NOAA 
Coalition, the Friends of NOAA Coalition. The Friends of NOAA 
are supporters, stakeholders, and partners of NOAA that educate 
and inform interested audiences about the full range of NOAA 
activities so that the agency can carry out its 
responsibilities relative to our oceans, coasts, fisheries, 
weather, and climate.
    Vaisala strongly supports the funding requested by the 
Administration for NOAA in fiscal 2012. The $5.5 billion budget 
requested by NOAA falls short of what truly is needed by NOAA 
to carry out its important missions, but we also appreciate 
that federal spending must be restrained as part of a broader 
effort to put this Nation's fiscal house in order.
    Referencing yet another National Academy report that was 
released late last year entitled When Weather Matters, the 
report predicts that there is approximately $31 and a half 
billion of societal impacts due to weather-related incidents. 
Compared to the $5.1 billion it costs from a business 
perspective, a six-to-one return on investment is quite a good 
investment for anyone involved.
    This information does not include, however, the benefits to 
both government and industry which would be compounded on top 
of that figure.
    To list a couple of facts, between 1980 and 2009, 96 
weather disasters in the United States caused at least $1 
billion in damages with total losses exceeding $700 billion.
    Between 1999 and 2008, there was an average of 629 direct 
weather fatalities per year. The annual impact of adverse 
weather on our Nation's highway systems are staggering, 1.5 
million related crashes, 7,500 fatalities, and over 700,000 
injuries are experienced on our roadways.
    This in total adds up to $42 billion in economic losses. In 
addition, in our airspace, $4.2 billion annually is lost due to 
weather-related air traffic delays. Better forecasts and 
warnings can and do reduce these numbers, but much more can be 
done.
    In the last 15 years, we have seen a marked increase in the 
progress of understanding and observing and predicting the 
weather. At the same time, the U.S. has failed to match or 
surpass progress in numerical weather prediction achieved by 
other nations and failed to realize our own production 
potential.
    As a result, the Nation is not mitigating the cost of 
weather impacts to the fullest extent possible. Such mitigation 
costs are but a fraction of the cost of the weather impacts 
themselves.
    I offer the savings society may accrue by reducing the cost 
of weather impacts as one rationale for making a strong 
investment in NOAA and making this a high priority for the 
subcommittee.
    Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah is not there, so do you have anything?
    Mr. Culberson. No thank you.
    Mr. Wolf. Okay. Great.
    Thank you very much.
    Mr. Sternberg. Thank you.
    Mr. Wolf. We are going to go by the order, but if you would 
kind of come in, we will bounce back and forth. Since there are 
votes and there are people who have airplanes, we do not want 
to waste any time.
    Geological Society of America, director for geoscience 
policy, Dr. Schiffries; is that correct?
    Mr. Schiffries. That is correct.
    Mr. Wolf. Go ahead.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

               NATIONAL SCIENCE FOUNDATION APPROPRIATIONS


                                WITNESS

CRAIG M. SCHIFFRIES, DIRECTOR FOR GEOSCIENCE POLICY, GEOLOGICAL SOCIETY 
    OF AMERICA
    Mr. Schiffries. Thank you, Mr. Chairman and Members of the 
committee, for this opportunity to testify today in support of 
increased appropriations for the National Science Foundation.
    My name is Craig Schiffries and I serve as director of 
Geoscience Policy for the Geological Society of America.
    Today's historic earthquake in Japan emphatically 
demonstrates the need for increased NSF investments in 
fundamental earth science research that stimulates innovations 
and natural hazards monitoring and warning systems that will 
reduce losses from future natural hazards.
    The Geological Society of America supports strong and 
growing investments in earth science research and education at 
NSF and other federal agencies. Substantial increases in 
federal funding for earth science research and education are 
needed to ensure the health, vitality, and security of society 
and for stewardship of earth.
    Science and technology are engines of economic prosperity, 
environmental quality, and national security. Federal 
investments in scientific research pay substantial dividends.
    According to the National Academies' report Rising Above 
the Gathering Storm, economic studies have shown that as much 
as 85 percent of measured growth in U.S. per capita income were 
due to technological change. And, of course, technological 
change is driven by science and technology.
    However, the Academies issued a new report saying it would 
be impossible not to recognize the great difficulty of carrying 
out the Gathering Storm recommendations such as doubling the 
research budget in today's fiscal environment.
    However, it is emphasized that actions such as doubling the 
research budget are investments that will need to be made if 
the Nation is to maintain the economic strength to provide for 
its citizens' healthcare, Social Security, national security, 
and more.
    One seemingly relevant analogy is that a non-solution to 
making an overweight aircraft flight worthy is to remove an 
engine. Likewise, the National Commission on Fiscal 
Responsibility and Reform headed by Erskine Bowles and Alan 
Simpson said we must invest in high-value research and 
development to help our economy grow, keep us globally 
competitive, and make it easier for businesses to create jobs.
    I would like to focus on just two examples of earth science 
research. Natural hazards such as earthquakes, tsunamis, 
volcanic eruptions remain a major cause of fatalities and 
economic losses worldwide and improved scientific understanding 
of geologic hazards will reduce future losses through better 
forecasts of their occurrence and magnitude.
    The historic earthquake in Japan this morning, the 
devastating earthquake in Haiti last year that killed more than 
200,000 people and the small volcanic eruptions in Iceland that 
disrupted global air travel in April 2010 emphatically 
demonstrate the need for increased NSF investments in 
fundamental earth science research that stimulate innovations 
in natural hazards monitoring and warning systems.
    Secondly, energy and mineral resources are critical to the 
function of society and to national security and have positive 
impacts on local, national, and international economies and 
quality of life.
    I would like to focus on important linkages between mineral 
and energy resources. For example, widespread deployment of new 
energy technologies can reduce our dependence on foreign oil, 
reduce greenhouse gas emissions, and mitigate climate change.
    However, many emerging technologies such as wind turbines, 
solar cells, and electric vehicles depend on rare earth 
elements and other care elements that currently lack 
diversified sources of supply.
    China accounts for 95 percent of world production of rare 
earth elements, although it has only 36 percent of identified 
world resources.
    Mr. Culberson. Good point. I want to make sure the chairman 
heard that. Could you repeat that?
    Mr. Schiffries. Absolutely. China accounts for 95 percent 
of world production of rare earth elements, although it has 
only 36 percent of identified world reserves. A renewed federal 
commitment to innovative research and education on minerals is 
needed to address these issues.
    The America COMPETES Act set the stage to double the NSF 
budget over seven years. Despite overwhelming bipartisan 
support for the initial passage of the America COMPETES Act, 
appropriations fell short of the doubling path during the 
regular appropriations bills for fiscal years 2007 to 2011.
    The Geological Society of America recommends an 
appropriation of $7.76 billion for NSF in fiscal year 2012. 
This funding level would uphold the President's budget request 
and is consistent with the authorized funding level under the 
newly-reauthorized America COMPETES Act.
    Thank you very much for the opportunity to testify today.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Doctor, thank you very much.
    Before we go to Mr. Fattah, we agree with you. I cannot 
speak for everyone here, but on this issue, we agree with you.
    Mr. Fattah. We speak for me, Mr. Chairman, and my side.
    Mr. Wolf. Okay. We agree with you. I may see something that 
maybe they do not agree with, but----
    Mr. Fattah. We do agree with you.
    Mr. Wolf [continuing]. I would plus it up more. I have 
heard the first panel. Is UVA here? UVA put out a thing kind of 
criticizing the committee for cutting some programs.
    The universities and all of your associations are going to 
have to urge the President to come forward and adopt the 
Erskine Bowles-Simpson Commission which I will vote for if it 
comes up or what Senator Mark Warner, a Democrat, and Tom 
Coburn, a Republican, and Saxby Chambliss, and Dick Durbin are 
doing.
    If this is not done by the end of this year, all of your 
programs will be drastically cut. I do not want to see them 
cut. This committee is given an allocation and it is painful to 
reach it.
    So I agree with you. China is buying up all over Africa 
doing certain things. I completely agree. You do not have to 
convince me--and if I agree, he triply agrees. He is the 
science guy for the committee. But we must deal with the 
entitlements this year so that we can then free up the 
resources to do what we have to do.
    So we are with you. I would urge all of your associations 
to do a letter, say that we would urge the White House to come 
forward with Erskine, with Bowles, with Simpson, with Mark 
Warner, with Saxby Chambliss, and Tom Coburn to come together 
to deal with this. We must deal with it.
    The stock market dropped the other day, dropping again 
today. People are beginning to see what is taking place. Math, 
science, physics, chemistry, biology, investing in the sciences 
is the way to get us out of this and create a renaissance, but 
we have got to get control of the entitlements.
    Mr. Fattah.
    Mr. Fattah. I agree with the chairman and I also agree that 
the President of the United States needs to be at the very 
forefront position in our country for continued world 
leadership. And this is an important area. Notwithstanding how 
we got ourselves into this mess, for which I think both parties 
share----
    Mr. Wolf. I agree.
    Mr. Fattah [continuing]. Equal blame, we have to lead now, 
not just the President, but the Congress. And I would add the 
fact that what we are dealing with now is the one and a half 
percent cut, if we would take the majority's viewpoint, 
Democrats are somewhere around one percent. Neither of them 
address the trillion and a half deficit that we have this year 
or the $14 trillion debt.
    The President's Commission, and I would vote for Erskine 
Bowles and Simpson's plan, but that plan does not balance the 
budget in ten years. It takes us to $350 billion in deficit. We 
need an aggressive plan to get on the right fiscal footing 
because we have to make these investments or we are going to be 
stewards of a country in decline. That is not the country that 
I want to be a steward or have any responsibilities for. We 
want to lead and, therefore, we have to make these investments.
    Thank you very much.
    Mr. Culberson. Mr. Chairman----
    Mr. Wolf. Mr. Culberson.
    Mr. Culberson [continuing]. If I may very quickly, and we 
are all arm in arm in this in our support for the sciences, and 
I think if I may, Mr. Chairman and Mr. Fattah, it looks like we 
have got a lot of scientific organizations in the room, 
National Ecological Observatory is next, I think they are here, 
I hope.
    Mr. Schimel. Yes, sir.
    Mr. Culberson. The Federation of American Societies for 
Experimental Biology, are they here? We have got the 
Federation. It is the University of California Berkeley, 
American Mathematical Society, plant biologists, science, 
Mathematical Association of America.
    Scientists as a general rule have not ever been active in 
pushing for support for the sciences and we all love you guys. 
We are devoted to you, but traditionally you--and we love you, 
but you come down and make the request and then there is no 
follow-up with Members of Congress. There are no visits. There 
are no letters. There are no e-mails. There is no organized 
effort.
    You are going to have to do that now more than ever to 
protect not just the National Science Foundation but, frankly, 
the NASA and the NOAA funding for the sciences because of the 
entitlement problem Mr. Wolf is correctly focused on is so bad.
    The way to think about it, very quickly, is if we in our 
private lives set aside our mortgage payment, just 
automatically made sure that whatever your income is, you set 
aside the mortgage before you even budget for anything else, 
everybody does that.
    If you consider America's entitlement programs, Social 
Security, Medicare, Medicaid, interest on the national debt, or 
veterans as America's mortgage payment, the mortgage payment 
consumes a hundred percent of our income.
    In fact, at midnight, Mr. Chairman, we calculated--a UVA 
graduate who is about to get married, I am going to lose her, 
she does a spectacular job--but my brilliant UVA graduate 
calculates that at midnight on the first day of the fiscal 
year--Kristin--we have already borrowed $105 billion? At 
midnight on the first day of the fiscal year, America is 
already $105 billion in debt because the entitlement programs 
are consuming a hundred percent. Every penny that comes into 
the Treasury, Mr. Chairman, goes right out the back door to pay 
for the entitlement programs.
    So if we do not, as the chairman said, deal with it 
immediately, aggressively, begin to rein in the growth of the 
entitlement programs, there is nothing left. I mean, America 
really is--we could become Spain or Greece. It is very scary.
    So we are with you. We love you. We support you, but please 
get active. There is a reason the Jewish community is so strong 
in America. They are a hundred percent registered to vote and 
they are a hundred percent of them out there all the time. Pick 
any really successful group of people that make a big impact 
politically based on their numbers, it is because they are all 
organized, they all register to vote, and they all make it real 
clear what is going to happen on election day. And you need to 
do the same thing. Essentially pretend you are the Jewish 
community.
    Mr. Schiffries. We will be sure to do more as a scientific 
community. I will send you invitations to the 16th annual 
science, engineering, technology congressional visits days 
coming up in April and there will be about 250 scientists from 
across the country making visits to their congressional 
delegation. And then in May, we have the Coalition for National 
Science Funding's 17th annual reception, I think it is, and we 
will hope to get a good turnout there.
    Mr. Culberson. There are two messages, though, and forgive 
me. And I will not do this to the other witnesses, Mr. 
Chairman, because I know we have got a lot of folks to come in.
    Number one, of course advocate for increases in science 
funding, but, number two, please follow the chairman's advice 
and Mr. Fattah's advice; that is, you are also advocating that 
we have simply got to get the debt under control and that means 
getting the entitlements under control.
    Mr. Schiffries. Absolutely.
    Mr. Culberson. Thank you.
    Mr. Schiffries. Thank you very much.
    Mr. Wolf. Thanks, Mr. Culberson.
    Thank you, sir.
    Next witness, the National Ecological Observatory Network, 
Dr. David Schimel.
                              ----------                              

                                          Friday, March 11, 2011.  

                NATIONAL SCIENCE FOUNDATION 2012 BUDGET


                                WITNESS

DAVID SCHIMEL, CHIEF EXECUTIVE OFFICER, NATIONAL ECOLOGICAL OBSERVATORY 
    NETWORK, INC.
    Mr. Schimel. Chairman Wolf, Ranking Member Fattah, and 
Members of the subcommittee, thank you for this opportunity to 
testify.
    My name is Dr. David Schimel. I am CEO of NEON, Inc., the 
National Ecological Observatory, Incorporated, which is an 
implementing organization supported by the National Science 
Foundation.
    I appreciate the opportunity to discuss funding for the NSF 
and the National Ecological Observatory which is part of NSF's 
fiscal year 2012 budget request and deeply appreciative of the 
support this subcommittee has provided NSF and NEON in previous 
years and certainly hope that that will continue.
    The funding in this year will continue the construction of 
the National Ecological Observatory consistent with the 
schedule developed by the NSF over the previous five years 
including the full major research equipment and facilities 
construction account review cycle leading to National Science 
Board approval last year.
    The NSF is charting an exciting course, broadening the 
scope of science with enhanced observational capabilities, 
managing the extremely large amounts of data produced by these 
new observational tools and transforming this data into 
knowledge that provides both basic science and important 
applications for the growth of our society.
    The new NSF director describes this journey as entering 
into an era of observation and data and information. And at 
NEON, we applaud NSF for taking proactive steps towards a 
vision where the creative capacities of private industry, 
academia, and government have unfettered access to data and 
information generated through targeted investments at the 
frontiers of science.
    This vision also recognizes the growing the marketplace for 
access to environmental and scientific information to aid those 
with resource management responsibilities at local, state, 
regional, and national levels.
    NEON belongs to a class of NSF observatories that 
contribute to that vision. NEON provides advanced 
infrastructure for the study and the analysis of living systems 
at regional to continental scales. These living systems that we 
depend on are experiencing some of the greatest rates of change 
caused by multiple changes in the environment both human driven 
and natural. These changes affect ecosystems, air quality, 
water resources, agriculture, and other goods and services that 
living organisms provide.
    Understanding how these changes impact our natural 
resources requires an integrated, multi-scaled system to 
detect, understand, and forecast changes so that citizens and 
managers of national resources can act on those forecast 
changes.
    NEON will be an advanced network system of 60 sites plus 
airborne assets across the continent to monitor the pulse of 
our Nation's ecosystems and it represents the first scientific 
enterprise to measure a suite of hundreds of variables in the 
same manner across an entire continent.
    Data provided by the observatory will be available freely 
for science, education, and decision support purposes.
    Environmental observatories like NEON represent targeted 
investments in research infrastructure that will maintain U.S. 
leadership in linking research to national challenges in 
managing natural resources.
    There is great synergism between this program and other 
major NSF initiatives such as the science, engineering, and 
education for sustainability and the cyber infrastructure 
framework for 21st century science.
    I recognize the severe budget constraints facing the 
Congress and that you all have just spoken so eloquently on and 
I ask you to think of NEON as a key part of the investment 
strategy in research and education that will fuel the Nation's 
long-term competitiveness and innovation strategy.
    Thank you for the opportunity to appear before you today 
and, of course, I would be happy to answer any questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. I agree with the witness and thank you for your 
testimony.
    Mr. Schimel. Thank you very much, Mr. Fattah.
    Mr. Wolf. Next witness will be Federation of American 
Societies for Experimental Biology, Dr. William Talman.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                NATIONAL SCIENCE FOUNDATION 2012 BUDGET


                                WITNESS

WILLIAM T. TALMAN, M.D., PRESIDENT, FEDERATION OF AMERICAN SOCIETIES 
    FOR EXPERIMENTAL BIOLOGY
    Dr. Talman. Chairman Wolf, Mr. Fattah, Members of the 
committee and staff, first of all, thank you very much for the 
opportunity to testify.
    My name is Bill Talman. I am a biomedical scientist and 
neurologist who practices at the University of Iowa.
    I come before you to propose that the budget for the 
National Science Foundation or NSF for 2012 be set at $7.8 
billion. That particular figure is consistent with the 
President's budget as well as that from the bipartisan America 
COMPETES Reauthorization Act of 2010.
    There is a general agreement that our Nation's future is 
inextricably linked to its capacity for innovation. That 
capacity demands that we have an educated populous, a cadre of 
world-class scientists and engineers, a well-developed research 
infrastructure capable of supporting competitive research 
projects, and indeed federal funding for those projects.
    There has been broad bipartisan support which we applaud 
for this increased investment in science and technology 
including a consensus for the proposal to double the NSF budget 
by 2016. Cutting investments in research on the other hand to 
balance the budget in Iowa terms and in terms of farmers from 
my native State of Virginia would be akin to one's eating his 
seed corn. It might taste good at first, but it damages the 
future.
    A recent investment in NSF has already paid tremendous 
dividends in new projects, increased graduate training, and 
expanded capacity for innovation. A reduction of that effort 
would mean that fewer university researchers would do critical 
research in education projects and our capacity for innovation 
would be substantially diminished.
    A strong and sustained investment in NSF will enable 
transformational research and training essential to future 
success and competitiveness for the United States.
    Furthermore, the interdisciplinary nature of the scientific 
research makes the entire federal research and development 
portfolio of which NSF is a part more important than ever to 
our Nation's prosperity.
    NSF-funded research creates the foundation for new 
technologies and therapeutics. With just four percent of the 
federal research and development budget, NSF funds over 60 
percent of non-biomedical-like science research in fields such 
as mathematics, geosciences, computer science, and social 
sciences. NSF also plays a significant role in advancing 
biological research.
    Through rigorous peer review in which experts identify the 
best and most promising research to be funded, NSF has a 
history of identifying scientific talent early and funding 
ground-breaking discoveries.
    Forty-two Nobel Prizes have been awarded to NSF-funded 
scientists for contributions in physiology or medicine. One of 
those Nobel Prizes was awarded for work that led to the 
development of magnetic resonance imaging or MRI which, as you 
probably know, has improved diagnosis of many diseases and done 
so with greater safety and without the need for 
hospitalization.
    Recently researchers led by an NSF-funded synthetic 
biologist to genetically engineer yeast to produce a precursor 
of artemisinin, an anti-malaria drug.
    Other NSF-funded research into advanced robotics, 
information technology, and biomedicine has led to devices that 
improve surgical procedures, lessen the risk of those 
procedures to patients, and shorten recovery time after 
surgery.
    But NSF does not just contribute to scientific discovery. 
The agency is also committed to achieving excellence in science 
technology, engineering, and math education at all levels. It 
is the only federal agency that promotes the full range of 
science as well as science education.
    Thank you for the opportunity to offer FASEB's support for 
NSF. I give that support with confidence that NSF itself and 
funding for it is in our country's best interest. And I would 
be pleased to answer any questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much, Doctor.
    Mr. Fattah.
    Mr. Fattah. Well, I am very interested in your field of 
work in neuroscience and I see that you are one of the best 
doctors in the country over the last eight years as at least 
documented by your peers.
    Thank you for your testimony.
    Dr. Talman. Thank you, sir.
    Mr. Wolf. Thank you.
    Next witness will be the University of California, 
Berkeley, Dr. Graham Fleming.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                   UNIVERSITY OF CALIFORNIA, BERKELEY


                                WITNESS

GRAHAM FLEMING, VICE CHANCELLOR OF RESEARCH, UNIVERSITY OF CALIFORNIA, 
    BERKELEY
    Mr. Fleming. Chairman Wolf, Mr. Fattah, thank you for the 
opportunity to testify today.
    As vice chancellor for research at the University of 
California, Berkeley and on behalf of the university I urge the 
subcommittee to support the President's proposed increases for 
the federal science agencies in fiscal year 2012, including the 
$7.8 million for the National Science Foundation.
    In particular I want to address the importance of NSF's 
contribution and future role in the development of a deep 
underground science and engineering laboratory in South Dakota 
known as DUSEL.
    For the past four years the University of California in 
partnership with NSF and the Department of Energy has led a 
nationwide team of scientists and engineers designing DUSEL at 
Homestake Mine in Lead, South Dakota. This collaboration 
involves over 1,000 scientists and engineers from universities 
and labs in 33 states as well as international partners from 
Europe, Asia, and Canada.
    Consistent with the principles of the NSF and as 
recommended by numerous expert studies, DUSEL would be a 
national resource to be open on a peer reviewed competitive 
basis to projects sponsored by U.S. federal agencies and to 
cooperative national activities.
    The Homestake Gold Mine operated for 125 years, but it was 
also home to pioneering physics research for which Dr. Raymond 
Davis, Jr. received the Nobel prize in physics in 2002. Dr. 
Davis built his lab deep underground at Homestake to shield his 
experiments from cosmic radiation.
    The scientific questions to be addressed in DUSEL are 
intimately connected to the NSF's fundamental purpose of 
supporting cutting edge research in physics, biology, geology, 
and engineering. The envisioned DUSEL program in physics and 
astrophysics will address fundamental questions about the 
universe and its fundamental laws such as why the universe 
contains matter but no antimatter, the nature of dark matter, 
the origin of neutrino mass, and the genesis of chemical 
elements. Biological, geoscience, and engineering fields have 
projects of equal significance.
    The flagship program is in the area of fundamental 
subatomic physics with four ambitious experimental programs 
that will be at the international forefront in the research 
area.
    I am not here to explain the concepts like neutrinoless 
double-beta decay to you, but be assured that in each of these 
areas of science the DUSEL science program will be a leading 
edge in a worldwide scientific campaign putting our country at 
the forefront of subatomic physics for decades to come.
    The knowledge generated by underground science at DUSEL, 
the largest and deepest underground laboratory in the world, 
will benefit the nation's environment, safety, and national 
security. For example, studies conducted at DUSEL will help 
scientists improve methods for waste isolation, better 
understand earthquakes, and develop radiation detection methods 
used for national security purposes.
    We are currently completing the DUSEL preliminary design 
report that will inform future federal plans with its facility. 
This spring and summer the DOE and the National Research 
Council are each completing reviews of options and further 
evaluating the scientific capabilities of such a facility, one 
in which I believe future Nobel prizes will be won.
    NSF should leverage the ongoing DOE investment in fiscal 
year 2012 and beyond and insure that the broadest array of 
scientific questions is addressed with its truly one of a kind 
opportunity.
    Why should the National Science Foundation continue to 
support the development of this project? DUSEL's impact goes 
way beyond the science discoveries themselves. Education 
outreach programs will inspire young investigators and as many 
as 10,000 scientists will benefit each year. Further DUSEL's 
location in an economically disadvantaged region with a Native 
American population of 8 to 10 percent gives DUSEL a unique 
opportunity to effect change in this area, bringing world 
leading experts from around the globe to a state which 
participates in NSF's experimental program to stimulate 
competitive research, EPSCoR.
    In these times of fiscal austerity NSF must be a reliable 
and responsible partner with other federal agencies if U.S. 
leadership in science is to be maintained. It is more important 
than ever for the U.S. and the NSF to be leveraging financial 
commitments made by other partners demonstrating a sustainable 
development process to keep facilities costs down.
    With more than $250 million invested to date from federal, 
state, and private sources and hundreds of jobs already 
created, DUSEL is the type of leveraged investment which 
Congress should be encouraging.
    NSF must successfully construct the large interagency 
facilities needed for national leadership in science in a 
timely, efficient, and cost effective manner.
    I have been and remain significantly concerned at the 
manner in which the NSF and the National Science Board are 
working together to insure NSF, in concert with other federal 
agencies, can play a key role in developing these critical 
national facilities.
    In conclusion, the University of California, Berkeley 
remains solidly committed to working with all agency partners 
to develop this cutting edge scientific program, but it is 
essential that the NSF coordinate with and contribute to the 
Department of Energy's efforts in order to create a facility 
that will provide unique capabilities at the frontiers of 
science and engineering in support of the missions of both 
agencies.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Culberson. Thank you very much for your testimony.
    Mr. Fattah, any questions on this?
    Mr. Fattah. No questions, but let me thank you for your 
service. I note that you work at one of our premier national 
labs. I was able to visit two of our labs last weekend, Sandia 
and Los Alamos, and I want to note for the record that there is 
some disagreement with the NSF's viewpoint about how to proceed 
on DUSEL, and the committee will have to factor that in.
    Thank you very much.
    Mr. Culberson. If I may, I wanted to ask if I could, has 
anybody detected a neutrino yet? As I recall no one has done it 
yet.
    Mr. Fleming. Oh, yes.
    Mr. Culberson. They have detected neutrinos.
    Mr. Fleming. They have detected neutrinos. We do not know 
how much they weigh, but we know that they have some mass.
    Mr. Culberson. They do not interact with anything.
    Mr. Fleming. Very weakly, yes.
    Mr. Culberson. Right.
    Mr. Fleming. They go right through the earth.
    Mr. Culberson. Before many of you all came in the room 
Chairman Wolf pointed out quite correctly how urgent it is that 
the scientific community get active politically, visible, out 
in support with members of Congress for obviously maintaining 
and strengthening investment in the National Science 
Foundation, but also to press for entitlement reform, that we 
get a handle on the growth of the entitlements.
    Before you came in I mentioned that if you think of the 
entitlement payments and interest on the national debt as 
America's mortgage payment, our mortgage payment as a country 
consumes 100 percent of our income. Interest on the debt, 
Social Security, Medicare, Medicaid, and veterans benefits 
consume the entire--all revenue goes right out the back door to 
pay for them, therefore all the money we spend all year long, 
all the money this committee spends is borrowed, 100 percent of 
it is borrowed, so it is an urgent problem that has got to be 
dealt with immediately, so I urge all of you that are here in 
the room to please speak to your members, communicate with 
members of Congress and encourage them to get entitlement 
funding and the deficit and the debt under control, or we are 
just going to be out of money.
    Thank you.
    Dr. Andrews, the committee welcomes you on behalf of the 
American Mathematical Society, thank you very much, sir, and we 
look forward to your testimony.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                     AMERICAN MATHEMATICAL SOCIETY


                                WITNESS

GEORGE ANDREWS, PhD, PAST-PRESIDENT, AMERICAN MATHEMATICAL SOCIETY
    Mr. Andrews. Thank you, Chairman Wolf, Ranking Member 
Fattah, and members of the committee, I am George Andrews, 
past-president of the American Mathematical Society, I am a 
professor at Penn State University.
    The American Mathematical Society is an organization of 
over 30,000 professional mathematicians, and I am here today to 
request support for the fiscal year 2012 budget of $7.767 
billion for the NSF. This budget level is consistent with the 
administration's fiscal year 2012 budget request, and with the 
budget authorized in the bipartisan America COMPETES Act signed 
into law on January 4 of this year.
    I would like to thank the committee for its past support of 
the NSF, this support has been very important for maintaining 
our nation's scientific enterprise, which as you have remarked 
is critical for innovation and technological development.
    I recognize that Congress faces the difficult and 
unenviable challenge of reducing the federal budget deficit. 
This task is made especially problematic in troubled economic 
times. I sympathize fully with how hard it is, you have my 
admiration for your dedication to protecting our future and 
your eloquent remarks this morning make it clear that this is 
topmost in your mind. I do hope that you will be able to wield 
the budget cutting ax judiciously.
    The National Commission on Fiscal Responsibility and Reform 
made the point that even when it was necessary to make budget 
cuts at the same time we must invest in education 
infrastructure and high value research and development to help 
our economy grow and to keep us globally competitive and make 
it easier for businesses to create jobs. The NSF is the perfect 
agency through which investments in education and high value 
research can be made and it is the only federal agency that 
supports research in education across all fields of science, 
engineering, and mathematics, and at all educational levels.
    Research in education programs supported by the NSF are 
fundamental for increasing and developing the knowledge base 
needed for pushing forward the frontiers of science, 
mathematics, and engineering disciplines, developing new fields 
of inquiry, and supporting technological innovations.
    Society has benefited from the many products, procedures, 
and methods resulting from NSF supported research, research 
performed over many years, and not always predetermined per its 
specific applications. These benefits include well-known 
innovations and surprises such as Google, magnetic resonants 
imaging and bar code technology.
    Today the NSF portfolio includes research that contributes 
to finding cures for certain types of cancer, aids the 
improvement and development of arterial stints and artificial 
heart valves, increases the possibility of fabricating 3-D 
computer memory chips, and promotes understanding of how atoms 
and molecules interact with surfaces thereby aiding the 
development of nanoscale devices.
    In fiscal year 2010 over 70 percent of the NSF's budget 
went to support research and education projects in colleges and 
universities in all 50 states. The agency evaluated over 50,000 
proposals through its merit review progress funding 13,000 of 
these. This is a success rate of 23 percent and indicates how 
competitive it is to receive an NSF grant. If NSF had more 
funds the agency could support many more highly rated 
proposals. In fact each year on average over $1.7 billion is 
requested for declined proposals that receive ratings at least 
as high as the average rating for all awarded proposals. These 
declined proposals have the potential to produce substantial 
research in education results.
    The U.S. must maintain its leadership in high level 
research in education, and NSF is an agency that contributes 
substantially to this endeavor. Even under tight budget 
constraints it is important to make adequate yearly investments 
in the NSF a predictable pattern of funding facilitates a 
continuous stream of high level research and researchers.
    I ask the committee to give strong consideration to 
providing the fiscal year 2012 budget of $7.767 billion for the 
NSF and I thank you for this opportunity to speak to you for 
your support of the NSF.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Culberson. Dr. Andrews, thank you. And I hope each one 
of you when you come up and talk to us will also add to your 
testimony that you are going to communicate to your members 
that you are going to urge them to get up here on the hill and 
get to work to protect the NSF and to deal with entitlements, 
because there is no money. Critical. Absolutely critical.
    Mr. Andrews. It is quite clear that is the elephant in the 
room.
    Mr. Culberson. The other thing I would ask very quickly is 
if one of you could be thinking about whether it is in your 
testimony which is I know brief, you may do it separately, is 
to communicate to each one of us, Chairman Wolf, Mr. Fattah, 
and me as well, because the sciences are--one of my greatest 
joys in life is the support that we can give to the sciences, 
so talk to us about also how would you reform the NSF.
    The inspector general for NSF came in and gave us some 
distressing testimony that NSF is not adequately, for example, 
Dr. Fleming, I am sorry I did not ask you about this because 
you will know, on big capital projects that NSF is building 
these giant observatories, for examples, the neutrinos which I 
gather I missed the first part, but I think it is deep in a 
mine under the earth and using big tanks of water and watching 
for flashes of light I think as the neutrinos allegedly 
interact with water molecules or some heavy something that you 
are injecting into the water, I forget the details, very 
expensive, big, big capital projects that apparently NSF is not 
managing very well, so we would appreciate suggestions, advice, 
and guidance from you on the outside talking to us privately 
and let us know how can we improve NSF's management of those 
big projects following up and making sure the grants that they 
award are actually being--the grant research is being done in a 
way that the money is not being wasted and it is actually being 
used properly, because the inspector general was concerned 
about frankly NSF's oversight over all these areas, and because 
money is so critical we really need your input as outside 
objective people who work with NSF to give Chairman Wolf and 
all of us suggestions on how to make sure NSF's precious 
dollars go further.
    Mr. Chairman, I was just asking to make sure they 
communicate to their members to get active and talk about not 
just increasing funding but to deal with entitlements, and also 
to give us ideas on how to improve NSF management, as the 
inspector general pointed out the flaws and the oversight of 
big capital construction projects, grant programs; these are 
the folks that will be able to tell us directly where the 
problems lie and how to fix them.
    Mr. Wolf. Thank you. Thank you very much.
    Mr. Culberson. And I did not have a chance for Mr. Fattah.
    Mr. Wolf. Okay, Mr. Fattah.
    Mr. Fattah. Thank you. I spent a number of years on the 
board of trustees of Penn State University and I want thank you 
for your fine work.
    I want to note for the record since your focus is 
mathematics that the federal budget has two sides to it, income 
and spending, and both are discretionary. The one thing that is 
not discretionary is the question of where we want to end up in 
this competition in the world and we want to be number one, and 
that will require the political will to do both, have the 
necessary revenue and make the correct spending decisions.
    Thank you very much.
    Mr. Andrews. Thank you.
    Mr. Wolf. Did Mr. Fattah say you went to Penn State?
    Mr. Andrews. I am a professor at Penn State.
    Mr. Fattah. No, the professor is at Penn State, I said I 
served on the board of trustees of his great university for a 
number of years.
    Mr. Wolf. What is the name of your football coach?
    Mr. Andrews. Let me think. He is a national icon, Joe 
Paterno.
    Mr. Wolf. Yeah, I am a graduate of Penn State and when I 
was there----
    Mr. Andrews. Actually I knew that, yes.
    Mr. Wolf [continuing]. The assistant coach had the same 
name as the current coach.
    Mr. Andrews. That is right.
    Mr. Wolf. And it is the same coach.
    Mr. Andrews. That is right.
    Mr. Wolf. And he is a great man and he has made a great 
contribution not only to football but to the university.
    Mr. Andrews. To the university and to the state and to the 
nation.
    Mr. Wolf. If you see him tell him that Congressman Wolf 
said hello.
    Mr. Andrews. I will do that.
    Mr. Fattah. The creamery is still the best known treasure 
of the university. Thank you.
    Mr. Wolf. Thank you. Okay. The next witness is American 
Society of Plant Biologists, Dr. Elizabeth Hood.
                              ----------                              

                                            Friday, March 11, 2011.

                  AMERICAN SOCIETY OF PLANT BIOLOGISTS


                                WITNESS

DR. ELIZABETH HOOD, MEMBER, PUBLIC AFFAIRS COMMITTEE, AMERICAN SOCIETY 
    OF PLANT BIOLOGISTS
    Ms. Hood. Good afternoon and thank you for giving me this 
opportunity to testify on behalf of the National Science 
Foundation fiscal year 2012. I am hearing lots of things that 
are very similar from all of us in our presentation to you.
    I am Elizabeth Hood, I am a distinguished professor of 
agriculture at Arkansas State University and I am here today 
representing the American Society of Plant Biologists, we call 
ourselves the ASPD, I am on that Public Affairs Committee, and 
I would like to report to you that I visited my entire 
delegation this week and we have pushed for science funding and 
to balance the budget, and I told them I would pay more taxes 
too, but they were not very excited about that.
    So ASPD is an organization of approximately 5,000 faculty, 
postdoc graduate students and the educators across all 50 
states and worldwide. We are very much the advocates for plant 
biology, we communicate plant research, and we are trying to 
promote the interest of plant biologists in general.
    We recognize that there is a terrible fiscal environment 
and we are very much in support of the National Science 
Foundation funding.
    Plants as you know are the only thing on earth that keeps 
us all alive because they are the only thing that can harvest 
the sun's energy and give us food, fabrics, materials, fuel, 
security--not just oil, but fuel security and biofuels--and 
promote health through nutrition, and we are absolutely in 
support of the $7.76 billion budget that is being proposed.
    NSF has had a significant impact on my life. I was a 
program director there in the recent past and witnessed 
firsthand the absolute positive effects that it can have and 
the wonderful projects that it funds.
    Also the State of Arkansas where I am coming from today has 
received two experimental program grants for stimulating 
competitive research and we have used those tremendous 
investments in the state to promote research and the reputation 
of the scientists in the State of Arkansas, and even though 
they were large grants we took very good care of them, we spent 
the money very wisely.
    So the bio directorate is the most important one to the 
plant biologists. Within the plant directorate is the Plant 
Genome Research Program and we advocate bringing that back as a 
line item for full funding in the coming year.
    The discoveries will be delayed if we do not have this 
investment, and of course we all know that tremendous 
discoveries lead to tremendous innovations for the state and 
the nation and the world.
    So the NSF also invests in the education and training as 
well as innovation and research and is one of the few 
foundations that actually funds innovations in education as 
well as in research.
    We urge you to revitalize the programs in graduate research 
fellowships, career grants, as well as graduate student 
stipends. We are very dedicated in our organization to 
promoting diversity in the workforce and especially in the STEM 
disciplines, and so we are working very strongly with NSF to 
improve diversity in our workforce in science and technology.
    So America's challenges in energy, agriculture, and health 
will not be resolved in a year, an administration, or a 
generation, but it is going to take decades of investment and 
hard work to get to where we need to do. And we realize that we 
need this investment to get the great results and that the 
economics of the nation depend on the innovations that are 
going to come out of the science and technology fields.
    And I thank you very much for your consideration of my 
testimony and I would be happy to answer any questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Well, thank you very much. I agree with you, and 
I said when the earlier group was here that I think the answer 
is to deal with the entitlements. Senator Mark Warner from my 
state, who is a Democrat and Tom Coburn from Oklahoma who is a 
Republican along with Saxby Chambliss, a Republican from 
Georgia and Dick Durbin, a Democrat from Illinois have come 
together to put together a group and they are trying to adopt 
the Simpson Bowles, however it is referred to, as a vehicle, as 
an outline.
    If we were to do that and do it in this year I think it is 
safe to say that the NSF budget would not only be fully funded, 
it would probably be increased. I think the only inhibiting 
factor will be if that is not done, and the concern is if it is 
not done by the end of this year you are going to get into a 
Presidential election, and not only President, but House and 
Senate. People do not want to go there.
    So I think the answer is to come together in a bipartisan 
way, and I have said that I would support the recommendations 
in the commission. There are some that I have problems with 
that I would attempt to change, but having said that, everyone 
cannot just get whatever they want. There was a chart which I 
almost was going to bring, and I might bring for other 
hearings, showing that all of the cuts that are being proposed 
are basically coming out of about 15 percent, it is even less 
than that of the budget looking at a pie chart, and all of the 
others are really off limits, and a large portion is Medicare, 
Medicaid, social security, and interest on the debt. That 
number is getting worse each and every year.
    So hopefully we can do that by the end of the year and I do 
appreciate your testimony.
    And Mr. Fattah.
    Mr. Fattah. Well, I want to thank you for your testimony 
and your great work.
    We are spending $2 billion this week in Afghanistan. We did 
$900 billion in tax cuts over the next two years to some of the 
wealthiest citizens in the country.
    Since Singapore is spending $5 billion on a national 
research foundation and they have less than 5 million people, 
they have a country of 300 million, I agree that we need to get 
the entitlements under control and am committed to voting to do 
that. But we also need to make a decision that we are prepared 
to spend the money, and that is raise it through revenue, to be 
a leading force in this world as we have been for a few hundred 
years. If we want to retain that, we are going to have to 
invest in science and innovation.
    Thank you very much.
    Mr. Wolf. Thank you. I am not responding to Mr. Fattah, we 
are really friends, but I do want to say this----
    Mr. Fattah. We agree with each other.
    Mr. Wolf. We agree. I do not know, I assume maybe I know 
how Mr. Fattah voted, I voted against the tax extension 
package. Not that I was opposed to the extent of the tax cut 
package, but there was also a provision in there that they 
reduced--actually they reduced every one here's payroll tax. 
They gave a payroll tax break to Jimmy Buffett from 
Margaritaville and Warren Buffett from Nebraska, and I voted 
against that.
    That one provision taking it aside of extending tax cuts, 
which I favor, that one provision will cost the treasury for 
one year $112 billion.
    If we could have taken a portion of that and put it into 
NASA, NSF, NOAA, and the sciences--now what is going to happen 
is at the end of this year there will be an effort probably not 
to extend that and they are going to pay for that $112 billion 
by borrowing from the general fund. The general fund obviously 
is broke.
    So I did vote against that. I think it is one of the best 
votes that I have cast, because as much as you wanted to extend 
the tax cuts, as I did, they went further and borrowed from the 
general fund and no one even knew. Then the President bragged 
this was an example of how he and the Republican Congress 
worked together. True, most Republicans supported it, but it is 
easy to work together if we are giving things away, and Mr. 
Fattah and I were going to say how much can we give you, but it 
is how much can we? So giving is not particularly courageous, 
it is dealing with it and it borders on the word called 
sacrifice, something that the nation has done, and I think if 
we come together on these entitlements we can do it in a way 
that hopefully we can allow this; we can fund the sciences. But 
$112 billion; one year. In one year.
    Thank you for your testimony.
    The Soil Science Society of America, Ms. Gala.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                    SOIL SCIENCE SOCIETY OF AMERICA


                                WITNESS

CARON E. GALA BIJL, SENIOR SCIENCE POLICY ASSOCIATE, SOIL SCIENCE 
    SOCIETY OF AMERICA
    Ms. Gala. Thank you for giving the Soil Science Society of 
America the opportunity to testify today.
    Many of our members, scientists, fundamental research 
depends on grants from the National Science Foundation's BIO, 
GEO, and education and human resource directorates.
    The Soil Science Society of America testifies today in 
support of funding the funding level put forth for the National 
Science Foundation and the President's budget request of $7.8 
billion as this budget level is consistent with the amount 
authorized in the recent America COMPETES Law.
    We recognize that Congress faces a major challenge to 
reduce first of all budget deficits and bring the national debt 
under control. Cuts must be implemented strategically with an 
eye towards the future economic health of the U.S.
    Continued strong funding of basic scientific research in 
NSF as well as investments in STEM education programs like 
those in EHR will help insure the economic growth needed to 
restore long-term fiscal strength and national prosperity 
occurs.
    Food and energy security, human nutrition and health, water 
availability and quality, adaptation to variable weather 
patterns are some of the greatest challenges facing our Nation 
and the world today.
    There are also major societal needs identified by the 
committee on new biology for the 21st Century which require 
solutions developed through the new biology initiative.
    The soil provides numerous ecosystem services which will 
help play a role in addressing these challenges, including 
water purification necessary for potable and recreational water 
use, waste treatment essential for recycling waste products and 
nutrients, retention and treatment of chemical and biological 
agents from air, land, and biological systems, nutrient cycling 
in soils for food and energy security, among many others.
    Life-supporting services provided by the soil can be 
enhanced by increasing the inherent resilience of soil and 
manage natural systems. Soil health however faces increasing 
human-linked threats from contamination, unplanned urban 
development, desertification, salinzation, mismanagement, and 
erosion.
    Research performed in programs like BIO's molecular and 
cellular biosciences is essential to understand processes at 
molecular, subcellular, and cellular levels that affect soil 
health.
    The microbial observatories and microbial interactions and 
processes program allows us to build upon the information that 
we now have about microbial communities and to learn more about 
how industrial processes may be developed which can capitalize 
on the interactions between communities and plants.
    Similarly the plant Genome Research Program also plays a 
critical role in understanding the basic biology of soil and 
plant relationships.
    In GEO, the earth sciences division supports biological geo 
hydrologic sciences and the study of natural hazards. An 
important funding within this division is the critical zone 
observatories which focuses on watershed scale studies that 
advance understanding of the integration and coupling of earth 
surface processes as mediated by the presence and flux of fresh 
water.
    Finally and not to be understated, the critical programs 
offered by EHR are essential to training a high-caliber 
scientific workforce.
    We hope that you will continue to strongly support funding 
for NSF, especially the BIO, GEO, and EHR directorates.
    Thank you for providing us with the opportunity to testify 
today, and I am free to answer any of your questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Sure. Well, thank you very much for your 
testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you. I think that we have said it and we 
will say it again that we agree. Thank you.
    Mr. Wolf. Thank you. Next the witness will be Mathematical 
Association of America, David Bressoud.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                  MATHEMATICAL ASSOCIATION OF AMERICA


                                WITNESS

DAVID M. BRESSOUD, PH.D., PAST-PRESIDENT, MATHEMATICAL ASSOCIATION OF 
    AMERICA
    Mr. Bressoud. Chairman Wolf, Ranking Member Fattah, thank 
you so much for this opportunity to come before you today to 
speak on behalf of the National Science Foundation, and thank 
you especially for all of the support that you have given to 
science in the United States.
    I am David Bressoud, I am past-president of the 
Mathematical Association of America. This is the largest 
professional association in the world that focuses on 
undergraduate level mathematics, and undergraduate teaching is 
what we are primarily concerned with.
    I teach right now at Macalester College, but I will pull 
the Penn State card, I taught there for 17 years before moving 
to Minnesota in 1994.
    I do not need to convince you how important it is to have a 
highly trained workforce in engineering and the sciences, the 
people who are--got the mathematics background in order to 
succeed in the kinds of jobs that we need to create for the 
21st Century. Certainly many other countries realize this. You 
look at China, you look at India, you look at Singapore, they 
are invested heavily in their undergraduate science and 
mathematics and engineering programs, and unfortunately the 
United States has been slipping.
    I have included in my written testimony some graphs. You go 
back 25 years, we were graduating more engineers 25 years ago--
75 to 80,000 engineers each year--than we are going now. We are 
now graduating less than 75,000 engineers per year. And not 
only are we losing numbers in engineers, we are losing numbers 
in the sciences, and we are particularly losing numbers among 
women and students from underrepresented groups, historically 
underrepresented groups.
    During the '80s and '90s we were very successful in 
increasing the percentage of women going into engineering, the 
same was true with Hispanic students and African American 
students. The past decade has seen these numbers slip. The 
number of women going into engineering, it got up as high as 21 
percent of engineers were women, in the past decade it has now 
slipped back down to about 18 percent.
    Very dramatic changes among African Americans. Twelve years 
ago we reached a peak in the number of African Americans 
majoring in mathematics and statistics, those numbers have 
dropped by 25 percent in the past decade.
    Now, it does not have to be like this. We know the kinds of 
programs that are successful in getting students into these 
science and engineering fields and successfully through them, 
and the National Science Foundation's directorate for education 
and human resources is really the only federal agency that 
really focuses on undergraduate level science and mathematics, 
and the work is absolutely critical.
    I am speaking generally for funding for National Science 
Foundation, but more specifically for EHR, because they have 
been able to identify the programs that are successful and show 
how to leverage that by helping other colleges and universities 
to adopt those programs and adapt them to their local needs.
    Often it is a question of small amounts of money, sometimes 
30, $50,000 is enough to get a school to get people interested, 
willing to commit the time to start up one of these programs, 
like the Emerging Scholars Program that has been so successful, 
it is run out of the Dana Center at the University of Texas, 
Austin. Or you have got a great program as Arizona State 
University, the Mathematical and Theoretical Biology Institute 
that is run by Carlos Castillo Chavez. These are programs that 
provide the mentoring in order to be able to get students 
successfully in and through the math intensive majors.
    So I want to thank you again for this opportunity to appear 
before you and I hope that you will seriously consider the 
funding, especially for EHR. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Well, thank you. Well, we will. We were involved 
with the Gathering Storm report. Looking at the latest one, if 
my memory serves me, is we were graduating about 70,000 
engineers and of that about 30,000 or 35,000 were foreign 
students; many who were not going to live here after 
graduation. In China the numbers were roughly 700,000, although 
it is not engineer for engineer, but it is still a number that 
sort of frightens you a little bit.
    Mr. Bressoud. Yes.
    Mr. Wolf. And the other figure was that we are graduating 
fewer Ph.D.s in physics now than we did in 1956.
    Two years ago we asked the National Science Foundation to 
put together a program for the best practices, what is working, 
and frankly they dropped the ball. Now they are picking the 
ball up and running with it, so I would ask if you would call 
maybe the NSF, the staff can be in touch with you.
    Mr. Bressoud. Yes.
    Mr. Wolf. Because we are trying to get them to put together 
what are the very best practices with regard to teaching math 
and science, what age do you begin to lose people? Is it fourth 
grade, fifth grade, and you sounded like you were saying we 
pretty much know in that area.
    Mr. Bressoud. Yes, we have got a pretty good idea of what 
works.
    Mr. Wolf. Well, then if you could talk to them and a staff 
member will put you in touch with Joanne Freeney.
    Mr. Bressoud. Oh, sure, she is a good friend.
    Mr. Wolf. If you would call her and share it, because they 
are going to have a conference in May. Then there is going to 
be a roll out of whatever recommendations they make some time 
in the summer or the fall, and if you could help her. They were 
just going to look at two states when I thought maybe they 
should be looking at many different programs. So if you would 
do that and help us out we would appreciate that.
    Mr. Bressoud. Yes, and of course one of the biggest 
challenges is to take successful programs at one institution 
and figure out how to translate them so that they will work at 
another institution.
    Mr. Wolf. Well, you all are the experts and we are looking 
for you to tell us what you think is the best.
    Mr. Bressoud. Okay.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. I agree with the chairman and I appreciate your 
input. You have crystallized and quantified where we are. Thank 
you.
    Mr. Bressoud. Thank you.
    Mr. Wolf. Thank you very much.
    How is your football team there, pretty good? Are you in 
the big 50? Is that the big 50 or big 100?
    Mr. Bressoud. Not quite.
    Mr. Wolf. Why would you leave Happy Valley?
    The next member of Congress we have Ms. Richardson from 
California.
    Mr. Fattah. You are being bumped for a second.
                                          Friday, March 11, 2011.  

                          JUSTICE AND SCIENCE


                                WITNESS

HON. LAURA RICHARDSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Richardson. Well, thank you, Mr. Chairman for having 
me. It is kind of ironic that you were before my committee 
yesterday, so now it is reversed roles and I am in this 
position. And my football team is doing just fine. I went to 
both UCLA and USC, so we are having our days.
    I want to thank Chairman Wolf and Ranking Member Fattah for 
this opportunity to appear before the House Appropriations 
Committee on the issues of justice and science and really give 
you some of my thoughts about appropriations as we move forward 
in 2012.
    As we begin to recover from the deepest recession that we 
have had since the great depression, it is important that our 
spending decisions reflect the needs of investments that we 
know have worked, because we have less money to do with the 
things that we need to achieve.
    I am here to stress the support of a number of community, 
safety, criminal justice, economic and science research 
programs that are important not only to the 37th Congressional 
district, but to the nation as well.
    Sir, I represent a very urban community. Long Beach is the 
very largest city that I live in and I also include Compton, 
Carson, and a part of Watts. I point that out to you because 
you have different interests in people here who are talking, 
but I wanted to put a face to you of what my district is about.
    In my district one-third of the grandparents are raising 
their grandchildren. The average income is approximately 
$32,000. When I first became an elected official in local 
government, my district was number one in murder, manslaughter, 
rape, and assault.
    So when I come to you and I talk to you about the 
importance of these programs it is based upon that information 
that I sit here with you today.
    The number one, the first program I wanted to discuss with 
you was the COPS Program. As you know, that program was 
started, it was not really intended initially to be a program 
that would be utilized for ongoing of paying for police 
officers. It was to initially get more officers on the street. 
And what we have found is even with the officers that we have, 
we are still struggling to maintain the pay of those that we 
have and to have enough officers to provide adequate safety in 
our communities. So I would urge your consideration of 
continuing to support that program.
    The second one is the Debbie Smith DNA Backlog Grant 
Program. As you know, I believe I am--as much as I work to make 
sure we have safety in our communities--I am also very strong 
on being tough if people are violators of those laws. This DNA 
Backlog Grant Program is so important because we have 
assailants who are out there who would be caught on past crimes 
that they have already committed and future ones that they are 
engaging in at this time, and so I would urge your support in 
that area as well.
    I have cut my comments back because I wanted to respect the 
time that I had before you.
    Keeping our communities safe however demands not only 
responsive services, but preventative measures as well, and so 
I want to talk a little bit about the prisoner reentry programs 
that have benefited by community.
    The recidivism rate in the United States is intolerable 67 
percent. This is because too many prisoners are released 
without having learned appropriate skills that they could use 
coming out.
    I would like to share with you, and if you are not familiar 
with Chef Jeff, Chef Jeff was in a prison in California. He 
actually learned how to become a professional chef, and ended 
up being a chef in the Bellagio and many of the very high name 
hotels in Las Vegas. He has written many books. I would be 
happy to share that information with you.
    I have drafted a bill called the Chef Act, and it is 
Cooking Helps Elevate Futures Act. And what it basically would 
do is: prisoners are in prison, they are going to be eating. So 
we might as well, if they are going to be eating and if they 
are going to be helping in the cooking, they ought to be 
learning some of the skills so that that way if they come out 
they would have the ability to work in a place of business 
where they could actually have a job and therefore not coming 
back returning to prison and costing us more money that we do 
not have.
    So as that moves forward I would hope that you would 
consider potential laws like that and other programs that 
currently exist that Danny Davis, Representative Davis brought 
forward: the Second Chance Act. That really has not received 
the appropriate funding that it so richly deserves.
    In Los Angeles County, the average daily jail population is 
19,000. Now I am moving to my last couple points. Twenty-two 
percent of those inmates are undocumented immigrants, and 17 
percent of those are undocumented felons. The total State 
Criminal Alien Assistance Program, SCAAP, cost Los Angeles 
County in 2009 nearly $117 million, and yet Los Angeles County 
only received $15 million. States should not be expected to 
bear the burden of undocumented illegal immigrants who we are 
then left to house and have to pay for. So I strongly support 
the funding of SCAAP at $950 million for the 2012 year coming 
forward.
    As I close for both you Chairman Wolf and also Ranking 
Member Fattah, I want to say that, for all of us, public safety 
and economic security is clearly our top priority, but it is 
important that we support programs that have worked. I have a 
lot of programs that I believe in, but I respectfully came to 
you to highlight and to paint a picture of some of the very key 
ones that I would urge you to please consider granting it our 
full support in the House.
    Underfunded programs negatively impact American's lives, 
and I would venture to tell you it will actually cost us more 
if we do not support them now.
    I thank you for the time that you have given me and I will 
now pause for any questions that you might have.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Well, I do not have any questions, just to thank 
you for your testimony. I think the committee is sympathetic. 
We are going to try to carry language to require more work in 
the prisons with the Bureau of Prisons.
    Actually the Congress has voted to decrease the work in the 
prison industry system. If you want to give us a letter in 
detail, we can get it down to Director Lappin to see if we are 
able to convince them to increase this program. It may be 
easier to do it that way than it is to get the bill passed, so 
give us a copy and we will talk to Director Lappin.
    Secondly, I was out in California a while back giving a 
speech at Pepperdine on human rights and there was a person 
there who had worked in the prosecuting attorney's office in 
Compton. They were telling me you really have a very, very, 
very serious gang problem with regard to that.
    Ms. Richardson. Yes, sir.
    Mr. Wolf. I have been to Long Beach, and I do appreciate 
your testimony. I think we are meeting with Director Lappin on 
Tuesday. If you can get us something by next Tuesday we will 
ask him to take a look at your bill because he is coming before 
the committee next week.
    Ms. Richardson. Okay.
    Mr. Wolf. But thank you for your testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you, and let me thank you for your great 
leadership in the Congress on a whole range of issues on behalf 
of California and the country and Compton.
    But on this point, we are spending as you know over a 
billion dollars on police in Iraq, and on training their police 
we have spent billions. So the idea that we would cut the COPS 
Program--and the chairman's father was a Philadelphia 
policeman, so we know that he sympathizes on these issues.
    I want to thank you for your testimony, we are going to 
work as hard as we can on the priorities that you have laid 
out. Thank you.
    Ms. Richardson. Thank you very much. And Chairman Wolf, I 
also want to stress, I look forward to working with you and we 
will get you that information. So far I have already co-signed 
onto six Republican bills, and the reputation I want to 
establish with you is I want to fix the problems, so I am happy 
to work with you.
    Thank you, Mr. Fattah, as well for your kind comments.
    Mr. Wolf. The next witness will be George Washington 
Institute of Public Policy, George Washington University, Dr. 
Andrew Reamer.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

              GEORGE WASHINGTON INSTITUTE OF PUBLIC POLICY


                                WITNESS

DR. ANDREW REAMER, RESEARCH PROFESSOR, GEORGE WASHINGTON INSTITUTE OF 
    PUBLIC POLICY, GEORGE WASHINGTON UNIVERSITY
    Mr. Reamer. Mr. Chairman, Mr. Ranking Member Fattah, I am 
Andrew Reamer, research professor at George Washington 
University's Institute of Public Policy, I focus on federal 
policies to promote employment and competitiveness.
    I appreciate the opportunity to comment on the proposed 
fiscal year 2012 budget for three statistical organizations 
under your purview. The Census Bureau, the Bureau of Economic 
Analysis, and NSF's National Center for Science and Engineering 
Statistics.
    These agencies' data guide public and business decisions 
that determine the health of $15 trillion in annual national 
economic activity which comes to $48,000 a person in the 
country, and the future of $71 trillion in U.S. household 
assets, and $37 trillion in U.S. non-financial business assets 
which comes to over $300,000 per person in national wealth.
    Specifically agency data informed decisions by policy 
makers responding to national economic and fiscal conditions by 
millions of businesses regarding location, markets, products, 
investment, and hiring by thousands of education and training 
organizations determining program offerings and by thousands of 
regional economic development organizations addressing 
opportunities for business creation, retention, expansion, and 
attraction.
    Consequently the nation's return on investment in these 
agencies will be extraordinarily high. Essentially $1.1 billion 
in investment to protect the future of over $100 trillion in 
national wealth on a per capita basis is investing $3.67 per 
capita to protect the future of over $300,000 per capita.
    In particular I recommend one billion thirty-one point two 
million dollars for the Census Bureau, $6.5 million above the 
President's request, and $108.9 million for BEA, the 
President's request, $38.01 million for NCSES, the President's 
request.
    The President's request for the Census Bureau will allow 
the agency to operate its essential programs and add a timely 
low cost effort to gather data on state and local government 
pension programs, which includes unfunded liabilities, which 
have been in the news as of late.
    I recommend that the subcommittee fund two programs slated 
for termination in the President's budget at a cost of six and 
a half million dollars or two cents per capita.
    The first is the Consolidated Federal Funds Report which 
provides Congress and the public with annual data on federal 
expenditures and obligations for every state and county in all 
spending categories. CFFR's termination would leave members 
with a reduced understanding of the details of federal spending 
to the detriment of sound fiscal management.
    I also ask the subcommittee to preserve the Current 
Industrial Reports Programs which surveys firms in 47 
manufacturing sectors. The loss of the CIR program would result 
in less reliable economic statistics, not a good thing in these 
times.
    Regarding BEA I strongly recommend the subcommittee endorse 
BEA's budget initiatives totaling $13.2 million or four cents 
per capita. These initiatives will enhance the safety of the 
national wealth and soundness of the nation's economy in four 
ways. They will remove blind spots in macro economists' and 
financial markets' abilities to see emerging economic risks. 
BES says that the statistical system, quote, fell short in 
providing advance warning signs of a building economic crisis, 
unquote. What BEA does not say is that the missing data would 
have cost about a nickel per person.
    The statistical agencies have sought funding to get those 
data since the 1990s, and that absent the warning signs 
resulting economic crisis led to a 16 percent drop in household 
assets in one year coming to about $42,000 in lost wealth per 
person.
    Second the initiatives will result in more reliable 
forecasts of federal deficits.
    Third, the new data will enhance the ability of 
corporations to make decisions more likely to lead to greater 
competitiveness, higher profits in jobs, and finally the new 
data will allow Congress and the administration to take actions 
that better support small business development.
    Finally the work of the National Center for Science and 
Engineering Statistics is essential for guiding government, 
university, and corporate decisions regarding R and D 
innovation and education that will determine the nation's 
economic competitiveness going forward.
    The President's request including four important low cost 
and high impact initiatives is worthy of the subcommittee's 
report.
    Thank you very much, Mr. Chairman, for the opportunity to 
present my views.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. I think the per capita illustrations are 
important for us to understand the issues at hand, and thank 
you for your testimony.
    Mr. Wolf. Thank you. The next witness will be former 
Congressman Jim Ramstad representing National Association of 
Drug Court Professionals. Jim, welcome to the committee.
                              ----------                              

                                          Friday, March 11, 2011.  

            NATIONAL ASSOCIATION OF DRUG COURT PROFESSIONALS


                                WITNESS

HON. JIM RAMSTAD, NATIONAL ASSOCIATION OF DRUG PROFESSIONALS
    Mr. Ramstad. Thank you, Mr. Chairman, it is nice to be 
back, Ranking Member Fattah, it is good to be back among 
friends and former colleagues.
    My name is Jim Ramstad and I am a senior policy advisor to 
the National Association of Drug Court Professionals, and I am 
here today to talk about drug courts, the most effective and 
cost beneficial criminal justice strategy for non-violent drug 
addicted offenders, or as one judge put it, the most successful 
justice reform in our lifetime, the most successful justice 
reform in our lifetime.
    Mr. Chairman, as you and many of my other former colleagues 
know, on July 31st, 1981 I woke up from my last alcoholic 
blackout in a jail cell in Sioux Falls, South Dakota, under 
arrest for disorderly conduct, resisting arrest, failure to 
vacate the premise.
    I am alive and sober today almost 30 years later only 
because of the access I had to treatment for my alcoholism, 
only because of the access I had for treatment, the same access 
drug courts provide each and every day across America.
    Last year alone drug courts served over 120,000 people, 
people given the same opportunity of recovery that I have had. 
The opportunity to live a sober, a productive, and a healthy 
life.
    Drug courts are not only changing lives, they are saving 
lives and they are saving taxpayer dollars, and that point in 
this time of budget deficits and horrendous monumental debt is 
one that I can not overemphasize, the savings that are a result 
of the taxpayer from drug courts.
    The most conservative studies, in fact, Mr. Chairman, show 
for every dollar invested in drug courts $15.36 is saved on 
reduced emergency room visits, other health care, foster care, 
and welfare costs, property losses, and criminal justice and 
incarceration cost.
    As a conference of chief justices declared recently, and I 
am quoting now, Mr. Chairman, drug courts are the most 
effective strategy for reducing drug use and reducing criminal 
recidivism. Remarkably 75 percent of drug court graduates 
remain arrest free. Seventy-five percent of drug court 
graduates stay arrest free compared to 30 percent of offenders 
released from prison. That is on a national level.
    One such successful graduate named John is sitting to my 
left, Mr. Chairman. John in fact is from Loudon County from 
your district. John got hooked on painkillers following a very 
complicated wisdom tooth extraction when he was 17 years old. 
Subsequently he experienced an overdose and faced criminal 
charges.
    John said it all, Mr. Chairman, when he said, and I am 
quoting this young man, the drug court program changed my life 
forever. It enabled me to be drug free and it taught me how to 
live again. It taught me how to live again. John is currently 
pursuing a Ph.D. degree in psychology and behavioral 
neuroscience, and John has been in recovery now for three years 
and 38 days.
    In addition to being a proven cost effective budget 
solution drug courts also promote public safety and address the 
alarming number--and it really is alarming--the alarming number 
of addicted and justice involved veterans among the 2,400,000 
veterans who have returned from Iraq and Afghanistan.
    As law enforcement and prosecutors agree substance abuse is 
a national concern with shared responsibilities among federal, 
state, and local governments.
    Last week's budget hearing of your subcommittee with 
Attorney General Holder demonstrated why drug abuse is a 
national issue requiring a national response on the supply side 
and the demand side.
    On the supply side increased border security and 
interdiction, but not forgetting the demand side, reduction 
provided by drug courts and other efforts.
    Mr. Chairman, I was moved by your concern after hearing 
about that hearing, I was moved by your concern and that of 
Chairman Rogers as to the enforcement and treatment of 
prescription drug abusers. An epidemic as you know Mr. Chairman 
and Ranking Member Fattah, an epidemic that is devastating many 
communities and thousands of veterans. There is no question it 
would be counter productive to eliminate funding for the 
prescription drug monitoring program that was sponsored by 
Chairman Rogers.
    Mr. Chairman, today over 2,500 communities have found drug 
courts to be a proven public safety solution that work better 
than jail, probation, or treatment alone and reduce drug abuse 
and crime more effectively and less costly than another other 
drug strategy.
    Drug courts need to be available, Mr. Chairman, for our 
brave veterans ravished by PTSD and chemical addiction. In fact 
the most recent study on that point, the most recent study 
showed one in five returning veterans has a mental health 
disorder. Think of that, 20 percent of the returning veterans 
from the wars in Iraq and Afghanistan has some mental health 
disorder, and one in four a substance abuse disorder. One in 
four, 25 percent of our GIs coming back from war have a 
substance abuse problem. And of course as you know and as we 
have discussed abuse of prescription drugs is exploding among 
veterans as they seek to counter the pain of combat.
    Drug courts are working closely with the Department of 
Veterans Affairs to connect veterans with the benefits and 
services that they have earned. Adequate federal funding, Mr. 
Chairman, for drug courts will accommodate more eligible 
veterans without limiting eligible non-veterans. So from health 
care to housing and employment, caring for our veterans needs 
to continue to be a shared responsibility by states and the 
federal government.
    Mr. Chairman, no other justice intervention can match the 
proven results of drug courts. I have attended numerous drug 
court graduations during my 28 years in public office and I am 
constantly in awe at the lives being restored, families 
reunited, little children returned to their parents, people's 
careers resurrected, people's lives saved and changed 
dramatically for the better, but the hard reality is there 
simply are not enough drug courts to reach all who are 
eligible.
    In fact the Department of Justice has identified 1,200,000 
substance abusing offenders who are currently eligible for drug 
court, but are unable to access drug court, many of whom are 
veterans.
    In closing, Mr. Chairman, let me say I fully realize, I 
truly do the monumental task before you facing the huge deficit 
and the mind boggling debt, that is why I ask the fundamental 
question, how much longer can we continue to spend $60 billion 
a year building new prisons and jails with minimal return on 
investment as compared to drug courts? How much longer can we 
continue to spend $60 billion a year as a nation on more cells 
when drug courts work so much more effectively?
    That is why I urge the subcommittee to approve fiscal year 
2011 funding for drug courts at least at the same level 
approved by the subcommittee last year. An investment that is 
$50 million as you know, Mr. Chairman, and that investment of 
$50 million will save upwards of $168 million in criminal 
justice and victimization costs alone and will result in $1.3 
billion in additional benefits to the economy. And if you want 
the studies to prove those numbers and those savings I refer 
you no further than the group that has been recently formed by 
former Speaker Gingrich, former Attorney General Ed Meese, 
three other exemplary public servants whose names escape me 
right now, but none has been accused of being a liberal, I can 
assure you of that, and as they say, the most responsible thing 
to do in terms of dealing with the drug and alcohol addiction 
problem is drug courts. They hardly endorse drug courts, and I 
will be glad to get that material to you for the record, Mr. 
Chairman.
    Thank you very much, Mr. Chairperson, Ranking Member 
Fattah, for your support of a justice system that truly works.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Wolf. I thank you Jim. And John, we welcome you. Well, 
Jim, thank you.
    Mr. Ramstad. Thank you very much, Mr. Chairman, Ranking 
Member Fattah.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. Well, thank you, Jim. First of all, I have no 
problem with being accused of being a liberal, so I just want 
the record to reflect that I resemble that remark.
    But I want to congratulate John for his pursuit of his 
doctoral degree and for dealing with the challenges that he has 
had to deal with. I was the proud sponsor of the drug court 
legislation in Pennsylvania when I was--this is a couple of 
decades ago--when I was in the state senate. I think that 
everything you said is correct in terms of the empirical 
evidence, so I thank you for your testimony.
    Mr. Ramstad. Thank you.
    Mr. Wolf. Thank you. Thank you, John.
    The next witness will be American Society of Agronomy and 
Crop Science Society, Catherine Swoboda. Welcome.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

    AMERICAN SOCIETY OF AGRONOMY AND CROP SCIENCE SOCIETY OF AMERICA


                                WITNESS

CATHERINE SWOBODA, SCIENCE POLICY INTERN, AMERICAN SOCIETY OF AGRONOMY 
    AND CROP SCIENCE SOCIETY OF AMERICA
    Ms. Swoboda. Thank you for offering the American Society of 
Agronomy and the Crop Science Society of America the 
opportunity to comment today. Many of our member scientists' 
fundamental research depends on grants from the National 
Science Foundation's BIO, GEO, and EHR directorates.
    The American Society of Agronomy and the Crop Science 
Society of America testify today in support of the funding 
level put forth for the National Science Foundation and the 
President's budget request of $7.8 billion as this budget level 
is consistent with the amount authorized in the recent America 
COMPETES Act.
    Throughout history farmers have adapted agricultural 
systems to changes in the environment; however, recent extreme 
and unpredictable weather events linked to unprecedented 
climate change have outpaced land managers' ability to adapt. 
Increases in frequency and intensity of precipitation, elevated 
temperatures, drought, and other extreme weather events are 
negatively impacting crop yield and quality. These negative 
weather impacts can be seen here in America.
    Just last January in Florida one-third of the winter fruit 
and vegetable harvest was lost when the state suffered 13 
consecutive nights of below freezing temperatures, 
significantly driving up produce costs to consumers.
    Such extreme weather events can act as a threat multiplier 
for instability, leaving already most volatile regions of the 
world even more vulnerable to instability due to greater 
hunger, violence, and crime.
    There are several factors associated with climate change 
that impact cropping systems. Drought will limit the 
productivity of over half of the earth's arable land in the 
next 50 years and adversely impact crop yields, Elevated 
temperatures can shorten the period of grain filling which in 
turn will limit weight gain in the grain and reduce pollen 
viability. Carbon dioxide concentrations in the atmosphere will 
also increase. Carbon dioxide is a fundamental requirement for 
plant carbohydrate production in overall plant metabolism. Some 
plants will be more productive with the continued climb of 
carbon dioxide; however, tropical grasses like maize, sugar 
cane, sorghum, and cellulosic biofuel crops may not respond 
positively.
    Furthermore the benefits seen by other plants may be 
counter balanced by other pressures both biotic and abiotic 
which accompany climate change and continued release of carbon 
dioxide.
    Crops will be vulnerable to increasingly active biotic 
stresses such as viruses, bacteria, and fungi which are highly 
responsive to humidity and rainfall as well as temperature.
    And finally as the seasons lengthen and winters moderate 
due to climate change, adaptation zones of invasive animal, 
plant, pathogen, and insect species are likely to increase as 
overwintering and movement of pests and pathogens occurs more 
rapidly.
    Adapting crops and cropping systems to new seasons, 
temperatures, gases, and biotic stresses will require crop and 
region specific crop adaptation technologies and strategies. 
Basic science approaches for adapting crops to climate change 
include improvement of crop cultivars and development of new 
methods of managing the crops in the field.
    We need to capitalize on these known approaches and seek 
out additional advances to overcoming the challenges to 
agricultural production.
    We hope that you will continue to strongly support funding 
for NSF and especially the BIO, GEO, and EHR directorates as 
the work performed in these directorates will be essential for 
developing technologies and strategies for crop adaptation.
    Thank you again for providing us with the opportunity to 
testify today.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you for your testimony.
    Mr. Fattah.
    Mr. Fattah. I want to thank you for your testimony.
    Ms. Swoboda. Thank you.
    Mr. Wolf. Thank you very much.
    American Astronomical Society, Dr. Debbie Elmegreen.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                     AMERICAN ASTRONOMICAL SOCIETY


                                WITNESS

DR. DEBBIE ELMEGREEN, PRESIDENT, AMERICAN ASTRONOMICAL SOCIETY
    Ms. Elmegreen. Thank you, I am Debbie Elmegreen from Vassar 
College where we have no football team.
    Thank you Chairman Wolf, Ranking Member Fattah, for the 
opportunity to comment on astronomy in the fiscal year 2012 
budget from my perspective as president of the American 
Astronomical Society, the organization for professional 
astronomers in North America.
    The AAS supports the NASA, NSF, and DOE budget request as 
they pertain to astronomy and the office of nuclear energy 
plutonium 238 production restart.
    We are in a golden age of discovery for astronomy from 
planets around nearby stars to dark matter, dark energy, and 
the early universe. We stand poised to answer big questions, 
are we alone? How did universe begin? What is it made of?
    Astronomy inspires generations of scientists and engineers 
through discoveries about the universe rebuilt by NSF's 
supported telescopes on the ground like the new ALMA radio 
telescope, and NASA missions in space like Hubble Space 
Telescope and Kepler which finds earth-like planets.
    Each year a quarter of a million college students enroll in 
astronomy courses, including 15 percent of all future K-12 
teachers.
    The U.S. Astronomical community just completed its sixth 
decadal survey to determine the most compelling research and to 
prioritize the projects to accomplish those goals. This well 
respected survey process has helped make the U.S. a world 
astronomy leader.
    The report, New Worlds, New Horizons, produced by the 
National Academies and funded by NASA, NSF, and DOE, provides 
policy makers with a prioritized set of initiatives for federal 
support. It is based on input from over 1,000 astronomers and 
independent assessment of costs and risks and budgetary 
constraints. The recommended program is a balance of small, 
medium, and large projects and builds on international, 
private, and interagency partnerships.
    The top large ground project is the revolutionary large 
synoptic survey telescope enabling time discoveries by rapid 
repeated sky scans. It will find small near earth asteroids as 
congressionally mandated, and distant supernova which map out 
the universes acceleration. Nightly acquisitions of over 10,000 
gigabytes of data will drive new methods for data achieving, 
LLST will be unique worldwide highlighting U.S. leadership. A 
recommended mid scale innovations program will allow a competed 
program in NSF for medium cost projects.
    Our top ranked medium project is CCAT, a large sub-
millimeter telescope that will compliment ALMA by surveying 
regions forming planets or forming galaxies.
    The James Webb Space Telescope is the successor to the 
Hubble Space Telescope and was the top ranked program in the 
2000 decadal survey. It underlies many of the 2010 decadal 
recommended activities.
    JWST will transform astronomy through observations of the 
very first stars and galaxies, black holes, and planets 
information. We support JWST. A timely launch of JWST also 
enables this decadal survey's top ranked launch space program, 
the wide-field infrared space telescope. Its goals encompass 
two high priority astronomy areas, earth like planets and dark 
energy. Our leadership in dark energy studies is at risk in a 
WFIRST launch this decade or a suitable partnership with the 
European space agency is not achieved.
    The mid scale explorer missions in NASA's astrophysics 
division address other important issues. They provide rapid 
launches for timely research as with the cosmic background 
explorer that led to a Nobel prize and they enable instrument 
training for young scientists.
    An issue critical planetary science is the production of 
plutonium 238 used to power missions to the outer solar system 
such as the Cassini mission to Saturn. There is no viable 
energy alternative for deep space missions. Our production 
restart is vital to avoid delayed missions and escalating cost. 
We urge funding the plutonium restart.
    In closing I thank Representative Wolf for your bipartisan 
leadership in supporting science and advanced research. Your 
efforts, along with this whole committee have benefited science 
broadly and astronomy in particular. I can think of no more 
important way to rebuild America than to support advanced 
research and maintain U.S. leadership in science, engineering, 
and technology.
    Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. Let me thank you, and I also think that the 
plutonium 238 restart is critically important and I want to 
also note for the record your comments in your written 
testimony on the budget deficit and how we ought to proceed.
    Thank you.
    Ms. Elmegreen. Thank you.
    Mr. Wolf. Thank you very much.
    The American Physical Society, Dr. Michael Lubell.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                       AMERICAN PHYSICAL SOCIETY


                                WITNESS

DR. MICHAEL LUBELL, DIRECTOR OF PUBLIC AFFAIRS, AMERICAN PHYSICAL 
    SOCIETY
    Mr. Lubell. Chairman Wolf, Ranking Member Fattah, thank you 
for the opportunity to testify today.
    I am appearing on behalf of the American Physical Society 
which represents 48,000 physicists in universities, industry, 
and national laboratories.
    I want to begin by thanking the committee for its past 
support for NSF, NASA, and NIST, and in particular, Chairman 
Wolf, when I was in your office which almost seems like 
yesterday, but your role in promoting what became the Rising 
Above the Gathering Storm report.
    I also want to note that APS along with a number of other 
organizations that are a part of the task force on American 
innovation sent a letter to the Bowles Simpson Commission last 
fall urging entitlement reform, so we are on the record on 
that. I just want to make that clear, and Mr. Culberson had 
raised that, and I think we feel very strongly about it.
    I am a professor at CCNY in addition to the work that I do 
for the American Physical Society, and as a university 
professor and research physicist I can personally attest to the 
critical role NSF, NASA, and NIST have played in advancing the 
frontiers of American science and in training America's next 
generation of scientists.
    You have already heard other witnesses testify to the facts 
so I will not repeat them, instead I want to return to an issue 
that APS raised in prior testimony before this committee, one 
that was not dealt with during the last three years and now 
looms large in fiscal year 2012 for NSF.
    In November of 2008 then-President Elect Obama requested 
APS to provide the new administration with advice on sciences 
research and needs that could be addressed in an economic 
stimulus bill and we were pleased to do so. We compiled a list 
of shovel ready projects and instrumentation requests pending 
at a number of federal agencies, among them NSF.
    Most of the agencies largely followed our guidance. NSF 
elected however to use a majority of the funds it received in 
the American Recovery Reinvestment Act to address another 
critical need, increasing the acceptance rates of very highly 
ranked research proposals that budgetary strictors had 
prevented the foundation from supporting previously. The 
acceptance rate had declined precipitously and then-Director 
Arden Bement believed he was reaching price in proportion.
    The need was compelling but NSF's decision to address it 
with funds that would last only three years created the specter 
of a significant short fall in fiscal year 2012.
    Indeed President Obama's fiscal year 2009 budget recognized 
the problem, it projected an increase of 17 percent for the NSF 
and the out year budget fiscal year 2012.
    In prior testimony we called this committee's attention to 
the administration's plan which we deemed difficult, if not 
impossible to realize, and to address the shortfall we urged 
the committee to allocate much of the increases in NSF's 2009, 
'10, and '11 budgets to one shot such as laboratory start ups 
or new faculty grants of limited duration.
    Unfortunately our recommendations were not enacted into law 
and today the NSF faces a problem of either allowing students 
supported with ARRA funds to be stranded in the middle of their 
graduate education and severely restricting the award of new 
grants.
    Neither course is desirable, both are damaging to America's 
global scientific leadership and public polling has shown the 
public values deeply.
    The clock cannot be turned back, but if this committee 
elects not to grant the NSF the appropriation increase 
requested by the President the problem the foundation faces 
will be made considerably worse.
    Therefore although we fully recognize the need to shrink 
the federal deficit, we urge this committee to be wise in how 
it reduces expenditures and where it applies its cuts.
    Building a better America requires a strong science 
research enterprise in a highly skilled work force. To sustain 
our nation's economic growth and to keep the highly skilled 
jobs within our borders we must commit ourselves to educating 
the scientific workforce of the future and providing the young 
scientists today with the resources they need to keep our 
Nation at the innovation frontier.
    Over the years NSF has played a central and extraordinary 
effective role in both endeavors and we believe it deserves the 
funding the President has requested. We hope the committee will 
find a way to provide the necessary appropriation.
    Again, thank you for your past support and for allowing me 
to testify today.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Well, thank you very much. We will do everything 
we can for education. So you understand this subcommittee will 
be given an allocation----
    Mr. Lubell. Right.
    Mr. Wolf. And in the CR, if you look at the CR, we are 
heavy in protecting NSF and NASA. Others took quite a big hit.
    Our hands, Mr. Fattah's hands are now tied because when I 
was in the minority I could differ, but generally we are going 
to have to reach the budget numbers. This is a pretty 
impressive year. I think if we could have video conferenced 
this and allowed the President, his Chief of Staff Daley and 
Mr. Lew to look at this, I think it could have made a 
difference.
    Mr. Lubell. I agree.
    Mr. Wolf. Niall Ferguson, the historian who I have great 
respect for said the great nations decline rapidly. Once 
decline comes, the flapping of the wings of a butterfly and all 
of a sudden it goes. I think we are really approaching that. We 
are going to have to hopefully resolve this by the end of the 
year. I would appreciate very much your sending that letter. I 
would hope that all of the groups here would ask to meet with 
the administration--obviously the President cannot meet with 
everybody. Put together a team prepared to deal with the 
Simpson Bowles Commission because we want to protect, or not 
only protect, I think the word is is to enhance, the funding on 
the sciences to make sure that we do whatever so we can create 
the jobs here. That is going to be where this thing comes out. 
I know there were some amendments on the floor in the CR where 
they took money out of NASA and put it into COPS.
    Mr. Lubell. Yes.
    Mr. Wolf. I am sure the members heard from the local law 
enforcement, and I understand, but until we get that deficit 
issue resolved it will be very tough, so thank you for doing 
that.
    Mr. Lubell. We are doing whatever we can to help. Thank 
you.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. I was out at the Sandia National Lab. It is an 
amazing thing that we as a nation should be proud of in terms 
of the investments that have been made.
    I agree with the chairman. I want to say a couple of 
things. One is, I do not assume because I am in the minority 
that that gives me some notion of being irresponsible. I am 
committed that we are going to come to a bipartisan process in 
the subcommittee and have something that we can support. I am 
going to work with my chairman, and he has got to work with an 
allocation.
    I do want to note that I am going to also introduce a bill 
next week that would focus on the other side of this equation.
    David Walker, who I think has done remarkable work getting 
the nation focused on the debt, yesterday said this problem is 
not going to be solved by cuts alone, that it is impossible. It 
was Roll Call's editorial last year that said that the proposed 
cuts in the scientific and innovation areas are eating our 
country's seed corn.
    So we have to work within an allocation, but we also need 
to point the direction. Partly it is about entitlement reform, 
but it is also understanding that we are going to have to raise 
the stakes in terms of having the revenue we need focused on 
the priorities to insure our position as the number one nation 
in the world.
    So thank you.
    Mr. Wolf. Thank you.
    Mr. Lubell. Thank you.
    Mr. Wolf. Thank you very much.
    The next is Congressman Sam Farr from California. How are 
you, Sam?
                              ----------                              

                                          Friday, March 11, 2011.  

              NATIONAL OCEANIC ATMOSPHERIC ADMINISTRATION


                                WITNESS

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Farr. Well, our coastline is a little threatened, but 
it seems to be okay from the tsunami, and I would just like 
to----
    Mr. Wolf. What have you heard? We have been in here all 
morning.
    Mr. Farr. Well, there was a huge earthquake in Japan.
    Mr. Wolf. No, I know that, but with regard to California.
    Mr. Fattah. We have not been here since that early in the 
morning.
    Mr. Wolf. No, we followed it all morning, but----
    Mr. Farr. Well, California put out a coastal all along the 
west coast was a tsunami warning.
    Mr. Wolf. Right, but I mean has anything happened?
    Mr. Farr. No.
    Mr. Wolf. No.
    Mr. Farr. It is a great advertisement for everybody to rush 
to the very spot they should not be in is to go to the beach 
and watch it. Because every time they have done one of these 
tsunami warnings nothing has happened so people want to see 
what is going to happen. Some day we are going to have a 
crisis.
    Mr. Wolf. Now I will tell you for the record this committee 
several years ago when the tsunami took place we sent a letter 
to every governor and I believe almost every mayor. We sent a 
letter to everybody urging them on the tsunami warning system 
and hopefully some of that came in effect.
    Mr. Farr. Well, I would like to invite you out as a 
committee to come see what we have done on the west coast. I 
mean it is phenomenal the amount of technology we have put into 
it along the Hawaii----
    Mr. Wolf. Yes.
    Mr. Farr [continuing]. To do this early detection system so 
that the warnings-- we have never had these warnings in the 
past.
    Mr. Wolf. I know.
    Mr. Farr. I think until you have a chance to just see how 
much of this globe is ocean and how the majority of all that 
flying was over ocean and how big that Pacific ocean is, and we 
flew from Andrew's Air Force Base to refuel in Shannon and then 
spent the night in Kuwait, and talking to the pilots just over 
the north Atlantic 20,000 aircraft a day. They are lined up 
every 25 miles apart going in each direction, and the interest 
is all of that depends on the weather forecast of whether that 
line up is going to be going this way or this way or this way. 
It is all based on weather, but that amount of cargo and people 
is just phenomenal. Versus the southern hemisphere we flew 
across the entire Indian ocean and one commercial aircraft 
passed us. So the northern hemisphere and the amount of 
instrumentation you put in there through NOAA.
    But I am here to not so much talk about the weather stuff, 
because you know frankly in the commerce budget there is a lot 
of sort of contract, big contractors in that. Think of all the 
satellite stuff and all of the material they need. The ocean on 
the other side is where our manpower, scientists are, and NOAA 
has always put more money in the atmosphere side than they do 
in the ocean side, so I am going to kind of make a pitch today 
for the oceans because we woke up this morning hearing about 
what the impact of an earthquake was on one country's ocean and 
could have a consequence on us.
    I mean I do this every year, it is kind of a focus, but I 
want to just point out to you, Mr. Chairman, and I think you 
understand this because you would not be in politics as long as 
you are, but in Virginia and Maryland the commercial seafood 
industry contributes $2 billion in sales and supports 41,000 
jobs, but why NOAA is so important is because the environmental 
conditions which allow that industry to be healthy when they 
are not right have huge economic costs.
    The pollution and poor water quality has degraded oyster 
reefs in Chesapeake Bay, the losses in Virginia and Maryland's 
oyster industry have been more than $4 billion in losses, and 
our national economy depends on NOAA being able to do its job 
so that the commerce from the ocean can move, and yet in this 
budget we have a $54 million decrease in NOAA and it has 
trickled down consequences that I think we need to be aware of.
    First of all if the Appropriations Committee is going to 
count on the sort of baseline data that it was in H.R. 1, I 
would hope that you would really drill down on doing oversight 
on what that trickle down effect is going to have, because we 
just passed that without any discussion, no hearings and all 
that. But the examples of cuts, there is a $10 million cut to 
the Marine Sanctuary Program, and marine sanctuaries are not 
everywhere, but where they are they are a big economic asset, 
plus a huge scientific asset. There is a $10 million cut to the 
Cooperative Research Program. That thing benefits as it points 
out it was cooperative between fishermen and scientists.
    We are going to catch shares which we really support on the 
west coast, it has been controversial on the east coast, west 
coast love it, fishermen are in it, this is going to be a 
managed system, it is going to be a lot safer for fishermen, it 
can be smarter. And essentially what fish shares does is it 
allows you to catch shares, is that you are allocated a tonnage 
of fish that you can catch within these seasonal conditions. 
And something those seasons are short, but then that means you 
got to go out then, right then and catch it all or try to catch 
it all and you put yourself and your boat and your crew at 
risk. Now you know what you are allotted, you can go out any 
days you want, you wait for a day that there are better 
conditions for fishing, it is a lot safer, and frankly not all 
of the fish get hit the same day by all the boats. So it is 
just less bombardment on the fish stocks.
    So it has really improved the stock assessment and it is a 
win-win and you are going hear a lot of controversy from the 
northeast here, you know, around the New England states, but if 
you do take a hatchet at that please exempt the west coast and 
Alaska because they are very, very satisfied with the catch 
share program.
    I am here to put the ocean back into NOAA, to put the O 
back in. I think a few years ago I complained that they were 
cutting so much out of the ocean we ought to change the 
agency's name to NAA.
    And again, you know what was also amazing, we were at East 
Timor, this was the house democracy partnership committee in 
Indonesia. Indonesia looks a little small on that map, but it 
is the fourth largest populated country in the world. It was 
longer than the United States is wide. It is made up of 17,000 
islands. It is the largest Muslim democracy in the world. And 
it is very pro-U.S. But you cannot get there unless you fly 
over oceans.
    And when we got out and went into these small islands, I 
just could not believe the amount of trash that was on the 
beaches. In East Timor, one of the poorest countries in the 
world, they could not generate that trash because they do not 
have a capital to buy that stuff. There is lots of plastics and 
tires and all kinds of stuff that you just do not see on the 
island, it is not in the economy, it got there from the oceans, 
and you realize my God, if this stuff is on the beaches from 
the oceans then it has got to be all over the waters. And you 
know, if the ocean does not stay healthy we are dead, because 
life on the planet depends on healthy oceans. And you are the 
only committee that has all this jurisdiction and I just really 
appreciate it.
    And lastly I want to put in a pitch for two programs that 
are in your justice category because they really work. One is 
the COPS Program that our communities have been able to take 
advantage. And you know they have to put up their own capital 
to continue hiring the cops, there is no free lunch there. And 
California's cost is much higher than the nation because that 
program is the same salary for every cop in the nation 
regardless of what the local conditions are, but even with that 
we get the smaller return than a less costly state or salaries 
are lower in other states, those strapped communities are 
excited about getting into the program because it is the one 
hand out there that allows them to get cops right in the areas 
where we are facing trouble.
    And the second issue in your jurisdiction there is the drug 
courts. I know your predecessor was really keen on it, I think 
that diverting people out of the regular criminal process and 
getting them in through courts where they are going to get 
treatment, because without treatment--you can convict people 
for drug crimes, but if they go into prison they are going to 
go stay addicts, they are going to do strange things while they 
are locked up and they are going to go right back to doing 
strange things when they get out, and drug courts have been 
very effective at getting diversion and treatment and I am 
really appreciative of that.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you. Jim Ramstad was just here to testify 
too.
    Mr. Farr. Thank you.
    Mr. Wolf. Thank you, Sam, I appreciate it.
    Mr. Farr. Thank you very much, thank you for your 
leadership.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Farr. And I will get you all a fax about the New Jersey 
shores, okay.
    Mr. Wolf. Avalon.
    Mr. Farr. At least you have got a television program out of 
it. Thank you.
    Mr. Wolf. Thanks, Sam.
    Next American Society of Civil Engineers, Tom Smith.
                              ----------                              --
--------

                                            Friday, March 11, 2011.

                  AMERICAN SOCIETY OF CIVIL ENGINEERS


                                WITNESS

TOM SMITH, EXECUTIVE DIRECTOR/GENERAL COUNSEL, AMERICAN SOCIETY OF 
    CIVIL ENGINEERS
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman and Mr. Fattah and members of the committee 
and staff I want to thank you for the opportunity to be here 
today. It is a great pleasure to be here. I thank you for your 
service to this committee. I agree with the chairman that this 
is a very impressive committee and much of what I want to do is 
reinforce some of the comments that you have made from the 
distinguished colleagues that have already spoken, and I thank 
you also, Mr. Chairman, for your leadership in Virginia, I am a 
lifetime resident of Fairfax County and appreciate your 
leadership here today and everything you have done to us.
    We are pleased to offer this testimony in support of the 
$7.767 billion budget for the National Science Foundation and 
also the $1.001 billion budget for the National Institute for 
Standards and Technology for fiscal year 2012.
    We recognize that you must make difficult decisions as have 
been eluded to earlier. We believe however that the plan put 
forth by the co-chairs of the national commission on fiscal 
responsibility and the President's fiscal year 2012 budget 
recognized the importance of investment in science and research 
which are critical to the competitiveness and future of this 
country.
    ASC publishes a report card that we update every four years 
and you may have heard President Obama reference it in the 
State of the Union speech where he referenced the grade of D 
for our country's infrastructure which is you know another 
issue, and the funding recommendation that we have over the 
next five years is $2.2 trillion to meet national 
infrastructure needs.
    Now recognizing that the spending at this rate is unlikely, 
research is needed to increase productivity and reduce costs 
through the development of innovative design materials, 
construction methodologies, and rehabilitation technologies, 
maintenance procedures, and operation techniques. We think it 
is particularly important for the federal government to be 
involved in this area.
    You know, in our industry, you know, you see a certain 
amount of fragmentation with, you know, subcontractors and 
different disciplines involved in design and construction, 
there is also low profit margins, and you also see the constant 
threat of litigation which has a tendency to stifle innovation, 
so this topic of tort reform is probably another topic which we 
would love to see advanced in another forum, but recognizing 
the difficulties in the private sector and innovation in this 
area is particularly important we believe to have organizations 
like NSF and NIST and other federal agencies that can help us 
realize the goals that are necessary in science and technology.
    According to the National Academy of Sciences, more than 
half the increase in the U.S. gross domestic product in the 
last 50 years can be attributed to advances in science 
technology, innovation, and engineering, it effectively touches 
everything we do, and we do believe that by making an 
investment like this we are going to be able to focus on the 
revenue side for this country as well.
    This solution to many nations' and the world's greatest 
challenges are energy, environment, food and water, health 
care, economic growth, and others depend on advancement in 
science, technology, innovation, and engineering.
    The support that the federal government has provided for 
basic research and development, the primary function of the 
National Science Foundation has helped this country retain its 
world leadership position in research and education and science 
and engineering, but we believe that that position is as 
precarious as has been eluded to earlier with the National 
Academy of Engineering's report that came out last year on the 
Rising Above the Gathering Storm revisited.
    Without qualified scientists and engineers there can be for 
innovation, our education system is not meeting the needs of 
our society and many elementary, middle, and high school 
students do not receive adequate instruction in math and 
science such that the possibility of studying engineering at 
the college level is inhibited, and I agree with a lot of the 
comments from the mathematical society that you heard earlier 
and the concerns about the statistics regarding diversity and 
attracting the best and brightest to our profession which is so 
critical to the future of this country.
    ASE supports the President's request of $231 million for 
the K through 12 science technology, education, and mathematic 
programs at NSF.
    We also urge Congress to carefully consider K through 12 
STEM funding throughout the federal government. Our nation's 
future competitiveness and the global marketplace is directly 
tied to the ability of your schools to prepare children in the 
STEM fields.
    The mission of the National Institute of Standards and 
Technology is to promote U.S. innovation and industrial 
competitiveness by advancing measurement science standards in 
technology in ways that enhance economic security and improve 
the quality of life. The well being of the nation is effected 
every day by mismeasurement and standards work including the 
quality of your water, air, food, et cetera. We fully support 
the request for $678 million to fund these vital activities.
    The national laboratory at NIST is also a relatively small 
program that addresses a large need including fire science, 
fire safety engineering, building materials, computer 
integrated construction practices, structural, mechanical, and 
environmental engineering and building economics.
    We also applaud NIST for its strong leadership in this area 
and urge Congress to continue to support these activities 
including the engineering laboratory's $91 million request 
which includes the disaster resilient buildings infrastructure 
and communities initiative at $10.6 million.
    Finally we also urge Congress to support the national 
construction safety team with an appropriation of at least $1 
million.
    Once again, we thank you for your service for this country 
and the opportunity to be here today for speak in favor of 
these important programs.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you for your testimony.
    Mr. Fattah.
    Mr. Fattah. I thank you for your testimony and we have our 
work cut out for us. But you know, I am sure that the chairman 
and I are going to figure it all out.
    Mr. Smith. We have confidence in you.
    Mr. Wolf. Thank you very much.
    American Society for Quality, Dr. David Spong.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                      AMERICAN SOCIETY FOR QUALITY


                                WITNESS

DR. DAVID SPONG, PRESIDENT, AMERICAN SOCIETY FOR QUALITY
    Mr. Spong. Mr. Chairman, Mr. Fattah, my name is David 
Spong, I appreciate the opportunity to testify before you 
today.
    I represent the Foundation for the Malcolm Baldridge 
National Quality Award which serves to raise money to support 
the Baldridge Performance Excellence Program.
    I am also here today as president of the American Society 
for Quality, a professional association and the leading 
authority or quality which has administered the Baldridge award 
since 1991. Additionally an alliance of 33 similar state award 
programs support my testimony.
    Mr. Chairman, I am testifying today to support full funding 
for the Baldridge Program, a program that may seem small in 
size in funding, but the very large in the way it positively 
impacts our country, its citizens, companies, customers, and 
right now perhaps most importantly jobs, and I should know, I 
have had the honor of leading two organizations to receive the 
Baldridge award. I have seen firsthand how the real life 
application of the Baldridge principals can improve 
organizational excellence. Believe me it works.
    As an example, in 2010 the 83 Baldridge applicants 
represented almost 300,000 jobs, $38 billion in revenue, and 
greater than 80 million customers. And now the very program 
which has proven its measurable worth over and over is coming 
under misguided pressure to cut its funding at a time when our 
economy needs it most.
    President Obama's fiscal year 2012 budget recommends 
reducing funding for the Baldridge Program by $2.2 million out 
of about 10 million. He recommends evaluating ways to 
transition out of federal funding and have the private sector 
shoulder the cost.
    The foundation or any other private organization in my view 
would not be sustainably capable of achieving the goals and 
true mission of the effort nor provide the prestige and 
patriotic almost of the program if it were to be privatized.
    In fact if I were president I would ask Congress to 
increase the funding for the program, not decrease it so that 
its impact on the U.S. economy would be even greater.
    Mr. Chairman, with all respect continued federal funding of 
the Baldridge Program at current levels is not only critically 
necessary, but completely economically justifiable to the U.S. 
government even in these times of significant budget pressure.
    The Baldridge Program is a very strong example of an 
appropriate use of leverage dollars. An independent study 
calculates a 207 to 1 rate of return to the economy for every 
dollar the government invests in it.
    The Baldridge Program is the only U.S. public private 
partnership dedicated to improving U.S. organizations so that 
they can complete globally. It educates business, education, 
health care, and non-profit organizations on best practices in 
organizational management.
    The federal funding is in fact only a fraction of the total 
amount of hours funding and value contributed to the program, 
yet government support is critical as it provides the 
leadership, prestige, integrity, independence, consistency, and 
continuity the program needs, and without an efficient and 
effectively managed program as it is now through NIST the 
entire stakeholder system would collapse.
    The government contributions to the Baldridge Program is 
supported by those thousands of experts who volunteer as an act 
of patriotic service to their country. The $9.6 million 
appropriation for the program is one of the best investments 
taxpayers can make to promote economic growth and improve 
America's competitiveness.
    Mr. Chairman, I respectfully urge you to vote to invest 
fully in the Baldridge Program.
    Thank you for this opportunity to insure that you know how 
important the Baldridge Performance Excellence Program is to 
our country, and I would be happy to answer any questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. I have no questions, but thank you for your 
work in this area.
    Mr. Spong. Thank you.
    Mr. Wolf. Thank you, sir.
    University Corporation for Atmospheric Research, Dr. 
Roberta Balstad. Welcome.
                              ----------                              

                                          Friday, March 11, 2011.  

            UNIVERSITY CORPORATION FOR ATMOSPHERIC RESEARCH


                                WITNESS

DR. ROBERTA BALSTAD, MEMBER, BOARD OF TRUSTEES, UNIVERSITY CORPORATION 
    FOR ATMOSPHERIC RESEARCH
    Ms. Balstad. Thank you very much.
    Mr. Chairman, on behalf of the University Corporation for 
Atmospheric Research or UCAR, I appreciate the opportunity to 
testify before you today.
    I am a trustee of UCAR and a special research scientist at 
Columbia University.
    UCAR is consortium of over 100 research institutions that 
operate the national center for research on atmospheric 
research.
    My testimony regarding the NSF begins with a cautionary 
tale. Last December Richard Anthes, UCAR's president, was on a 
team to evaluate China's national science foundation. His 
experience was eye opening. The budget of the Chinese NSF has 
increased by over 20 percent annually since its founding in 
1986. In 1949 there were about 600 Chinese citizens working on 
scientific research and development. By 2009 there were 51 
million. China now has the world's fastest super computer and 
its students have the world's top scores in reading, 
mathmatics, and science.
    China is investing in R&D and education in the same 
aggressive manner as the United States did decades ago, and 
because of this investment over the past several decades we 
have created the world's largest and most successful economy. 
If we abandon that approach to economic growth at the same time 
as our competitors are adopting it the consequences could be 
dire.
    For evidence of how NSF effects the economy and jobs just 
one example look at Sergey Brin, cofounder of Google, who began 
his work on search engines with the support of an NSF graduate 
fellowship.
    On behalf of UCAR I urge you to support the full fiscal '12 
requests of 7.8 billion for NSF.
    NASA's new and ongoing satellites as recommended by the 
National Academy of Sciences decadal survey are also essential 
both to support national priorities and to respond to 
catastrophic natural hazards which are on the rise here and 
globally.
    Given the critical importance of these satellite 
measurements to the private sector, to state and local 
government, managers, and decision makers, to first responders, 
and to scientific research, the nation must not allow any 
further delay in the deployment of these resources.
    On behalf of UCAR I urge the committee to fund the full 
fiscal '12 request of $5 billion for NASA science mission 
directorate.
    NOAA operations save lives, protect valuable natural 
resources and property and serve many industrial sectors. 
Despite these critical functions NOAA faces an uncertain 
budgetary outlook year after year.
    Now in addition to a request for fiscal '12 funding that 
the below the fiscal '11 levels NOAA is having difficulty in 
getting approval to organize itself in a manner that is 
responsive to the needs of the nation. We must have sustained 
information to deal with changes and long-term weather patterns 
that cause droughts and floods, hurricanes, and blizzards, and 
effect all aspects of the economy, including national security.
    On behalf of UCAR I ask that the committee allow NOAA to 
implement the planned no cost reorganization that will provide 
this country with a much needed climate service. Further I ask 
the committee to fund NOAA at least at the fiscal '12 request 
level of $5.5 billion. This will allow NOAA to make progress in 
replacing aging weather satellites with a joint polar satellite 
system. The economy and the safety of the American people 
depend upon having access to accurate weather information.
    Mr. Chairman, we know that we all must become more 
economical, and I believe that we are up to making the 
sacrifices that task entails, but I urge the committee to give 
high priority to funding for science agencies that support our 
nation's R&D, that promote economic and job growth, and that 
contribute to the continued global competitiveness of our 
nation.
    I thank members of the committee for your stewardship of 
the nation's science enterprise.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much for your testimony. On the 
reorganization that has not been authorized yet, and I think 
Mr. Hall is looking at that. I think they are going to have 
hearings and I think that is the one hang up.
    Ms. Balstad. Okay.
    Mr. Wolf. But I appreciate your testimony.
    Mr. Fattah.
    Mr. Fattah. I want to thank you and I thought the numbers 
relative to China were startling. You know, we get distracted a 
lot. We spend a lot of time on earmarks, which are about half 
of one percent, and we are focused on these spending cuts, 
which is a one and a half percent proposition at the maximum, 
neither of which solves our problems. You know, our tax rates 
are at the lowest they have been since 1950.
    Ms. Balstad. Yes.
    Mr. Fattah. But you were right, our competition is moving 
quickly and we are going to have to really think hard and long 
on all of this.
    So thank you very much.
    Ms. Balstad. Thank you.
    Mr. Wolf. That is a very depressing figure about the 51 
million.
    Ms. Balstad. Yes.
    Mr. Wolf. Association of Science-Technology Centers, 
Anthony Bud Rock, executive director. Did I skip over one? Oh, 
I did. Well, it does not matter, unless you are catching a 
plane and since you are there just go ahead. Go ahead, you look 
like you are looking at your watch, come on, go ahead.
    Mr. Fattah. You can come up together if you like.
                              ----------                              

                                          Friday, March 11, 2011.  

               ASSOCIATION OF SCIENCE-TECHNOLOGY CENTERS


                                WITNESS

ANTHONY ``BUD'' ROCK, EXECUTIVE DIRECTOR, ASSOCIATION OF SCIENCE-
    TECHNOLOGY CENTERS
    Mr. Rock. Chairman Wolf, Ranking Member Fattah, it is nice 
to see you again and thank you for the opportunity to come 
before you on what I know is a long day for you to speak on 
behalf of the education programs in the National Science 
Foundation, NOAA, and NASA.
    My name is Bud Rock and I am the chief executive officer of 
the Association of Science-Technology Centers, ASTC. And ASTC 
is a non-profit organization of science centers that are 
providing quality education experiences to students and 
families and further in public engagement with science among 
increasingly diverse audiences. We have nearly 600 
institutional members in 62 countries, we collectively count 
about 82 million visits to your institutions annually. In the 
United States alone your constituents are passing through the 
doors of your science centers about 60 million times a year and 
they are getting intriguing educational science activities when 
they do.
    The message contained in my written statement focuses on 
the vital role of the science centers and science museums in 
providing a substantive high quality educational offering in 
STEM education for students, for teachers, and for the general 
public.
    I am here before you today because the subcommittee is 
vital in this STEM education debate. The subcommittee provides 
40 percent of all of the federal support for STEM education 
through competitive merit based and appropriately mission 
focused programs at NSF, NOAA, and NASA.
    In fiscal year 2010 the informal science education program 
with the National Science Foundation would receive $68.14 
million under the administration's request and the education 
programs at NOAA and at NASA would receive $20.84 million and 
$138.4 million respectively.
    In defense of the modest resources designated for these 
programs let me simply acknowledge that there is a universal 
call in this country for improvements in STEM education, in 
student learning, and in teacher training to enable this nation 
to retain and sharpen its competitive edge, that is exactly why 
90 percent of our science centers are providing curriculum 
oriented classes and demonstrations. Ninety percent are 
offering safe and productive science based outreach programs 
outside the school day. Almost 85 percent are providing teacher 
training in a range of forms from formal certifications in 
science teaching onward. Seventy-five percent are offering 
curriculum support materials for their school districts and 
beyond, and many of these programs and tools are made possible 
by the grants provided by NSF, NOAA, and NASA.
    Mr. Chairman, as a proud Virginia resident myself I was 
informed of a story that you recounted some time back about 
going to a school in your district one evening to attend a 
science fair and the event was taking place on the same evening 
as a major televised sporting event, I think it may have been 
the NCAA.
    Mr. Wolf. I think it was the World Series.
    Mr. Rock. Okay. I heard that it may have been George Mason 
in the final four, but----
    Mr. Wolf. No, it was the World Series and Dr. Ballard was 
speaking at Rachel Carson Intermediate. No, it was the World 
Series.
    Mr. Rock. If I understand correctly from what I have heard 
is you yourself remarked that despite a major sporting event at 
that time the parking lot was filled and there was standing 
room only with students and teachers. Yes, remarkable, the 
excitement and the enthusiasm associated with a science-based 
activity.
    And frankly, Mr. Chairman, this nation needs to find a way 
to bottle that and to distribute it over the entire country 
exactly what you observed that evening.
    I think the hands on experiential opportunities that we are 
providing inspire you, they inspire their interest, they 
inspire them toward careers, and they prepare them for the 
future of national prosperity and security.
    I deeply appreciate that this subcommittee and your 
colleagues have a nearly impossible task to allocate the scarce 
resources between so many worthy and important functions. 
Somehow we have to get both our fiscal house in order and your 
suggestions today have been heard and understood and will be 
taken back and we still need to invest in these programs that 
guide our children and their children toward a brighter future.
    Let me just simply say that I hope that this subcommittee 
will take into account the support that has already been 
provided, the resources that already have been provided to 
these federal agencies and that will help to meet the goals to 
the inspirational hands on activities that science centers and 
science museums can provide.
    Thank you very much for the opportunity to appear and I am 
happy to take any questions you might have.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. I think almost everything has been said. 
Everyone has not said it, but thank you for your contribution.
    Mr. Rock. Thank you so much.
    Mr. Wolf. Thank you again.
    And again I apologize for jumping ahead. The International 
Research Institute for Climate Society of the Earth Institute 
at Columbia University.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

               THE EARTH INSTITUTE AT COLUMBIA UNIVERSITY


                                WITNESS

DR. STEPHEN E. ZEBIAK, DIRECTOR-GENERAL, INTERNATIONAL RESEARCH 
    INSTITUTE FOR CLIMATE AND SOCIETY, THE EARTH INSTITUTE AT COLUMBIA 
    UNIVERSITY
    Mr. Zebiak. Thanks. Chairman Wolf, Ranking Member Fattah, 
thank you for giving me the opportunity to speak to you today.
    My name is Steve Zebiak and I am the director general of 
the International Research Institute for Climate and Society, 
we call ourselves IRI for short, we are based at Columbia 
University.
    My remarks concern international climate research and are 
relevant to the proposed fiscal year 2012 NOAA budget.
    Last fall Medhin Reda who farms about one acre of land in 
Adi Ha, Ethiopia was able to afford crop insurance for the 
first time. She bought what is called index insurance, an 
innovation created by the IRI in partnership with Oxfam 
America, Swiss Re insurance, and local banks in Ethiopia.
    What makes it affordable is that it is indexed to climate 
conditions verifiable by rain gauges and satellite remote 
sensing. Farmers everywhere are subject to the vagaries of 
climate variations. With this innovation the poor can obtain 
some of the protection which previously has been available only 
in rich countries.
    Insurance is a form of adaptation to climate which is 
basically the core business of your program. Our immediate 
concern is with natural variations like El Nino and La Nina, 
but our products apply to all climate variations whatever their 
causes.
    Savvy American farmers think about global markets and 
global competitors. They tell us that they are keenly 
interested in climate impacts on their competitors around the 
world and on export markets. The worldwide rise in food prices 
fed in good measure by climate calamities like last summer's 
heat wave in Russia have potent implications for our own 
security interests.
    Over the past 15 years the IRI has built a unique 
capability to address the need for climate information of both 
average American citizens and those engaged with our national 
security throughout the world. Our work is about understanding 
tomorrow's environment and creating strategies to deal with it. 
IRI helps developing countries understand and adapt to the 
climate variations that can imperil people by flooding, 
contaminating water supply, increasing vector-borne diseases 
such as malaria and other climate sensitive diseases like 
meningitis.
    Our program is the main part of NOAA's international 
climate program and, the only federal program in the climate 
area doing this kind of work and providing this kind of 
information. We are proud of your humanitarian contributions, 
but also proud of the value of what we do for policymakers at 
all levels.
    Mr. Chairman, we are concerned that the fiscal year 2012 
NOAA budget proposes to cut support for this valuable 
international climate activity by two-thirds, thus jeopardizing 
its future. We believe that it is in the United States' 
national interest to continue the existing international 
climate activity for some of the reasons that I have already 
mentioned, and urge the committee to restore funding for it to 
its current levels.
    Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Well, thank you. You ought to tell your local 
newspaper, the New York Times, they ought to get with the 
program though. They never say anything constructive on this.
    People can come and say we need funds. I want to fund every 
single entity that has testified today. Maybe there is one or 
two that I might take difference with on an earlier panel. 
Unless we ask how are we going to pay for it; $14 trillion of 
debt, last month we had the largest deficit we have ever had 
for one month.
    Now I may not have the best approach. Five years ago I put 
in a bill. We had 140 co-sponsors, for a bipartisan commission 
that put every single thing on the table. I was the author of 
this Iraq Study Group, Baker-Hamilton. We cannot get this 
administration to come forward.
    And I hope it does not make Mr. Fattah uncomfortable, 
because I was equally critical of the Bush administration. I am 
going to put all those letters in the record. I am going to 
give Mr. Fattah copies of them all so he can see, because there 
is a normal inclination that I respect, that when someone is 
going after your team, your administration, you sort of feel 
this obligation to sort of defend them.
    I did in the past, but for a whole period of time, and when 
you get the printed record of this testimony you will be able 
to see the letters that I sent to Paulson and to the last 
administration who frankly did nothing. They did nothing.
    But now we are at a tipping point and we really have to 
come forward to say okay, we are going to fund these programs, 
but here is how we are going to do it.
    Also I have not signed the no tax pledge. I am not 
intimidated by anybody. I am going to do whatever I have to do. 
I do not like to raise taxes. I do not want to raise taxes. I 
want to see how we can cut first. But, I also want to deal with 
the entitlements. The Simpson Bowles Commission is sort of a 
grand compromise. A grand compromise that not everyone really 
feels totally comfortable with. But you know that they are kind 
of moving in the right direction. So we really are going to 
have to get it out of this administration to participate with 
us.
    I mean the President has a much more powerful office than I 
have. I can say from my congressional district that I am going 
to support the Simpson Bowles Commission. He certainly can say 
it. He is much more articulate than I am. He can give his 
better speech. I have been a lifelong stutterer, I could not 
compare speaking to as well as he does, but I know in my heart 
of hearts that I cannot kid myself. I cannot pretend that there 
is something else out there. I know the realities. It is kind 
of like when you go take a test. A doctor says this is what the 
MRI has demonstrated your problem is, and we cannot hide from 
it. At the State of the Union message the President had an 
opportunity to lead the way that President Reagan did on a 
couple of things in a bipartisan way and to sort of force the 
Congress. I believe, and I want to say on behalf of the 
leadership of my side, I believe that John Boehner is committed 
deeply to deal with this issue. To deal with the issue of the 
debt and the deficit by dealing with the entitlements, but we 
have got to do both. So I think we can. That is what leadership 
is about.
    Maybe some people will be defeated by it. I do not know 
what is going happen. We do not know where this is going to go. 
My sense is though that the American people are actually ahead 
of the political leadership on both sides of the aisle and on 
both sides of the Senate.
    So when you tell the editorial board of the New York Times 
that we want to do these things, let's come together again in a 
bipartisan way, because you know we can make points. It is 
easy, this place is a point making place. Do we want to make a 
difference? And if we want to make a difference for the future 
for the programs we have got to come together in a bipartisan 
way. There is no other way. It is impossible to do this if it 
does not have the support, not of a majority of everybody on 
both sides of the aisle, but a majority of both sides of the 
aisle whereby we basically link arms together and say okay, 
this is a tough vote. But we are going to do it because we 
think we want to fund the sciences, and to protect the poor. 
You got to though say then what will your recommendation be and 
how will you deal with the issue of Medicare, Medicaid, and 
Social Security?
    And I appreciate your testimony. I am glad you are helping 
the third world like in Ethiopia.
    Mr. Fattah.
    Mr. Fattah. Let me try to make a difference.
    The chairman and I voted the same way on the question of 
trade relationships with China years ago. We share a lot more 
in common than one might suspect, but that is because we are 
both from Philadelphia originally.
    So here is the deal. I was here, we balanced the budget 
under Clinton, we made some tough cuts, we raised some taxes on 
the highest income people, and we balanced the budget. And that 
shows that as a matter of science it can be done again. That 
is, it was done once, it can be done again, and it cannot be 
repeated unless it is done in the same way. That is, if it is 
done in a bipartisan way, there is going to have to be a 
balance between new revenues and cuts.
    And David Walker said that yesterday. I think that what is 
called the Simpson Bowles Commission is in fact the President's 
commission on debt appointed by the President under an 
executive order after supporting a bipartisan bill in the 
Senate that failed.
    So the President does have a responsibility to lead and I 
believe that with Speaker Boehner we have the team to make this 
happen. We just have to kind of get past the distractions 
first, and we spend a lot of time on distractions.
    One and a half percent of the spending cut, the $61 
billion, will not solve our problem. Cutting earmarks, half of 
one percent, will not solve our problem. We have to have a 
comprehensive approach. I support Simpson Bowles, or the 
President's Commission. It is not enough. It does not balance 
the budget. It still leaves us in the hole. We need to take a 
non-incremental approach to getting our fiscal house in order 
because we actually have more important work to do, which is to 
compete in a global economy.
    So I want to support any comprehensive approach to solve 
this problem. I am even going to offer my own next week. I 
think there is a lot more support among the members of the 
Congress to get this resolved. There have to be points made on 
the political side, we are going through that now, but I 
believe that over the horizon we will have an opportunity to 
resolve this matter.
    Thank you.
    Mr. Wolf. Thank you, Mr. Fattah, thank you very much for 
your testimony.
    The next, University of Virginia, Tom Skalak, Ph.D. from 
Charlottesville. Good to see you. Two of my kids went to UVA.
                              ----------                              --
--------

                                          Friday, March 11, 2011.  

                         RESEARCH AND EDUCATION


                                WITNESS

TOM SKALAK, PH.D. PROFESSOR, BIOMEDICAL ENGINEERING & VICE PRESIDENT 
    FOR RESEARCH, UNIVERSITY OF VIRGINIA
    Mr. Skalak. That was a good choice.
    Chairman Wolf and other members of the subcommittee thank 
you for the opportunity to provide this testimony today.
    As the vice president for research at the University of 
Virginia, a public university located in Charlottesville, 
Virginia, I speak on behalf of our Research and Education 
Programs. Founded by Thomas Jefferson to serve the entire 
nation, UVA sustains the ideal of developing leaders who shape 
the nation. UVA conducts science and engineering research that 
helps maintain our national economic strength and competitive 
edge in the world. In 2010 UVA received over $276 million in 
federal funding for research.
    I urge the committee to support the President's proposed 
increases for the federal science agencies including the 
National Science Foundation, NIST, the Department of Commerce's 
Economic Development Administration, and science aeronautics 
and space technology within NASA.
    Last year UVA received over $29 million in NSF grants to 
conduct research that improves our nation's wireless networks 
and enhances cyber security, develops new heating technologies 
that moves a nation toward energy independence, revolutionizes 
tissue regeneration of injured nerves and ligaments helping to 
reduce health care costs, and increases the number of women and 
minority students in STEM fields.
    NSF is at the forefront of efforts to insure that 
scientific research is transformed into products that help the 
lives of Americans.
    My own NSF partnership for innovation grant created a 
global network linking universities and industries in 
bioengineering and biomedical engineering, enhancing innovation 
in this important American industry, one of the few in which 
exports greatly exceed imports.
    UVA in partnership with the Coulter Foundation is bringing 
discoveries to the marketplace. An independent audit showed 
this year that our proof of concept funds produced a 5 to 1 
return on investment after five years and a 42 to 1 return on 
investment for the top 10 percent of our portfolio projects 
spinning out new small businesses and creating new jobs in the 
United States. This high performance and proof of concept 
research makes a difference and offers a model that could guide 
enhanced federal funding for proof of concept programs 
nationwide.
    UVA supports the proposed increases for NIST and the EDA 
because their technology innovation program and regional 
innovation program promote collaboration between universities 
and industries. A successful example of this is the 
Commonwealth Center for Advanced Manufacturing, a partnership 
between UVA, Virginia Tech, John Tyler Community College, and 
industry partners. This partnership has created a research 
facility at a new Rolls Royce manufacturing site in an 
impoverished region of Prince George County. This center will 
spur manufacturing innovation that will improve U.S. 
competitiveness.
    I would like to thank the committee, particularly Chairman 
Wolf for your support of the federal science and engineering 
agencies and I hope that you will choose to support these 
strategic increases for the agencies. They lie at the heart of 
the U.S. innovation system which is the envy today of the rest 
of the world, they are the foundation of American 
competitiveness over the long term, they represent the 
pioneering American spirit for exploring new frontiers, and 
they are the only way to insure America's future, economic 
strength, and security.
    Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you, I appreciate your testimony very much.
    Thank you. Mr. Fattah.
    Mr. Fattah. I concur with the chairman.
    Mr. Wolf. Okay. Again, thanks for coming.
    Mr. Skalak. Thank you.
    Mr. Wolf. All right. The last witness is the Consortium of 
Social Science Associations, Howard Silver. Dr. Silver, 
welcome.
                              ----------                              

                                            Friday, March 11, 2011.

               CONSORTIUM OF SOCIAL SCIENCE ASSOCIATIONS


                                WITNESS

HOWARD J. SILVER, PH.D., EXECUTIVE DIRECTOR, CONSORTIUM OF SOCIAL 
    SCIENCE ASSOCIATIONS
    Mr. Silver. Thank you.
    Mr. Wolf. It says in the Bible ``the last shall be first,'' 
and so you are it.
    Mr. Silver. Yes, I appreciate it.
    I am Howard Silver, I am the executive director of the 
Consortium of Social Science Associations or COSSA. For almost 
30 years now we have been promoting attention to and federal 
funding for the social, behavioral and economic sciences.
    Our first executive director you just heard from, Dr. 
Balstad, who is also the person who hired me 28 years ago when 
she wanted somebody with a pair of young legs to run around the 
Hill, and I understand that completely 28 years later.
    I am here today to talk about three agencies, the NSF, the 
National Institute of Justice, and the Bureau of Justice 
Statistics. I usually also talk about the Census Bureau and the 
Bureau of Economic Analysis, but this year I would just like to 
associate COSSA with the previous testimony from Dr. Reamer.
    With regard to NSF, we support the President's fiscal 2012 
request as many of my predecessors up here today.
    I do want to talk about the role of SBE directorate. As you 
know, NSF is very important to the social, behavioral and 
economic sciences, and as I have heard over the years most 
discussions of scientific discovery leading to innovation--we 
hear a lot about activities in the physical and natural 
sciences and engineering, and I would like to argue that two of 
the most important discoveries in innovation came from research 
in the SBE sciences.
    In the mid 1980's NSF made a commitment to fund the 
National Center for Geographic Information Analysis at three 
universities. The basic research supported has evolved into the 
multi-billion dollar geographic information systems industries. 
These systems are now applied by states, counties, and 
localities for many purposes from planning to disaster response 
evidenced in New York City during the 9/11 attacks. GIS has 
also become the backbone of crime activities such as CompuStat 
that played such an important role in the crime reduction 
America has experienced in the past two decades.
    The second you heard about yesterday, that basic economic 
research has helped win Nobel prizes for some people as well as 
creating the maximizing of the option of the spectrum, and as 
you know NSF in the 2012 budget is involved in that as well.
    I would also like to say that the other day I was at the 
Press Club and there was a presentation that included people 
from IBM and Microsoft talking about cyber security which I 
know you spent some time on yesterday, and the emphasis there 
was on the technology will only go so far, we really have to 
pay attention to the human element, and so in the 2012 budget 
NSF is asking for cyber security funds that include the SBE 
sciences as well.
    And then with regard to the earlier talk about the tsunami 
and the earthquake, a lot of the research undergirding some of 
the things I think Congressman Farr talked about on risk 
communication, disaster response come from the SBE sciences.
    With regard to NIJ and BJS we are delighted with the new 
leadership--research scientists now leading the agency. Because 
these agencies have been underfunded for so long we ask the 
subcommittee to fund them at the fiscal '11 request level and 
also endorse Assistant Attorney General Robinson's request over 
the past few years for a 3 percent set aside of OJP funds for 
research and statistics.
    I want to thank the chairman for helping us present a 
briefing in the middle of February on crime and imprisonment, 
how to reduce both, which included former Attorney General 
Thornburgh and former police commissioner Bill Bratton, and I 
brought the journal that helped us do this that has the 
comments from Thornburgh and Bratton as well as James Q. 
Wilson.
    The NIJ has a new NAS report and John Laub the director is 
moving quickly to implement its recommendations, former 
Attorney General Meese, former D.C. police commissioner and now 
Philadelphia Commissioner Charles Ramsey were on the committee. 
The results brought a lot of attention to the relationship 
between research and practice. NIJ has been funding these hard 
rated executive sessions for years that included a number of 
police commissioners including D.C.'s Cathy Lanier.
    With regard to the Bureau of Justice Statistics, Jim Lynch 
is moving to implement the 2009 academy report and to upgrade 
the national crime victimization survey to making it more 
useful.
    And with that I thank you.
    But before I go I would like to say one other thing. I was 
here yesterday and I strongly endorse the subcommittee's field 
trip to Pat's Steaks in Philadelphia. You may remember from 
last year my wife is from Philadelphia and with due respect to 
you two gentlemen, the best thing to come out of Philadelphia 
besides her is cheesesteaks.
    Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Wolf. Thank you very much for your testimony, we 
appreciate it.
    Mr. Fattah.
    Mr. Fattah. I want to thank the chairman for conducting 
this hearing. And again, just so everyone knows, these 
statements, the complete statements are in the record. It is 
very important that we have a record so that when the 
subcommittee takes action, the record is clear. But the 
chairman has been here throughout and I have learned a lot from 
our witnesses.
    I agree with the associate attorney general's request for 
the evidence-based approach in the three percent set aside. I 
think that is critically important.
    I thank the chairman and look forward to continuing our 
work as we go towards getting our bill together. Thank you.
    Mr. Wolf. Great, thank you. Thank you very much, thank you 
all the witnesses.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
